Table of Contents
Message from the Secretary of the Air Force ………………………………………………………………………………………………...                         1

Message from the Assistant Secretary of the Air Force for Financial Management and Comptroller ………..…...    2

Management Discussion and Analysis
   Air Force Heritage ………………………………………………………………………………………………………………………………………                                    4
   Air Force in Action—FY 2013 ………………………………………………………………………………………………………………………                                 6
   Air Force Structure ……………………………………………………………………………………………………………………………………..                                  7
   Air Force Resources ……………………………………………………………………………………………………………………………………                                   11
   Management Assertions …………………………………………………………………………………………………………………………....                                 13
   Analysis of Financial Statements
        General Fund ……………………………………………………………………………………………………………………………………..                                   15
        Working Capital Fund …………………………………………………………………………………………………………………………                                 17



Financial Statements
     General Fund
          Principal Statements …………………………………………………………………………………………………………………………..                             22
          Notes to the Principal Statements ……………………………………………………………………………………………………...                       32
          Required Supplementary Stewardship Information …………………………………………………………………………...                    86
          Required Supplementary Information ………………………………………………………………………………………………..                         95
          Audit Opinion ……………………………………………………………………………………………………………………………………..                               102
     Working Capital Fund
          Principal Statements …………………………………………………………………………………………………………………………..                            113
          Notes to the Principal Statements ………………………………………………………………………………………………………                        123
          Required Supplementary Information ………………………………………………………………………………………………..                        160
          Audit Opinion ……………………………………………………………………………………………………………………………………..                               162




                                                        i
                                                                           U.S. Air Force 2013 Agency Financial Report




                                                   November 2013

                              Message from the Acting Secretary of the Air Force



Despite operating in a difficult fiscal environment, the Air Force continued to execute at a high operations tempo in
Fiscal Year 2013 (FY 13). More than 35,000 Airmen were deployed to contingencies around the globe.
Approximately 57,000 Airmen were stationed overseas and more than 132,000 Airmen supported combatant
commander requirements in the continental United States. Our Airmen have met the demands placed upon them in
a fiscally responsible manner.

Sequestration provisions of the Budget Control Act of FY 2011 reduced the Air Force budget by about $10 billion in
FY 13. Approximately 150,000 of the Air Force’s 182,000 civilian personnel were furloughed without pay for six
days. We stood down 33 squadrons and reduced flying hour training and aircraft maintenance by 18 percent. All
non-emergency Facility Sustainment, Restoration and Modernization have been deferred. We realize that the
federal government must reduce its budget deficits and the Air Force is prepared to work with Congress to
implement a sensible budget that meets both national security needs and is fiscally prudent.

I am pleased to report that the Air Force continues to make significant strides in safeguarding our nuclear enterprise.
Enhanced standards for the management of nuclear weapons have been implemented. The majority of missile
crew members who were decertified from performing alert duties at missile silos recently met standards for
recertification to fully perform their duties. We will continue to rigorously train the Airmen who manage nuclear
weapons because error-free operations are the required standard for the nuclear enterprise.

Our Airmen are the cornerstone to executing the Air Force mission. Therefore, we have a zero tolerance for sexual
assault and continue to take measures to prevent sexual assault and to prosecute offenders. The Sexual Assault
Prevention and Response (SAPR) Office of the Vice Chief of Staff was created in FY 13 to provide a single point of
accountability and oversight for sexual assault policy matters. The SAPR office includes health professionals and
special investigators who work to prevent rape and sexual assault and treat sexual assault victims.

We have established ambitious goals for FY 14 and we are fully committed to asserting our Schedule of Budgetary
Activity as audit ready by September 30, 2014. Civilian Pay and Funds Distribution to Base are under examination
by an independent public accountant, and we are taking an enterprise-wide approach to completing our remaining
audit readiness tasks. We are committed to supporting the requirement of achieving audit readiness of our financial
statements by September 30, 2017. We are also participating in the Department of Defense-wide effort to
streamline the acquisition process and focus attention and resources on the Asia Pacific region. As we look forward
to the future with confidence, our core values continue to be Integrity First, Service Before Self, and Excellence In
All We Do.




                                                   Eric K. Fanning




                                                          1
                                                                          U.S. Air Force 2013 Agency Financial Report




                                                      November 2013

                            Message from the Assistant Secretary of the Air Force
                                 for Financial Management and Comptroller




I am pleased to present the Annual Financial Statement for Fiscal Year 2013. This report describes the Air Force’s
financial position and performance results during a year of fiscal constraint. Due to sequestration and budget
uncertainties, sound financial management is needed now more than ever to provide our Airmen the resources they
need to execute the Air Force mission.

The Air Force continues to make progress towards auditable financial statements. An Air Force team is working
with Air Force senior leadership to compile a comprehensive analysis of audit readiness risks and recommended
solutions to barriers. The efforts we plan to accomplish in Fiscal Year 2014 will be critical to meeting the plan of
asserting audit readiness of our Schedule of Budgetary Activity (SBA) by September 30, 2014. The results of the
SBA examination will put us on the path of achieving full audit readiness by September 30, 2017. Civilian Payroll
was asserted as audit ready in 2013 and Funds Distribution to Base was asserted as audit ready in September
2012. An examination by an independent public accounting firm began in August 2013 to validate the audit
readiness of both Civilian Payroll and Funds Distribution to Base. They are scheduled to issue their opinion in
February 2014. In January 2013, the Department of Defense Inspector General issued a clean examination opinion
for the existence and completeness of uninstalled missile motors and a qualified opinion for the existence and
completeness of spare engines.

The Air Force continues to implement the Defense Enterprise Accounting and Management System (DEAMS).
DEAMS will replace a legacy system first implemented in 1968. In addition to helping the Air Force become audit
ready, DEAMS will help resolve material weaknesses, improve the timeliness and accuracy of financial
management information, support consistent financial reporting to DoD, and enable business process re-
engineering. In FY 2013, DEAMS was the system of record at two Air Force bases and USTRANSCOM. It was
deployed at four more bases on October 1, 2013, and will be deployed throughout the Air Force in a series of
releases in FY 2014-FY 2017.

Air Force financial managers are working every day to maximize the combat effectiveness achieved with each dollar
of taxpayer resources through continuous improvement in resource allocation, analysis, financial services, and
execution. We serve as the trusted advisor to decision makers, providing sound financial advice to ensure that Air
Force missions are successfully executed in a fiscally responsible manner.




                                                  Jamie M. Morin




                                                         2
                                                       U.S. Air Force 2013 Agency Financial Report




                                  Air Force Vision
“The United States Air Force will be a trusted, reliable joint partner with our sister
 services known for integrity in all of our activities, including supporting the joint
    mission first and foremost. We will provide compelling air, space, and cyber
capabilities for use by the Combatant Commanders. We will excel as stewards of all
Air Force resources in service to the American people, while providing precise and
              reliable Global Vigilance, Reach and Power for the nation.”




                                 Air Force Mission
                  The mission of the United States Air Force is to
                  fly, fight and win…in air, space and cyberspace.




                                          3
                                                                            U.S. Air Force 2013 Agency Financial Report




Management Discussion and Analysis
Air Force Heritage




U.S. Air Force C-47s at Tempelhof Airport in Berlin


This year marks the 65th anniversary of the
beginning of the Berlin Airlift. Following World War
II, Germany was divided into four sectors. Although
Berlin was located in the Soviet controlled eastern
                                                            1st Lt. (later Colonel) Gail Halvorsen used miniature parachutes to drop
sector of Germany, the city was also divided into           candy and gum to German children as he flew into Tempelhof airport. Col.
four sections. The U.S., Great Britain, and France          Halvorsen became known as the candy bomber.
occupied the western portion of Berlin and the
Soviets occupied the eastern portion. In June               The Berlin Airlift started the Air Force’s tradition of
1948, the Soviet Union blocked the Allies’ railway,         providing humanitarian assistance during times of
road, and canal access to those sectors of Berlin           natural disaster and political unrest.
under Soviet control in an attempt to gain control of
the entire city.                                                     In December 2004, the Air Force dispatched
                                                                      C-5 Galaxys, C-17 Globemasters III, and C-
Flying C-47 Skytrains and C-54 Skymasters, the                        130 Hercules with humanitarian supplies to
U.S. Air Force alone airlifted 1.8 million tons of                    South Asia after the region is devastated by
supplies during nearly 300,000 flights, logging 92                    a tsunami
million miles. The airlift lasted until the end of                   In January 2010 an Air Force Expeditionary
September 1949, although the Soviet government                        Medical Support Team is dispatched to Haiti
lifted the blockade on May 12, 1949. The Berlin                       after an earthquake kills more than 200,000
airlift remains the largest humanitarian mission in                   people
the history of the U.S. Air Force.                                   In October 2012, a 12-base effort was
                                                                      initiated within 72 hours of Superstorm
                                                                      Sandy’s landfall. Active and Reserve airlift
                                                                      crews from Wright-Patterson Air Force Base
                                                                      (AFB), McChord AFB, and Travis AFB




                                                        4
                                                                                     U.S. Air Force 2013 Agency Financial Report




          converged on March Air Reserve Base and                        In the six major U.S. combat operations of the last
          worked together to move 356 utility workers                    two decades, the Air Force’s ability to maintain air
          from across California and 134 utility                         superiority has been crucial to the successful
          vehicles with their equipment, totaling 2.4                    outcomes of the operations. During Operations
          million pounds of cargo, in less than 96                       Odyssey Dawn and Unified Protector in Libya, U.S.
          hours to places like Stewart Air National                      Airmen flew 50 percent of allied airborne
          Guard Base at John F. Kennedy                                  reconnaissance missions and 40 percent of allied
          International Airport.                                         strike missions, totaling to 1,800 total strikes in
                                                                         support of the United Nations-sanctioned no-fly
The Air Force will continue to serve as a force for                      zone.
good; using our resources to not only execute our
military mission, but to also serve mankind.                             Space superiority is critical to U.S. national
                                                                         defense. U.S. and allied forces depend on Air
                                                                         Force space operations to perform their missions
                                                                         every day. For example, the Global Positioning
                                                                         System (GPS) enables precision guided munitions
                                                                         employment by all services minimizing collateral
                                                                         damage. Air Force military satellite
                                                                         communications systems, including Advanced
                                                                         Extremely High Frequency and Wideband Global
                                                                         SATCOM satellites, provide wideband and
                                                                         protected communications to deployed forces
                                                                         around the world. This provides the command and
                                                                         control needed by joint force commanders around
                                                                         the world.

                                                                         Intelligence, Surveillance, and Reconnaissance
                                                                         (ISR): The Air Force ISR force is networked to
                                                                         provide both intelligence and immediate fighter
                                                                         support. Sensors operating in air, space, and
                                                                         cyberspace interface with global communication
                                                                         architectures, and a network of regionally aligned
                                                                         centers enable U.S. forces to conduct exploitation
                                                                         and analytical efforts in support of combatant
                                                                         commander requirements.

                                                                         In 2012, U.S. Airmen conducted intelligence
                                                                         preparation of the operational environment, helped
                                                                         determine combat plans for 33 named operations,
Airmen at Joint Base Andrews, MD load equipment bound for Japan to       assisted in the removal of 700 enemy combatants,
aid earthquake victims.                                                  and provided critical adversary awareness and
                                                                         targeting intelligence to U.S. and coalition forces in
The mission of the United States Air Force is to fly,
                                                                         over 250 troops-in-contact engagements. ISR
fight and win in air, space and cyberspace. This
                                                                         Airmen enhanced battlespace awareness through
mission can be divided into five responsibilities:
                                                                         540,000 hours of sustained surveillance of tactical
                                                                         maneuver forces and identified over 100 weapons
Air and Space Superiority: Air superiority is the
                                                                         caches that would have otherwise targeted
ability to control the air so that friendly military
                                                                         American and Allied forces.
forces are not subject to attack from the air. Air
superiority has been and remains a vital component
                                                                         Rapid Global Mobility: Air mobility forces provide
for conducting successful military operations. Not
                                                                         swift deployment and sustainment capability by
since April 15, 1953 has an enemy aircraft killed a
                                                                         delivering essential personnel and equipment for
service member in the American ground forces.
                                                                         critical missions around the world. The Air Force
                                                                         mobility fleet averages one take-off or landing every
                                                                     5
                                                                        U.S. Air Force 2013 Agency Financial Report




two minutes, every day of the year. During 2012,             armed ISR support joint and coalition ground forces
Airmen flew 38,000 airlift missions. Over the                in Afghanistan and Africa. In 2012, the Air Force
course of 1,300 missions, the Air Force dropped 40           flew and supported over 28,000 close air support
million pounds of sustainment to coalition forces on         sorties in Afghanistan.
the ground in Afghanistan, 86 percent more than
                                                             Command and Control: The Air Force provides
during the entire Korean War. The ability to airdrop
                                                             communication and information networks so that
personnel, equipment, and humanitarian relief,
                                                             joint U.S. forces can operate globally at a high
particularly in contested areas, remains crucial to
                                                             tempo and at a high level of intensity. In 2012,
our nation’s defense.
                                                             command and control operations included the
Mobility forces also provide in-flight refueling-a key       planning, execution, and control of over 60,000
component of projecting power at intercontinental            combat sorties in support of Operation Enduring
distances. Over the past 50 years, the Air Force             Freedom in Afghanistan; over 12,000 sorties in
has provided unparalleled air refueling capacity in          support of Operation Noble Eagle, U.S. air defense
defense of our nation. Airmen flew 16,000 tanker             operation; and over 9,000 global aeromedical
missions last year, and since September 11, 2001,            missions.
the tanker fleet has delivered over 2.36 billion
                                                             In order to execute our mission, the Air Force must
gallons to joint and coalition air forces.
                                                             effectively operate in cyberspace. Operations in
The Air Force is the only Service with a dedicated           cyberspace can increase military effectiveness and
force organized to recover personnel. With a                 efficiency. The United States must deal with the
combination of advanced HH-60-G Pave Hawk                    threat of cyber attacks on critical infrastructure.
helicopters and specially trained Airmen, the Air            The cost of prosecuting cyber attack is low and
Force has a unique ability to recover wounded                anonymity is high, which gives our enemies many
servicemembers and civilians in environments                 opportunities to disrupt highly interconnected
considered too hostile for standard medical                  systems. In FY 2013, the Secretary of Defense
evacuation units. In addition to overseas                    introduced a force structure plan for cyber
contingency deployments, these Airmen also serve             operations. This new model will increase Air Force
as first responders during disaster relief and               cyber force personnel for combatant command and
humanitarian assistance operations. Since 2001,              Air Force missions. For example, the Air Force has
Air Force combat rescue forces have saved over               increased funding to $3.6 million in FY 14 for cyber
7,000 lives and in 2012 alone, they flew 4,500               hunter teams to identify and pursue cyberspace
missions that saved 1,128 American and coalition             threats to the Air Force network.
lives. In 2012, the Air Force airlifted 12,000
patients; since 2003, we have transported 195,000             Air Force in Action--FY 2013
patients.
                                                             The U.S. Air Force plays a vital role in national
                                                             defense and foreign policy. During FY 2013, more
Global Strike: Nuclear deterrent forces and                  than 35,000 airmen were deployed to contingencies
precision strike force comprise the Air Force’s              around the globe. Approximately 57,000 airmen
global strike capability. Air Force B-2 and B-52             were stationed overseas and more than 132,000
bombers and land based ICBM crews are two vital              airmen supported Combatant Commander
components of the U.S. nuclear triad (submarine              requirements from their home station. Although
launched ICBMs are the third component). Air                 fiscal constraints have created the smallest Air
Force nuclear command, control, and                          Force in history, the U.S. Air Force was able to
communications system provide the National                   quickly respond to mission demands throughout the
Command Authority with the capability to employ all          world.
U.S. strategic forces. As long as nuclear weapons            Sequestration, a component of the 2011 Budget
exist, the Air Force is committed to meeting the             Control Act, mandated $1.2 billion of federal budget
President’s direction to maintain, safe, secure and          cuts over ten years. The Air Force enacted total
effective nuclear deterrence capabilities.                   budget cuts of approximately $10 billion in FY 2013
In addition to nuclear deterrent forces, The Air             requiring:
Force has significant conventional precision strike
capabilities. Currently, precision strike forces and
                                                         6
                                                                        U.S. Air Force 2013 Agency Financial Report




      The majority of the Air Force’s 184,000               that could be allocated to higher priority needs by
       civilian employees to be furloughed for six           finding programs that are no longer viable and
       days without pay                                      could be eliminated or restructured. The second
      A reduction of about 203,000 flying hours.            part was a month-long, Air Force-wide call for
       Some flying units were required to reduce             innovative ideas that helped the Air Force realize
       their training time to protect the readiness of       budget efficiencies.
       units scheduled to deploy
                                                             Throughout the month of May 2013, Airmen
      The cancellation of all aviation support to
                                                             submitted 11,000 cost-reducing ideas; 38 percent
       public events and the standing down of the
                                                             addressed personnel policy, 23 percent involved
       Thunderbirds aerial demonstration team
                                                             logistics and installation support, and 11 percent
      The reduction of the Weapons Systems
                                                             recommended changes to information technology.
       Sustainment budget of approximately 18
                                                             In one cost savings effort, Airmen at Homestead Air
       percent
                                                             Reserve Base, FL are sharing training facilities and
      The deferment of all non-emergency
                                                             are conducting joint training exercises between the
       Facility, Sustainment, Restoration, and
                                                             base fire department and Miami-Dade, Broward,
       Modernization
                                                             Charlotte and Lee county fire departments. These
The Sexual Assault Prevention and Response                   joint exercises save approximately $500,000 a
Office (SAPR) of the Vice Chief of Staff was                 year. At Altus AFB, Oklahoma, mandatory items
created in FY 13 to provide a single point of                issued to deploying Airmen cost $2,892 per Airman.
accountability and oversight for sexual assault              Many of these deployment items are now returned
policy matters. The SAPR is comprised of research            to the unit deployment manager and reissued to
analysts, epidemiologists, mental health                     others who are deploying. The cost of issuing
professionals, and special investigators who work            deployment items has been reduced to $1,498 per
to prevent rape and sexual assault and treat sexual          Airman. Although the official month-long program
assault victims. The Air Force looks upon sexual             has ended, our Airmen continue to find ways to
assault without the least degree of tolerance and            perform their missions more cost effectively.
will continue to take measures to prevent sexual
assault and prosecute offenders.
The Air Force continues to realize financial                 Air Force Structure
efficiencies and savings by reducing our energy              The command line of the Air Force flows from the
consumption. As the largest user of energy in the            President and the National Command Authority to
federal government, we must promote sustainable              the Secretary of Defense and the Department of
energy consumption and the judicious use of non-             the Air Force. The Air Force is headed by the
sustainable energy. The U.S. Environmental                   Secretary of the Air Force (SECAF), with the Chief
Protection Agency’s Top 50 list of Green Power               of Staff reporting to the Secretary (see Figure 1).
Partners, released in April 2013, ranks the Air              Immediately subordinate to the departmental
Force number one in the DoD and number two in                headquarters are the Major Commands
the federal government for its purchase and on site          (MAJCOMs), Field Operating Agencies (FOAs),
production of green power. The Air Force more                Direct Reporting Units (DRUs), and the Auxiliary.
than doubled its number of renewable energy
projects in the past two years. Since 2006, the Air
Force has reduced its fuel consumption by 12
percent, exceeding a 10 percent reduction goal
three years ahead of schedule. These energy
initiatives not only save money, they also protect
the environment.
Getting the maximum combat capability out of each
taxpayer dollar is the core mission for the Air Force
Financial Management staff. To that end, the Air
Force Vice Chief of Staff launched the Every Dollar
Counts campaign. The campaign has two parts:
First, fund managers were asked to identify funds
                                                         7
                                                                           U.S. Air Force 2013 Agency Financial Report




       Figure 1: Air Force Organization Chart              As a force provider, ACC organizes, trains, equips
                                                           and maintains combat-ready forces for rapid
                                                           deployment and employment while ensuring
                                                           strategic air defense forces are ready to meet the
                                                           challenges of peacetime air sovereignty and
                                                           wartime air defense. ACC numbered air forces
                                                           provide the air component to the Central, Southern
                                                           and Northern Combatant Commands. ACC also
                                                           augments forces to the European, Pacific, and
                                                           Strategic Combatant Commands.
                                                           Command Personnel: 137,000




Major Command Structure
Most units of the Air Force are assigned to a
specific major command (MAJCOM), led by a
general officer. MAJCOMs have extensive
functional responsibilities as will be shown on the
following pages. They may be subdivided into
Numbered Air Forces (NAF) with each responsible
for one or more wings or independent groups.
Wings are the primary units of the working Air
Force and are responsible for maintaining an Air
Force base or carrying out a specific mission.             2 F-15C Eagles from the 48th Fighter Wing fly over Norway
Wings may be commanded by a general officer or a
colonel. A wing may have several squadrons in
more than one dependent group. Wings typically             Air Education and Training Command (AETC)
contain an operations group, a maintenance group,                            Mission: Develop America’s Airmen
a mission support group and a medical group.                                 today……for tomorrow.
The majority of individual officers and Airmen are
assigned to a squadron, which may be composed
                                                                         Responsibilities: With a vision to
of several flights. Additionally, there are other
                                                           deliver unrivaled air, space and cyberspace
types of organizations in the Air Force structure
                                                           education and training, the command recruits
such as centers, field operating agencies and direct
                                                           Airmen and provides basic military training, initial
reporting units.
                                                           and advanced technical training, flying training,
                                                           medical training, space and missile training, cyber
Air Combat Command (ACC)                                   training, and professional military and degree-
                                                           granting professional education. The command
           Mission: Air Combat Command is the              also conducts joint, readiness and Air Force
           primary force provider of combat                security assistance training. AETC’s role makes it
           airpower to America’s warfighting               the first command to touch the life of nearly every
          commands.                                        Airman.
Responsibilities: To support global                        Command Personnel: 74,200
implementation of national security strategy, ACC
operates fighter, bomber, reconnaissance, battle-                            Air Force Global Strike Command
management, and electronic-combat aircraft. It                               (AFGSC)
also provides command, control, communications                               Mission: Develop and provide
and intelligence systems, and conducts global                                combat-ready forces for nuclear
information operations.                                                      deterrence and global strike operations

                                                       8
                                                                          U.S. Air Force 2013 Agency Financial Report




... Safe, Secure, Effective, to support the President       Responsibilities: Organizing, equipping, training
of the United States and combatant commanders.              and maintaining mission-ready space and
                                                            cyberspace forces and capabilities for North
Responsibilities: Organize, train and equip the
                                                            American Aerospace Defense Command, U.S.
Air Force’s three intercontinental ballistic missile
                                                            Strategic Command and other combatant
wings, two B-52 Stratofortress wings and the single
                                                            commands world-wide. AFSPC oversees Air Force
B-2 Spirit wing. The three weapons systems make
                                                            network operations to provide capabilities in,
up two-thirds of the nation’s strategic nuclear triad
                                                            through, and from cyberspace; manages a global
by providing the land-based and airborne nuclear
                                                            network of satellites, and is responsible for space
deterrent forces.
                                                            system development and acquisition. It executes
Command Personnel: 25,543                                   spacelift to launch satellites with a variety of
            Air Force Materiel Command (AFMC)               expendable launch systems and operates them to
            Mission: Deliver technology,                    provide space capabilities in support of combatant
            acquisition, test, sustainment and              commanders around the clock. It provides
            expeditionary capabilities to the               positioning, navigation, timing, communications,
            warfighter.                                     missile warning, weather and intelligence
                                                            warfighting support.
Responsibilities: AFMC delivers war-winning
expeditionary capabilities to the warfighter through        AFSPC operates sensors that provide direct attack
development and transition of technology,                   warning and assessment to U.S. Strategic
professional acquisition management, exacting test          Command and North American Aerospace Defense
and evaluation, and world-class sustainment of all          Command. The command develops, acquires,
Air Force weapon systems. From cradle-to-grave,             fields, operates and sustains space systems and
AFMC provides the work force and infrastructure             fields and sustains cyber systems.
necessary to ensure the United States remains the           Command Personnel: 28,664
world’s most respected Air and Space Force.
Command Personnel: 79,607
            Air Force Reserve Command
            (AFRC)
            Mission: To provide combat ready
            forces to fly, fight, and win in air,
space, and cyberspace.
Responsibilities: The AFRC augments the active
component. The AFRC is extremely cost effective
and retains valuable military expertise and mission
continuity on a ready-now, but called-up as needed
basis. Reserve units are staffed and trained to
meet the same training standards and readiness
levels as the active component forces, and are
supplied with the same equipment on an equal
priority. Because Reservists are community
neighbors and civilian employees in society, many
Americans who interact with them have a better
understanding of the Armed Forces and military
service.
Command Personnel: 70,880
             Air Force Space Command (AFSPC)
             Mission: Provide resilient and cost-
             effective space and cyberspace                 An Alliance Delta IV heavy rocket launches from Vandenberg AFB
             capabilities for the joint force and the
nation.
                                                        9
                                                                             U.S. Air Force 2013 Agency Financial Report




Air Mobility Command (AMC)                                       and aerial refueling. In addition, ANG has total
              Mission: Provide global air mobility               responsibility for air defense of the entire United
              ... right effects, right place, right time.        States.
                                                                 State Mission: When ANG units are not mobilized
                                                                 or under federal control, they report to the governor
               Responsibilities: AMC Airmen —
                                                                 of their respective state, territory or the
active duty, Air National Guard, Air Force Reserve
                                                                 commanding general of the District of Columbia
and civilians — provide airlift and aerial refueling for
                                                                 National Guard. Under state law, ANG provides
all of America’s armed forces. They also provide
                                                                 protection of life and property, and preserves
aeromedical evacuation and Global Reach
                                                                 peace, order and public safety through emergency
laydown. The command has many special duty and
                                                                 relief support during natural disasters, search and
operational support aircraft and plays a crucial role
                                                                 rescue operations, support to civil defense
in providing humanitarian support at home and
                                                                 authorities, maintenance of vital public services and
around the world.
                                                                 counterdrug operations.
Command Personnel: 132,708
                                                                 Responsibilities: The Air National Guard provides
                                                                 tactical airlift, air refueling tankers, general purpose
                                                                 fighters, rescue and recovery capabilities, tactical
                                                                 air support, weather flights, strategic airlift, special
                                                                 operations capabilities and aeromedical evacuation
                                                                 units.
                                                                 Command Personnel: 105,700
                                                                               Pacific Air Forces (PACAF)
                                                                               Mission: Provide Pacific Command
                                                                               integrated expeditionary Air Force
                                                                               capabilities to defend the homeland,
                                                                 promise stability, dissuade/deter aggression, and
                                                                 swiftly defeat enemies.
                                                                 Responsibilities: PACAF’s area of responsibility
                                                                 extends from the west coast of the United States to
                                                                 the east coast of Africa and from the Arctic to the
7 C-17s, 11 KC-10s, and 4 C-5Bs line up at Travis AFB, CA
                                                                 Antarctic, covering more than 100 million square
              Air National Guard (ANG)                           miles. The area is home to 50 percent of the
              Mission: The Air National Guard has                world’s population in 36 nations and over one-third
              both a federal and state mission. This             of the global economic output. The unique location
              dual mission, a provision of the U. S.             of the strategic triangle (Hawaii-Guam-Alaska)
Constitution, results in each guardsman holding                  gives our nation persistent presence and options to
membership in the National Guard of his or her                   project U.S. airpower from sovereign territory.
state and in the National Guard of the United                    Command Personnel: 45,000
States.
                                                                 U.S. Air Forces in Europe (USAFE)
Federal Mission: Maintain well-trained, well-
                                                                               Mission: As the air component for
equipped units available for prompt mobilization
                                                                               both U.S. European Command
during war and provide assistance during national
                                                                               (USEUCOM), and U.S. Africa
emergencies, such as natural disasters or civil
                                                                               Command (USAFRICOM), USAFE
disturbances. During peace, the combat-ready units
                                                                 directs air operations in a theater spanning three
and support units are assigned to Air Force major
                                                                 continents, covering more than 19 million square
commands to carry out missions compatible with
                                                                 miles, containing 105 independent states, and
training, mobilization readiness, humanitarian and
                                                                 possessing more than a quarter of the world's
contingency operations. ANG provides almost half
                                                                 population and more than a quarter of the world's
of the Air Force’s tactical airlift support, combat
                                                                 Gross Domestic Product.
communications functions, aeromedical evacuation
                                                            10
                                                                            U.S. Air Force 2013 Agency Financial Report




Responsibilities: USAFE is an Air Expeditionary                 directly subordinate to Headquarters Air Force,
Force with a mobile and deployable mix of people                separate from any MAJCOM or FOA because of a
and resources that can simultaneously operate in                unique mission, legal requirements, or other
multiple locations. Its role in Europe and Africa has           factors. DRUs have the same administrative and
expanded from warfighting to include humanitarian               organizational responsibilities as MAJCOMs. The
and peacekeeping operations, as well as other non-              DRUs are the Air Force Academy, Air Force District
traditional contingencies throughout its area of                of Washington, and Air Force Operational Test and
responsibility. In peacetime, USAFE trains and                  Evaluation Center.
equips U.S. Air Force units pledged to the North
                                                                            Civil Air Patrol (CAP)
Atlantic Treaty Organization (NATO).
                                                                            Mission: Support America’s
Command Personnel: 24,586                                                   communities with emergency
                                                                            response, diverse aviation and ground
              Air Force Special Operations
                                                                service, youth development and promotion of air
              Command (AFSOC)
                                                                and space power.
              Mission: America’s specialized air
              power — a step ahead in a changing                Responsibilities: Civil Air Patrol provides
world, delivering special operations power anytime,             operational capabilities in support of aerial and
anywhere.                                                       ground search and rescue disaster relief and
                                                                counterdrug and homeland security missions. It
Responsibilities: Air Force Special Operations
                                                                conducts 90 percent of all inland search-and-
Command provides Air Force special operations
                                                                rescue missions tasked by the Air Force Rescue
forces (SOF) for worldwide deployment and
                                                                Coordination Center. It builds strong citizens for the
assignment to combatant commands. The
                                                                future by providing leadership training, technical
command’s SOF are composed of highly trained,
                                                                education, scholarships and career education to
rapidly deployable airmen, conducting global
                                                                young men and women, ages 12 to 21, in the CAP
special operations missions ranging from precision
                                                                cadet program. It promotes and supports
application of firepower, to infiltration, exfiltration,
                                                                aerospace education, both for its members and the
resupply, and refueling of SOF operational
                                                                general public, and conducts a national school
elements.
                                                                enrichment program from K-12.
The command’s core missions include battlefield air
                                                                Personnel: 60,760
operations; agile combat support; aviation foreign
internal defense; information operations; precision             Field Operating Agency (FOA)
aerospace fires; psychological operations;                      A FOA is a subdivision of the Air Force that carries
specialized air mobility; specialized refueling; and            out field activities under the operational control of a
intelligence, surveillance and reconnaissance.                  Headquarters U.S. Air Force functional manager.
                                                                FOAs perform field activities beyond the scope of
Command Personnel: 18,000
                                                                any of the MAJCOMs. Examples of FOAs include
                                                                the Air Force Audit Agency, Air Force Civil
                                                                Engineer Center, Air Force Financial Services
                                                                Center, Air Force Services Agency, and Air Force
                                                                Weather Agency, among others.


                                                                Air Force Resources
                                                                People: Trained, motivated, and dedicated. The
                                                                Air Force consists of over 690,129 military and
                                                                civilian personnel. Aerospace power is a proven
                                                                necessity for victory on land, sea, air, space, and
                                                                cyberspace. The foundation for this is our people.
CV-22 Osprey, Hurlbert Field, Fla. (Search & Rescue)
                                                                The reserve component (Air Force Reserve and Air
                                                                National Guard) has become more important than
Direct Reporting Unit (DRU)                                     ever in sustaining worldwide operations. These
A DRU is a subdivision of the Air Force that is
                                                           11
                                                                                    U.S. Air Force 2013 Agency Financial Report




warriors make possible the successful                                  There are 62,241 women serving in the Active Air Force. The
accomplishment of Air Force missions.                                  Air Force has 725 female pilots, 265 navigators, and 216 air
                                                                       battle managers.

            Air Force Personnel
                                                                               Total Air Force Personnel
                    27.2%                                               720000
                                       47.4%
                                                                        700000
                   15.2%
                            10.2%
                                                                        680000

                                                                        660000

                                                                        640000
                                                                                    2009      2010      2011       2012      2013
         Active      AF Reserve      Guard     Civilian

                                                                       Major Bases: The Air Force is a global force with
           Active Duty Personnel                                       facilities in the United States and around the world.
                                                                       The Air Force has 65 major bases in the continental
 300000                                                                United States and another 14 major bases outside
                                                                       the continental United States.
 250000

 200000
                                                     Officer
                                                                                           Major Bases
 150000
                                    80.3%                               86
                                                     Enlisted
 100000
                                                                        84
  50000                                                                 82
                  19.70%
       0                                                                80
                  Officer           Enlisted                            78
                                                                        76
The Air Force has 14,426 pilots, 3,643 navigators and 1,540 air
                                                                                 2009      2010       2011       2012        2013
battle managers in the grade of lieutenant colonel and below.
The Air Force has 25,620 nonrated line officers in the grade of
lieutenant colonel and below.
                                                                       Aircraft: The Air Force has 5,341 aircraft. Flying
                                                                       the most technologically advanced aircraft in the
                                                                       world helps us maintain air superiority, provide
             Gender of Active Duty                                     global mobility, and gives us precision strike
                                                                       capability.
                   Airmen
                                                                                               Aircraft
 300000
 250000                                                                 5700
 200000                                                                 5600
 150000                                              Women              5500
                                    81.1%
 100000                                              Men                5400
  50000           18.9%                                                 5300
      0
                                                                        5200
                  Women              Men
                                                                                  2009      2010       2011       2012       2013

                                                                  12
                                                                         U.S. Air Force 2013 Agency Financial Report




                                                              financial reporting were operating effectively, with
                                                              the exception of nine material weaknesses:
Management Assertions                                              Contractor Managed/Possessed Property
                                                                      (Operating Materials and Supplies)
The Air Force is responsible for establishing and                  Deficiencies in General Fund Accounts
maintaining effective internal controls over                          Receivable Financial Reporting
operations and financial reporting to meet the                     Deficiencies in General Fund Accounts
objectives of the Federal Financial Managers’                         Payable Financial Reporting
Financial Integrity Act (FMFIA). We evaluated our                  Deficiencies in Air Force Working Capital
system of internal control during the fiscal year in                  Fund Accounts Receivable Financial
compliance with the FMFIA. The evaluation was                         Reporting
performed in accordance with the Office of                         Deficiencies in Air Force Working Capital
Management and Budget Circular A-123,                                 Fund Accounts Payable Financial Reporting
Management’s Responsibility for Internal Control.                  Financial Statement Reporting of Active Air
The objectives of the internal control program are to                 Force Environmental Liabilities
provide reasonable assurance that:                                 Existence and Completeness of
     Obligations and costs comply with                               Government Furnished Equipment
        applicable law                                             Use of Historical Cost to Value Operating
     Funds, property and other assets are                            Materials and Supplies
        safeguarded against waste, loss,                           Air Force In-Transit Inventory Tracking,
        unauthorized use, and misappropriation                        Visibility, and Financial Reporting
     Revenue and expenditures applicable to Air
        Force operations are properly recorded and            When a material weakness is identified, the cause
        accounted for to permit the preparation of            is determined and a corrective action plan is
        reliable financial and statistical reports and        implemented. The Air Force Weakness Tracking
        to maintain accountability over assets.               System is used to monitor the progress the Air
                                                              Force is making to remedy the material weakness.
The Air Force implements our internal control                 This system logs and tracks all planned corrective
program at all levels and aims to improve the                 actions and identifies responsible personnel and
efficient and effective use of resources and                  completion dates. Tracking continues from first
increase accountability in all functional areas. Our          reporting until resolution of the material weakness.
process calls for managers to apply internal                  The weakness is considered closed only after
controls to all significant operational and mission           corrective actions are verified to be effective.
responsibilities.
                                                              For FY 2013, the Air Force did not completely
The Air Force can provide a qualified statement of            comply with the Federal Financial Management
reasonable assurance that operational internal                Improvement Act. Many Air Force financial
controls meet the objectives of FMFIA with the                management systems do not comply with federal
exception of five unresolved material weaknesses:             financial management system requirements. The
    Enterprise Information Protection Capability             design of legacy Air Force financial management
    Air Force Audit Follow-Up Program                        and feeder systems does not allow them to collect
    Segregation of Duties in the Defense Travel              and record financial information based on a full
        System                                                accrual accounting basis, provide the necessary
    Information Assurance Workforce Program                  system access controls, or comply with the U.S.
    Weapons of Mass Destruction Emergency                    Standard General Ledger at the transaction level.
        Response Program                                      The Air Force had one financial system material
                                                              weakness in FY 2013:
These weaknesses were in the internal controls                     Integrated Financial Management System
governing both the effectiveness and efficiency of
operations and the compliance with applicable laws
and regulations.                                              Progress Towards Auditability
                                                              The Air Force recognizes the benefits of having
The Air Force can provide a qualified statement of            auditable financial statements and is executing a
reasonable assurance that internal controls over              plan to meet the September 30, 2014 deadline for
                                                         13
                                                                         U.S. Air Force 2013 Agency Financial Report




an audit ready Statement of Budgetary Resources              In FY 2014, the Air Force will complete final audit
and the September 30, 2017 deadline for audit                preparations and validate the SBR as audit ready.
readiness of all financial statements. Financial             During 2014, we will have internal controls in place
statements that have passed the scrutiny of an               and functioning to support current year budgetary
independent audit will demonstrate to the Congress           activities. In FY 2015, we will begin audits of FY
and the American people that the funds entrusted             2015 appropriations and each year thereafter,
to us are wisely spent.                                      improve the validity of the SBR and sustain audit
                                                             results.
During the last year, the Air Force solicited support
from independent public accounting firms who had             Existence and Completeness of Mission Critical
experience auditing large government agencies.               Assets
Due to contract protests, this effort took much
                                                             The Air Force continues to execute a plan to assert
longer than expected. However, after a seven
                                                             to the existence and completeness of mission
month delay, the Financial Improvement and Audit
                                                             critical assets. In FY 2012, we asserted spare
Readiness team is now in place. We have
                                                             engines and missile motors as audit ready. In FY
organized a strategy team comprised of Air Force
                                                             2013, The DoD Inspector General issued an
Financial Management personnel, DFAS Office of
                                                             examination report with a qualified opinion for spare
Audit Readiness staff, and staff from our
                                                             engines and an unqualified opinion of uninstalled
independent audit firm contractor to carefully
                                                             missile motors. In previous years the Air Force
identify opportunities to accelerate the audit
                                                             asserted military equipment, cruise missiles, and
readiness process without sacrificing thoroughness.
                                                             aerial targets/drones as audit ready. Military
We will also leverage the work performed by the
                                                             equipment includes aircraft, inter-continental
MAJCOMs and the Air Force Audit Agency during
                                                             ballistic missiles, and satellites. Cruise missiles
the previous year. Although these measures will
                                                             and aerial targets/drones are components of the
help the Air Force achieve auditability, we will have
                                                             Operating Materials and Supply (OM&S) line item.
to overcome significant challenges.
                                                             In the 3rd quarter of FY 2012, the DoD Inspector
The Air Force does not have a system that records            General issued an unqualified examination opinion
individual transactions using the U.S. Standard              on military equipment, cruise missiles and aerial
General Ledger. We are also unable to trace                  targets/drones. The value of these assets is
financial transactions from the underlying business          approximately $86 billion, which is 41 percent of Air
events to the financial statements and back. We              Force mission critical assets and 14 percent of DoD
rely on a manual process to establish an audit trial.        mission critical assets.
Statement of Budgetary Resources (SBR)                       The Air Force is scheduled to assert Munitions as
                                                             audit ready in FY 2014 and General Equipment as
Over the last year, the Air Force made significant
                                                             audit ready in FY 2015. Government-Furnished
progress towards SBR auditability. Funds
                                                             Equipment, OM&S/Inventory-Base Possessed, and
Distribution from the MAJCOM Level to the Base
                                                             OM&S/Inventory-Contractor Possessed will be
Level was asserted as audit ready in FY 2012.
                                                             asserted as audit ready in FY 2016. At the
Civilian Payroll, for both the General Fund and the
                                                             conclusion of these efforts, the Air Force will be
Working Capital Fund, was asserted as audit ready
                                                             able to provide assurance that assets recorded in
in March 2013. An audit readiness examination for
                                                             accountable systems exist and that all mission
Fund Distribution to the Base and Civilian Payroll
                                                             critical assets are properly recorded in our financial
began by an independent public audit (IPA) firm in
                                                             records.
August 2013. The IPA will issue three opinions-
Civilian Payroll-General Fund, Civilian Payroll-             Current and Future Financial Systems - Defense
Working Capital Fund, and Fund Distribution to               Enterprise Accounting and Management System
Base in the 2nd quarter of FY 2014. In previous              (DEAMS)
years the Air Force asserted audit readiness for             DEAMS is the Air Force financial management
Appropriations Received and the Fund Balance                 Enterprise Resource Planning (ERP) system that
with Treasury reconciliation process. An                     uses industry-proven Oracle® software to provide
independent public audit firm issued “clean” or              war fighters with timely, accurate and reliable
unqualified examination opinions for both                    financial information leading to more efficient and
assertions.                                                  effective decisions. It replaces decades-old
                                                             inefficient technology that no longer complies with
                                                        14
                                                                       U.S. Air Force 2013 Agency Financial Report




federal law and Department of Defense regulations.         the General Fund or the Working Capital Fund. The
When fully implemented, DEAMS will be an                   Air Force has made significant progress toward
integrated, contemporary financial management              improving the quality and timeliness of our financial
system for the Air Force and U.S. Transportation           information. The principal financial statements
Command (USTRANSCOM). It will comply with                  have been prepared to report the financial position
existing laws, regulations and policies to achieve         and results of operations of the entity, pursuant to
audit readiness by 2017 as originally required by          the requirements of 31 U.S.C. 3515 (b). While the
the Fiscal Year 2010 National Defense                      statements have been prepared from the books
Authorization Act.                                         and records of the entity in accordance with
                                                           accounting principles generally accepted for federal
In addition to making the Air Force audit ready,
                                                           entities and the formats prescribed by the Office of
DEAMS, which uses Oracle Federal Financials
                                                           Management and Budget, the statements are in
software, will help resolve material weaknesses,
                                                           addition to the financial reports used to monitor and
improve the timeliness and accuracy of financial
                                                           control budgetary resources, which are prepared
management information, support consistent
                                                           from the same books and records.
financial reporting to DoD, and enable Business
Process Re-engineering.
The system uses shared data, proven business               Air Force General Fund
best practices and state-of-the-art commercial off-        The General Fund is the fund into which most
the-shelf software to automate processing,                 receipts of the United States Government are
eliminate many manual processes and reduce                 deposited. Exceptions include receipts from specific
residual off-line processing. It uses transaction-         sources required by law to be deposited into other
based Standard Financial Information Structure             designated funds and receipts from appropriations
(SFIS)-compliant data to produce a compliant U.S.          made by Congress to carry on the general and
Standard General Ledger (USSGL), and will create           ordinary operations of the Government. The Notes
financial statements for the Transportation Working        to the Principal Statements provide more detail on
Capital Fund (TWCF) and Air Force General Fund,            the appropriations. The major appropriations in the
becoming the Air Force financial system of record.         Air Force General Fund and their uses are
DEAMS will replace the General Accounting                  introduced below.
Finance System (GAFS), Automated Business
Services System (ABSS), the Integrated Accounts            Military Personnel (MILPERS)
Payable System (IAPS), and other financial feeder          This appropriation provides funding for the care and
systems.                                                   payroll of our Airmen. It includes all direct military
                                                           compensation for active duty, reserve, guard, and
DEAMS first deployed at Scott AFB, IL, as a two-           retired personnel including regular pay, allowances,
phased technology demonstration, deploying                 and bonuses. Additionally, this appropriation funds
commitment accounting in 2007 and the full                 all Permanent Change of Station (PCS) moves and
DEAMS capability in May 2010. The system has               supports a total force (active, reserve and guard) of
since been implemented at McConnell AFB, KS,               506,040.
(October 2012); and Dover AFB, DE; Grand Forks
AFB, ND; Little Rock AFB, AR; and Pope Field, NC           Operations & Maintenance (O&M)
(October 2013). The DFAS center at Limestone,              This appropriation funds key readiness programs
ME, which supports the six bases using DEAMS,              critical to prepare forces for and to conduct combat
also uses the system, bringing the total number of         operations and other peacetime missions. These
users to approximately 1,800. DEAMS is scheduled           include day-to-day operating costs such as flying
to deploy throughout the Air Force in a series of          hours, space operations, depot maintenance,
releases between fiscal years 2014 and 2017.               training, spare parts, facilities, base operations and
                                                           civilian pay. The FY 2013 appropriation supported
                                                           79 major installations, including operations at two
Analysis of Financial Statements                           space lift ranges, and funded approximately 1.1
As discussed in the accompanying independent               million flying hours.
auditor’s report, long-standing financial                  Procurement
management challenges prevent the Air Force from           This appropriation provides for purchase of aircraft,
producing auditable financial statements for either        missiles, vehicles, electronic and
                                                      15
                                                                          U.S. Air Force 2013 Agency Financial Report




telecommunications equipment, satellite and launch             exceeds $750,000, and for the planning and design
equipment, base maintenance and support                        for those projects. In FY 2013, the Military
equipment, and investment-type spares. The FY                  Construction Budget was approximately $400
2013 program included large purchases of the MQ-               million. These funds were used to fund 22 major
9A Reaper, F-35A Lightning II, and the Joint Direct            projects.
Attack Munition.
                                                               Military Family Housing
Research, Development, Test and Evaluation
                                                               The Military Family Housing Construction account
(RDT&E)
                                                               funds new construction, construction
This appropriation provides funding for the research
                                                               improvements, planning and design and the
and development of next generation weapons and
                                                               Federal government costs for family housing
platforms and for the testing and evaluation of
                                                               privatization projects. The Military Family Housing
current prototypes and upgrades. The FY 2014
                                                               Operation and Maintenance accounts pays for
major focus areas include:
                                                               maintenance and repair, furnishings, management,
  Commitment to modernizing the air fleet with                services, utilities, leasing, interest, mortgage
   the following developments:                                 insurance, and miscellaneous expenses. During
            o Continued development of the KC-                 FY 13 the Military Family Housing Construction
                46 aircraft through aircraft                   account was approximately $100 million and the
                certification and qualification testing        Operations and Maintenance account was
            o Development of various air systems               approximately $500 million. The Air Force plans to
                for the F-35 program                           complete privatization of military within the
            o Development of a new long-range,                 continental United States by the end of calendar
                nuclear capable, optionally manned,            year 2013.
                penetrating bomber
                                                               Base Realignment and Closure (BRAC)
    Sustaining Science and Technology funding
                                                               The law authorizes the BRAC accounts to fund
       to remain on the cutting edge of technology
                                                               one-time, nonrecurring costs required to implement
       to meet tomorrow’s threats
                                                               approved BRAC recommendations. Following the
    Sustaining the critical Test and Evaluation
                                                               completion of the statutory implementation period,
       program to continue operating wind tunnels,
                                                               the accounts may only be used for environmental
       rocket and jet engine test cells, armament
                                                               restoration and property management and to
       ranges, aircraft test beds, and other test
                                                               discharge legal obligations incurred. In addition,
       facilities
                                                               the law stipulates the accounts as the sole source
    Strengthen space superiority through the
                                                               of environmental restoration for base closures
       following efforts:
                                                               covered by the law. The FY 2013 BRAC program
            o Development of the Space Fence
                                                               was approximately $100 million.
                which includes deploying advanced
                sensors to search, track and identify
                the expanding number of debris                 Results of Operation
                objects in orbit                               The Combined Statement of Budgetary Resources
            o Funding the next generation Global               presents total budgetary resources of $187.8 billion
                Positioning Systems to provide                 that were available to the AFGF during FY 2013.
                worldwide GPS capability to the                Total budgetary resources for FY 2012 were $215.3
                warfighter as well as national                 billion. Total obligations incurred in FY 2013 were
                security, civil, allied, and commercial        $162.1 billion compared to $182.3 billion for FY
                users                                          2012.
            o Continued development of Spaced
                Based Infrared Systems efforts to
                provide an initial warning of ballistic
                missile attacks on the United States,
                its deployed forces and its allies
Military Construction (MILCON)
Typically this appropriation applies to any military
construction project, either major or minor, that
                                                          16
                                                                                 U.S. Air Force 2013 Agency Financial Report




           AFGF Sources of Funds, FY 2013                                       AFGF Total Assets, FY 2013
                         ($ in Billions)                                                      ($ in Billions)

                                                                                              $17.3
        $8.9            $33.1
                                                                                        $57.6              $101.0

                                           $144.3
                                                                                          $142.6



           Appropriations
           Reimbursements                                                         Fund Balance with Treasury
           Unobligated Balance Forward From Prior Years                           General Property, Plant and Equipment
                                                                                  Inventory
                                                                                  Remaining Assets
The Combined Statement of Net Cost presents net
cost of operations of $142.2 billion during FY 2013                            AFGF Total Liabilities, FY 2013
compared to $158.7 billion for FY 2012. Net cost of                                          ($ in Billions)
operations represents gross costs incurred by the                                             $1.2
AFGF less earned revenue.
                                                                                                                $8.7
       AFGF Net Cost of Operation, FY 2009- 2013                                $9.5
                         ($ in Billions)


$200                                                                                                   $5.4

$150

$100                                                                                   Environmental Liabilities
                                                                                       Accounts Payable
 $50                                                                                   Other Liabilities
                                                                                       Retirement and Other Benefits
  $0
         2009        2010         2011         2012       2013        Air Force Working Capital Fund
                Fiscal Year Ending September 30
                                                                      The Air Force Working Capital Fund (AFWCF)
                                                                      conducts business in two primary areas: the
Financial Position                                                    Consolidated Sustainment Activity Group (CSAG)
The AFGF continued to report a positive net                           and the Supply Management Activity Group-Retail
position on its Consolidated Balance Sheet. Net                       (SMAG-R). Air Force Materiel Command (AFMC)
position is the difference between total assets (what                 manages more than 90 percent of the AFWCF
is owned) and total liabilities (what is owed). As of                 business activity for Supply Management and
September 30, 2013, net position totaled $293.7                       Depot Maintenance activities. These functions
billion. As of September 30, 2012 net position                        provide goods and services to the Air Force and
totaled $287.6 billion.                                               DoD customers, as well as customers outside the
                                                                      DoD (e.g., local and foreign governments).
Total assets were $318.5 billion as of September
30, 2013, compared to $313.5 billion as of                            In FY 1998 the Air Force was appointed the
September 30, 2012. Total liabilities were $24.8                      Executive Agent for Transportation Working Capital
billion as of September 30, 2013, compared to                         Fund (TWCF) cash. Even though AFWCF manages
$26.0 billion as of September 30, 2012.                               TWCF’s cash, daily operations are managed by the
                                                                      United States Transportation Command. As a
                                                                      result, TWCF’s financial statements are reported
                                                                      with other Defense Agencies.


                                                                 17
                                                                       U.S. Air Force 2013 Agency Financial Report




The AFWCF allows the Air Force to accomplish the            maintenance or repair of systems or equipment. In
following: ensure readiness through reduced                 addition to management of these inventories, the
support costs, stabilized rates and responsive              Supply Division provides a wide range of logistics
customer service; flexibility to respond to customer        support services including requirements
support needs in real-world situations; focus               forecasting, item introduction, cataloging,
management attention on net operating results,              provisioning, procurement, repair, technical
including cost and performance; identify the total          support, data management, item disposal,
cost of providing support products and services;            distribution management and transportation.
and establish strong customer/provider
                                                            Supply Management Activity Group–Retail
relationships.
                                                            The Air Force Supply Management Activity Group-
Consolidated Sustainment Activity Group (CSAG)
                                                            Retail (SMAG-R) is comprised of three divisions:
CSAG is an AFWCF business activity chartered for            General Support, Medical-Dental, and the United
operation in FY 2009. The mission of CSAG is                States Air Force Academy.
supply management of reparable and Air Force
                                                            The Air Force SMAG-R provides a wide range of
managed consumable items as well as
                                                            logistics support services including requirements
maintenance services. Under CSAG, business
                                                            forecasting, item introduction, cataloging,
operations formerly known as DMAG are now
                                                            provisioning, procurement, repair, technical
characterized as the Maintenance Division and
                                                            support, data management, item disposal,
business operations formerly known as MSD are
                                                            distribution management and transportation.
now designated the Supply Division.
                                                            Consumable item inventories are an integral part of
The CSAG Maintenance Division repairs systems               SMAG-R and are maintained by each of the
and spare parts to ensure readiness in peacetime            divisions in support of customer requirements. The
and to provide sustainment for combat forces in             SMAG-R objective is to replenish inventories and
wartime. This division operates on the funds                provide supplies to customers in a timely manner
received from its customers through sales of its            within customer funding constraints, while
services. In peacetime, the Air Force enhances              maintaining fund solvency. The Air Force SMAG-R
readiness by efficiently and economically repairing,        manages weapon system spare parts, medical-
overhauling and modifying aircraft, engines,                dental supplies and equipment, and other supply
missiles, components and software to meet                   items used in non-weapon system applications.
customer demands. The Maintenance Division’s
                                                            The General Support Division (GSD) manages
depots have unique skills and equipment required
                                                            nearly 1.4 million items, which are procured from
to support and overhaul both new, complex
                                                            Defense Logistics Agency (DLA) and General
components as well as aging weapon systems.
                                                            Services Administration (GSA). GSD customers
During wartime or contingencies, the depots can
                                                            use the majority of these items to support field and
surge repair operations and realign capacity to
                                                            depot maintenance of aircraft, ground and airborne
support the war fighter’s immediate needs.
                                                            communication and electronic systems, as well as
CSAG Maintenance Division is managed by AFMC                other sophisticated systems and equipment. The
and employs over 24,000 personnel supporting four           GSD also manages many items related to
industrial locations:                                       installation, maintenance, and administrative
                                                            functions.
 Ogden Air Logistics Complex (OO-ALC), UT
 Oklahoma City Air Logistics Complex (OC-ALC),             The Medical-Dental Division (MDD) manages
  OK                                                        items for 74 Medical Treatment Facilities (MTF)
 Warner Robins Air Logistics Complex (WR-                  worldwide. All supply and equipment requirements
  ALC), GA                                                  generated by Air Force MTFs are procured through
 Aerospace Maintenance and Regeneration                    this division. MDD also maintains a War Readiness
  Group (AMARG), Tucson, AZ                                 Materiel (WRM) requirement. WRM provides initial
                                                            war fighting capability until re-supply lines can
The CSAG Supply Division is primarily
                                                            sustain wartime demands for medical and dental
responsible for Air Force-managed, depot-level
                                                            supplies and equipment.
reparable spares and consumable spares unique to
the Air Force. Spares are an individual part,               The Air Force Academy Division finances the
subassembly, or assembly supplied for the                   purchase of uniforms and uniform accessories for
                                                       18
                                                                                   U.S. Air Force 2013 Agency Financial Report




sale to cadets in accordance with regulations of the
Air Force Academy and related statutes. The                                      Distribution of Resources by Activity
customer base consists of approximately 4,000                                                    Group
cadets who receive distinctive uniforms procured                                                   ($ in Billions)
from various manufacturing contractors.                                                              CSAG
                                                                      8.00

                                                                         6.00
Air Force Working Capital Fund Customers
AFWCF provides support to a variety of customers:                        4.00
Air Force Major Commands (including the Air
National Guard & Air Force Reserves), the Army,                           2.00
the Navy, other WCFs, other government agencies
and foreign countries.                                                    0.00
                                                                                  Customer
                                                                                             Contract
                                                                                   Orders                Customer
                                                                                             Authority                 Contract
Results of Operation                                                                                      Orders
                                                                                                                       Authority
                                                                                     FY12                       FY13
Available Resources:
The combined Statement of Budgetary Resources
presents total budgetary resources of $10.9 billion
that were available to AFWCF during FY 2013 and
the status of those resources at fiscal year-end.
Total budgetary resources consist of reimbursable                  The combined FY 2013 year end Statement of
Customer Orders Accepted and Contract Authority                    Budgetary Resources presents the total obligations
Used. For comparison, total budgetary resources                    incurred during FY 2013 of $10.4 billion, compared
for fiscal year-end 2012 were $12.4 billion. The pie               to $12.3 billion during FY 2012. The chart below is
chart below is the graphic representation of the                   a two year comparative of how those obligations
ratio between the Customer Orders Accepted and                     were distributed between CSAG and SMAG-R.
the Contract Authority Used in FY 2013.
                                                                                  Two Year Comparison of Total
                                                                                  Obligations by Activity Group
                                                                                              ($ in Billions)



           AFWCF Sources of Funds, FY 2013                          14
                       ($ in Billions)                              12
                                                                    10
                                                                     8
             $3.4
                                                                     6
                                                                      4
                                                       $6.5
                                                                      2
                                                                      0
                                                                                  FY 2012
              Customer Orders     Contract Authority
                                                                                                          FY 2013



The following chart is a two year comparative of                                        CSAG       Retail Supply
how those resources were distributed between
CSAG and SMAG-R.
                                                              19
                                                                        U.S. Air Force 2013 Agency Financial Report




The net difference between the FY 2013 total                requirement was $625.9 million. AFWCF yearend
budgetary resources and the total obligations               cash balance, $730.3 million, exceeded the 10 day
incurred during FY 2013 is the Available Budgetary          target. The chart below depicts the comparative
Resources of $545.2 million. This balance will carry        cash position.
forward and become the opening balance for
AFWCF FY2014 operations. For comparison, the                               Comparitive Cash Balance
FYE 2012 Available Budgetary Resources for                                         ($ in Millions)
AFWCF were $106.6 million.
                                                                       BOP Cash Balance        EOP Cash Balance
Cash Management
The AF manages working capital fund cash at the                 800
Department level. This cash is made up of both
AFWCF and the USTRANSCOM cash balances                          600
and is reported by the U.S. Treasury as part of the
AFWCF. However, for the purposes of Audited                      400
Financial Statements (AFS), USTRANSCOM is                        200
included with the Other Defense Organizations
reporting which is separate from the AFWCF. Thus,                  0
the table below presents cash balances for AFWCF
                                                                            FY 2012
less TWCF. AF targets to maintain cash levels at                                                FY 2013
seven to ten days of operational costs. The target
also includes sufficient cash reserves to meet six
months of projected capital outlays, as required by
the Department of Defense Financial Management
Regulation. The AFWCF FY 2013 seven-day cash
requirement was $474.2 million and the ten-day




                                                       20
                                                                       U.S. Air Force 2013 Agency Financial Report




Fiscal Year 2013
Annual Financial Statements

Limitations to the Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations
of the entity, pursuant to the requirements of Title 31, United States Code, Section 3515 (b). While the
statements have been prepared from the books and records of the entity, in accordance with U.S. generally
accepted accounting principles promulgated by the Federal Accounting Standards Advisory Board, and the
formats prescribed by Office of Management and Budget, the statements are in addition to the financial reports
used to monitor and control budgetary resources which are prepared from the same books and records. The
statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                       21
                                                                       U.S. Air Force 2013 Agency Financial Report




General Fund
Principal Statements
Fiscal Year 2013
The FY 2012 Department of the Air Force General Fund Principal Statements and related notes are presented in
the format prescribed by the Department of Defense Financial Management Regulation 7000.14-R, Volume 6B.
The statements and related notes summarize financial information for individual activity groups and activities
within the General Fund for the fiscal year ending September 30, 2013, and are presented on a comparative
basis with information previously reported for the fiscal year ending September 30, 2012.
The following statements comprise the Department of the Air Force General Fund Principal Statements:
Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2013 and 2012 those resources owned or
managed by the Air Force which are available to provide future economic benefits (assets); amounts owed by
the Air Force that will require payments from those resources or future resources (liabilities); and residual
amounts retained by the Air Force, comprising the difference (net position)

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations for the years ended
September 30, 2013 and 2012. The Air Force’s net cost of operations includes the gross costs incurred by the
Air Force less any exchange revenue earned from Air Force activities.
Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s net position
resulting from the net cost of Air Force’s operations, budgetary financing sources other than exchange revenues,
and other financing sources for the years ended September 30, 2013 and 2012.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available to the Air Force
during FY 2013 and 2012, the status of these resources at September 30, 2013 and 2012, and the outlay of
budgetary resources for the years ended September 30, 2013 and 2012.
The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, the Government Management Reform Act of 1994,
and the Office of Management and Budget’s Circular A-136, “Financial Reporting Requirements.”




                                                       22
     U.S. Air Force 2013 Agency Financial Report




23
     U.S. Air Force 2013 Agency Financial Report




24
     U.S. Air Force 2013 Agency Financial Report




25
     U.S. Air Force 2013 Agency Financial Report




26
     U.S. Air Force 2013 Agency Financial Report




27
     U.S. Air Force 2013 Agency Financial Report




28
     U.S. Air Force 2013 Agency Financial Report




29
     U.S. Air Force 2013 Agency Financial Report




30
     U.S. Air Force 2013 Agency Financial Report




31
                                                                U.S. Air Force 2013 Agency Financial Report




General Fund
Fiscal Year 2013
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                               32
                                                                               U.S. Air Force 2013 Agency Financial Report




 Note 1.          Significant Accounting Policies

1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of the Air Force,
as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994,
and other appropriate legislation. The financial statements have been prepared from the books and records of the Air
Force in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular
No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation
(FMR). The accompanying financial statements account for all resources for which the Air Force is responsible unless
otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise
aggregated and reported in such a manner that it is not discernible.

The Air Force is unable to implement fully all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The Air Force
derives reported values and information for major asset and liability categories largely from nonfinancial systems, such as
inventory and logistic systems. These systems were designed to support reporting requirements for maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing financial statements in
accordance with USGAAP. The Air Force continues to implement process and system improvements addressing these
limitations.

The DoD currently has 13 auditor identified material weaknesses. Of these the Air Force has the following: (1) Financial
Management Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Operating Materials and Supplies;
(5) Government Furnished Equipment; (6) Contractor Managed/Possessed Property (Operating Materials and Supplies);
(7) Accounts Payable; (8) Environmental Liabilities; (9) Statement of Net Cost; (10) Intragovernmental Eliminations; (11)
Other Accounting Entries; and (12) Reconciliation of Net Cost of Operations to Budget.

1.B. Mission of the Reporting Entity

The United States Air Force was created on September 18, 1947, by the National Security Act of 1947 and operates
under the direction, authority, and control of the Secretary of the Air Force. The Air Force’s overall mission is to deliver
sovereign options for the defense of the United States of America and its global interests to "Aim High…Fly, Fight, Win” in
air, space, and cyberspace. The Air Force carries out its mission by adhering to a strategic framework of Core Values
consisting of Integrity First, Service Before Self, and Excellence in All We Do. In addition, the Air Force is committed to
providing Global Vigilance, Global Reach, and Global Power, while defending and protecting the United States.

1.C. Appropriations and Funds

The Air Force receives appropriations and funds as general, working capital (revolving), trust, special, and deposit funds.
The Air Force uses these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
(Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are available on-line at DoD Information
Related to the American Recovery and Reinvestment Act of 2009.




                                                             33
                                                                                  U.S. Air Force 2013 Agency Financial Report




Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are
used to record government receipts reserved for a specific purpose. Certain trust and special funds may be designated as
funds from dedicated collections. Funds from dedicated collections are financed by specifically identified revenues,
required by statute to be used for designated activities, benefits or purposes, and remain available over time. The Air
Force is required to separately account for and report on the receipt, use and retention of revenues and other financing
sources for funds from dedicated collections.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They
are not Air Force funds, and as such, are not available for Air Force operations. The Air Force is acting as an agent or a
custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a receiving (child) entity. An allocation
transfer is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its behalf. Generally, all
financial activity related to allocation transfers (e.g. budget authority, obligations, outlays) is reported in the financial
statements of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that all
activity be reported in the financial statements of the child entity. These exceptions include U.S. Treasury-Managed Trust
Funds, Executive Office of the President (EOP), and all other funds specifically designated by OMB. Based on an
agreement with OMB, funds for Security Assistance programs are reported separately from Air Force financial statements
and notes.

The Air Force receives allocation transfers for EOP (Foreign Military Sales – Military Assistance Program) meeting the
OMB exception; however, activities for this fund are reported separately from the DoD financial statements.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. The Air Force
accounts consist of resources that are available for use in the operations of the entity. The Air Force is authorized to
decide how to use resources in entity accounts or may be legally obligated to use these resources to meet entity
obligations. Nonentity accounts, on the other hand, consist of assets that are held by an entity but that are not available
for use in the operations of the entity. The following is a list of the major Air Force account numbers and titles (all accounts
are entity accounts unless otherwise noted):

AF Account Number              Title
57 * 0704                      Military Family Housing, Operations and Maintenance (O&M) and Construction, Air Force
57 * 0740                      Military Family Housing (Construction), Air Force
57 * 0743                      Military Family Housing (Construction), Air Force, Recovery Act
57 * 0745                      Military Family Housing, Operations and Maintenance (O&M), Air Force
57 * 0748                      Military Family Housing, Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 0810                      Environmental Restoration, Air Force
57 * 1007                      Medicare Eligible Retiree Health Fund Contributions, Air Force
57 * 1008                      Medicare Eligible Retiree Health Fund Contributions, Air Force Reserve
57 * 1009                      Medicare Eligible Retiree Health Fund Contributions, Air National Guard
57 * 3010                      Aircraft Procurement, Air Force
57 * 3011                      Procurement of Ammunition, Air Force
57 * 3020                      Missile Procurement, Air Force
57 * 3080                      Other Procurement, Air Force
57 * 3300                      Military Construction, Air Force
57 * 3307                      Military Construction, Air Force, Recovery Act
57 * 3400                      Operations and Maintenance (O&M), Air Force
57 * 3404                      Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 3500                      Military Personnel, Air Force
57 * 3600                      Research, Development, Testing, and Evaluation (RDT&E), Air Force
57 * 3605                      Research, Development, Testing, and Evaluation (RDT&E), Air Force, Recovery Act
57 * 3700                      Personnel, Air Force Reserve
57 * 3730                      Military Construction, Air Force Reserve
57 * 3740                      Operations and Maintenance (O&M), Air Force Reserve
57 * 3744                      Operations and Maintenance (O&M), Air Force Reserve, Recovery Act
57 * 3830                      Military Construction, Air National Guard
57 * 3834                      Military Construction, Air National Guard, Recovery Act

                                                               34
                                                                                U.S. Air Force 2013 Agency Financial Report




57 * 3840                     Operations and Maintenance (O&M), Air National Guard
57 * 3844                     Operations and Maintenance (O&M), Air National Guard, Recovery Act
57 * 3850                     Personnel, Air National Guard
57 X 5095                     Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                     Air Force Cadet Fund
57 X 8928                     Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)    Budget Clearing Accounts
57 * 6XXX (Nonentity)         Deposit Fund Accounts
57 **** (Nonentity)           Receipt Accounts

1.D. Basis of Accounting

The Air Force’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
Air Force’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the
issuance of USGAAP. These systems were not designed to collect and record financial information on the full accrual
accounting basis as required by USGAAP. Most of the Air Force’s financial and nonfinancial legacy systems were
designed to record information on a budgetary basis.

The Air Force's financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of the Air Force's sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated Air Force level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the U.S. Standard General Ledger (USSGL). Until all Air Force financial and nonfinancial feeder systems and processes
are updated to collect and report financial information as required by USGAAP, the Air Force’s financial data will be
derived from budgetary transactions, data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources

The Air Force receives congressional appropriations as financing sources for general funds that expire annually, on a
multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Air Force recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public. Full-cost pricing is the Air Force’s standard policy for services
provided as required by OMB Circular A-25, User Charges. The Air Force recognizes revenue when earned within the
constraints of its current system capabilities. In some instances, revenue is recognized when bills are issued.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of Operations to Budget. The
U.S. has cost sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.


1.F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. Some accounts such as civilian pay, military pay, and accounts payable are presented on
the accrual basis of accounting on the financial statements, as required by USGAAP.

In the case of Operating Materials & Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed.

                                                              35
                                                                               U.S. Air Force 2013 Agency Financial Report




Due to system limitations, in some instances expenditures for capital and other long-term assets may be recognized as
operating expenses. The Air Force continues to implement process and system improvements to address these
limitations.

1.G. Accounting for Intragovernmental Activities

Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the Air Force cannot accurately identify
intragovernmental transactions by customer because the Air Force’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records are adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing
replacement systems and a standard financial information structure that will incorporate the necessary elements that will
enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual
Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government,
provide guidance for reporting and reconciling intragovernmental balances. While the Air Force is unable to fully reconcile
intragovernmental transactions with all federal agencies, the Air Force is able to reconcile balances pertaining to
investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do
not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations

Each year, the Air Force sells defense articles and services to foreign governments and international organizations under
the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury

The Air Force’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the Air Force’s cash collections, disbursements,
and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, the Air Force’s FBWT is adjusted to agree with the
U.S. Treasury accounts.


1.J. Cash and Other Monetary Assets

Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar


                                                             36
                                                                                U.S. Air Force 2013 Agency Financial Report




equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign
currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions.

The Air Force conducts a significant portion of operations overseas. Congress established a special account to handle the
gains and losses from foreign currency transactions for five general fund appropriations: (1) operations and maintenance;
(2) military personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate current at the date of
payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
appropriations require adjustments to the original obligation amount at the time of payment. The Air Force does not
separately identify currency fluctuation transactions.

1.K. Accounts Receivable

Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by
fund type. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees

Not applicable.

1.M. Inventories and Related Property

The Air Force manages only military or government specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not
managed in the Air Force’s materiel management activities. Operational cycles are irregular and the military risks
associated with stock-out positions have no commercial parallel. The Air Force holds materiel based on military need and
support for contingencies. The DoD is currently developing a methodology to be used to account for “inventory held for
sale” and “inventory held in reserve for future sale.”

Related property includes OM&S and stockpile materiel. The majority of OM&S, with the exception of munitions not held
for sale, are valued using the moving average cost method. Munitions not held for sale are valued at standard purchase
price. The Air Force uses both the consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method,
the Air Force uses the purchase method. Under this method, materiel and supplies are expensed when purchased. During
FY 2011 and FY 2010, the Air Force expensed significant amounts using the purchase method because the systems
could not support the consumption method or management deemed that the item was in the hands of the end user. This
is a material weakness for the DoD and long-term system corrections are in process. Once the proper systems are in
place, these items will be accounted for under the consumption method of accounting.

The Air Force determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are categorized
as OM&S rather than military equipment.

The Air Force recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development
of an effective means of valuing such materiel.




                                                              37
                                                                                 U.S. Air Force 2013 Agency Financial Report




1.N. Investments in U.S. Treasury Securities

The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investments using the effective interest rate method or another method
obtaining similar results. The Air Force’s intent is to hold investments to maturity, unless they are needed to finance
claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these
securities.

The Air Force invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by
the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror the prices of
particular U.S. Treasury securities traded in the government securities market.
1.O. General Property, Plant and Equipment

The Air Force uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful
life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. With the exception of USACE Civil Works and Working Capital Fund, General PP&E
assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the DoD’s capitalization threshold. The DoD also requires the capitalization of
improvements to existing General PP&E assets if the improvements equal or exceed the capitalization threshold and
extend the useful life or increase the size, efficiency, or capacity of the asset. The DoD depreciates all General PP&E,
other than land, on a straight-line basis.

When it is in the best interest of the government, the Air Force provides government property to contractors to complete
contract work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on the Air Force’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires the Air Force to maintain, in its
property systems, information on all property furnished to contractors. These actions are structured to capture and report
the information necessary for compliance with federal accounting standards. The Air Force has not fully implemented this
policy primarily due to system limitations.

1.P. Advances and Prepayments

When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances
or prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services
should be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets
when the related goods and services are received. The Air Force has not fully implemented this policy primarily due to
system limitations.

1.Q. Leases

Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases.
When a lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or
exceeds the current capitalization threshold, the Air Force records the applicable asset as though it was purchased with
an offsetting liability and depreciates it. The Air Force records the asset and the liability at the lesser of the present value
of the rental and other lease payments during the lease term (excluding portions representing executory costs paid to the
lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit
interest rate or the government’s incremental borrowing rate at the inception of the lease. The Air Force, as the lessee,
receives the use and possession of leased property, for example real estate or equipment, from a lessor in exchange for a
payment of funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for
operating leases are expensed over the lease term as they become payable.


                                                               38
                                                                                 U.S. Air Force 2013 Agency Financial Report




Office space and leases entered into by the Air Force are the largest component of operating leases and are based on
costs gathered from existing leases, General Services Administration (GSA) bills, and interservice support agreements.
Future year projections use the Consumer Price Index.

1.R. Other Assets

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on the Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, the
Air Force may provide financing payments. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of supplies or services by the
Government. Contract financing payments clauses are incorporated in the contract terms and conditions and may include
advance payments, performance-based payments, commercial advances and interim payments, progress payments
based on cost, and interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain
contract financing payments as other assets. The Air Force has fully implemented this policy.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
Supplement authorizes progress payments based on a percentage or stage of completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities

The Statement of Federal Financial Accounting Standards (SFFAS) No. 5, “Accounting for Liabilities of the Federal
Government,” as amended by SFFAS No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” defines a
contingency as an existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or
loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Air Force recognizes
contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can
be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. The Air Force’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft and vehicle
accidents, medical malpractice, property or environmental damages, and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for Air Force assets. Consistent with SFFAS No. 6,
“Accounting for Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins when
the asset is placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities
of the Federal Government,” nonenvironmental disposal liabilities are recognized when management decides to dispose
of an asset. The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered assets
when placed into service. These amounts are not easily distinguishable and are developed in conjunction with
environmental disposal costs. The Air Force does not recognize contingent liabilities associated with nonenvironmental
disposals due to immateriality.

1.T. Accrued Leave

The Air Force reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

                                                              39
                                                                               U.S. Air Force 2013 Agency Financial Report




Cumulative results of operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases

The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The Air Force purchases capital assets overseas with
appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms generally
allow the Air Force continued use of these properties until the treaties expire. In the event treaties or other agreements
are terminated, use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital
assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of capital investments
and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements
and collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable.
Supported undistributed disbursements and collections are then applied to reduce accounts payable and receivable
accordingly. Unsupported undistributed disbursements are recorded as disbursements in transit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Fiduciary Activities

Fiduciary cash and other assets are not assets of the Air Force and are not recognized on the Balance Sheet. Fiduciary
activities are reported on the financial statement note schedules.

1.Y. Military Retirement and Other Federal Employment Benefits

Not applicable.

1.Z. Significant Event

Not applicable.




                                                             40
                                                                              U.S. Air Force 2013 Agency Financial Report




 Note 2.         Nonentity Assets


 As of September 30                                                2013                                   2012
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                   $                          94,360    $                             122,890
    B. Accounts Receivable                                                          0                                        0
    C. Other Assets                                                                 0                                        0
    D. Total Intragovernmental Assets               $                          94,360    $                             122,890


 2. Nonfederal Assets
    A. Cash and Other Monetary Assets               $                          83,280    $                                  80,838

    B. Accounts Receivable                                                   199,800                                   293,608

    C. Other Assets                                                          174,050                                   179,050
    D. Total Nonfederal Assets                      $                        457,130     $                             553,496


 3. Total Nonentity Assets                          $                        551,490     $                             676,386


 4. Total Entity Assets                             $                     317,952,238    $                        312,872,718



 5. Total Assets                                    $                     318,503,728    $                        313,549,104

Relevant Information for Comprehension

Nonentity assets are assets for which the Air Force maintains stewardship accountability and reporting responsibility but
are not available for the Air Force’s normal operations.

Intragovernmental Fund Balance with Treasury represents amounts in Air Force’s deposit fund and two suspense fund
accounts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan Suspense) that are not available for
Air Force use.

Nonfederal Accounts Receivable include interest receivable that upon collection is remitted to the U.S. Treasury as
miscellaneous receipts.

Nonfederal Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited collections as reported
on the Statement of Accountability (Standard Form 1219). These assets are held by the Air Force Disbursing Officers as
agents of the U.S. Treasury. The Nonfederal Cash and Other Monetary assets represent a fiduciary capacity held by Air
Force Disbursing Officers as agents for U.S. Treasury and are not available for use in operations.

Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool agreements with the
Massachusetts Institute of Technology and other nonprofit institutions. These agreements are used for the financing of
cost-type contracts with nonprofit educational research institutions for experimental research and development work when
several contracts or a series of contracts require financing by advance payments. These funds are not available for use in
Air Force operations.




                                                            41
                                                                                 U.S. Air Force 2013 Agency Financial Report




 Note 3.          Fund Balance with Treasury


 As of September 30                                                     2013                                   2012
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                                 $                    100,849,781      $                    112,266,178
    B. Revolving Funds                                                                   0                                     0
    C. Trust Funds                                                                  24,503                                11,568
    D. Special Funds                                                                 2,027                                 1,991
    E. Other Fund Types                                                             94,360                               122,890
    F. Total Fund Balances                                $                    100,970,671      $                    112,402,627



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                          $                    103,068,205      $                    114,557,012
    B. Fund Balance per Agency                                                 100,970,671                           112,402,627

 3. Reconciling Amount                                    $                      2,097,534      $                       2,154,385

Relevant Information for Comprehension

Other Fund Types include balances in deposit accounts which consist of taxes, small escrow accounts and other federal
payroll withholding allotments.

The Air Force shows a reconciling amount of $2.1 billion with U.S. Treasury, which is comprised of the net value of the
following:

$19 million in allocation transfers from Air Force (known as the Parent Agency) to the Department of Transportation (DoT)
(known as the Child Agency). These funds are reported in the Fund Balance with Treasury (FBWT) on the Air Force Trial
Balance but are not included in the Fund Balance per Treasury of the United States via the Governmentwide Accounting
System (GWA) because TUS reports these balances under DoT. An allocation transfer occurs when funds are
appropriated to one federal entity and then that entity transfers the authority to execute its funds to another federal entity.

$25.1 million in allocation transfers to Air Force (known here as the Child Agency) from other agencies (known as Parent
Agencies). These are not reported in the FBWT on the Air Force Trial Balance but they are included in the Fund Balance
per Treasury in GWA. The Foreign Military Sales-Military Assistance Program (FMS-MAP), the Department of Agriculture
and the Department of Transportation record these balances in their FBWT on their respective Trial Balances. An
allocation transfer occurs when funds are appropriated to one federal entity and then that entity transfers the authority to
execute its funds to another federal entity.

$3.05 million in an unavailable receipt account due to it being the Savings Deposit Program (SDP) which is a fiduciary
activity. These funds are not reported in the FBWT on the Air Force Trial Balance and are only reported as part of the
Fiduciary Cash balances on Footnote 24, however, the balance is included in the Fund Balance per Treasury in GWA.

$2.1 billion in withdrawal of funds in the cancelling appropriations at September 30, 2013. These funds are included in
Fund Balance per Treasury but are not included in FBWT per Air Force.




                                                              42
                                                                             U.S. Air Force 2013 Agency Financial Report




 Status of Fund Balance with Treasury

 As of September 30                                              2013                                    2012
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                 $                        20,253,628    $                         28,153,750
    B. Unavailable                                                         5,374,821                               4,924,787

 2. Obligated Balance not yet Disbursed          $                        76,881,017    $                         81,011,195

 3. Nonbudgetary FBWT                            $                           425,248    $                             487,687

 4. NonFBWT Budgetary Accounts                   $                       (1,964,043)    $                         (2,174,792)

 5. Total                                        $                      100,970,671     $                        112,402,627


Relevant Information for Comprehension

The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and
proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested
in U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for trust fund accounts are
restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts and nonentity FBWT. The items reported as Nonbudgetary FBWT account comprises the
FBWT for suspense, deposit and receipt accounts.

NonFBWT Budgetary Accounts reduce the Status of FBWT. The items that comprise the amount reported as NonFBWT
receipts are from investments and discounts in U.S. Treasury securities, and unfilled customer orders without advances.




                                                            43
                                                                                             U.S. Air Force 2013 Agency Financial Report




 Note 4.             Investments and Related Interest

 As of September 30                                                                     2013
                                                       Amortization               Amortized                                           Market Value
                                             Cost                                                         Investments, Net
                                                           Method             (Premium) / Discount                                      Disclosure
(Amounts in thousands)
 1. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement Fund    $          0                        $                      0   $                      0   $                  0
       2. Medicare Eligible Retiree
       Health Care Fund                          0                                               0                          0                      0
       3. US Army Corps of
       Engineers                                 0                                               0                          0                      0
       4. Other Funds                        1,081   Effective Interest                        (8)                   1,073                   1,073
       5. Total Nonmarketable,
       Market-Based                          1,081                                             (8)                   1,073                   1,073

   B. Accrued Interest                           4                                                                          4                      4
   C. Total
      Intragovernmental
      Securities                      $      1,085                        $                    (8)   $               1,077      $            1,077



 2. Other Investments
    A. Total Other
       Investments                    $          0                        $                      0   $                      0                  N/A



 As of September 30                                                                     2012
                                                     Amortization               Amortized                                           Market Value
                                          Cost                                                           Investments, Net
                                                       Method              (Premium) / Discount                                      Disclosure
 (Amounts in thousands)
 3. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement Fund    $          0                        $                      0   $                      0   $                  0
       2. Medicare Eligible Retiree
       Health Care Fund                          0                                               0                          0                      0
       3. US Army Corps of
       Engineers                                 0                                               0                       0                       0
       4. Other Funds                        1,072   Effective Interest                        (5)                   1,067                   1,068
       5. Total Nonmarketable,
       Market-Based                          1,072                                             (5)                   1,067                   1,068

   B. Accrued Interest                           5                                                                          5                      5
   C. Total
      Intragovernmental
      Securities                      $      1,077                        $                    (5)   $               1,072      $            1,073

 4. Other Investments
    A. Total Other
       Investments                    $          0                        $                      0   $                      0                  N/A




                                                                      44
                                                                              U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipt and are an asset to the Air
Force and a liability to the U.S. Treasury. The Federal Government does not set aside assets to pay future benefits or
other expenditures associated with earmarked funds. The cash generated from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Since the Air Force and the U.S. Treasury are both part
of the Federal Government, these assets and liabilities offset each other from the standpoint of the Federal Government
as a whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial statements.

The U.S. Treasury securities provide the Air Force with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the Air Force requires redemption of these securities to make expenditures, the
Government will finance them from accumulated cash balances, by raising taxes or other receipts, borrowing from the
public or repaying less debt, or curtailing other expenditures. The Federal Government used the same method to finance
all other expenditures.

Intragovernmental Securities (Other Funds) primarily represents the Air Force Gift Fund investment in U.S. Treasury
Securities.




                                                            45
                                                                                   U.S. Air Force 2013 Agency Financial Report




 Note 5.           Accounts Receivable


 As of September 30                                                         2013
                                                                   Allowance For Estimated
                                  Gross Amount Due                                                    Accounts Receivable, Net
                                                                          Uncollectibles
(Amounts in thousands)
 1. Intragovernmental
    Receivables             $                       423,363                               N/A     $                         423,363
 2. Nonfederal
    Receivables (From
    the Public)             $                       568,304    $                    (306,619)     $                         261,685

 3. Total Accounts
    Receivable              $                       991,667    $                    (306,619)     $                         685,048




 As of September 30                                                          2012
                                                                     Allowance For Estimated
                                   Gross Amount Due                                                    Accounts Receivable, Net
                                                                            Uncollectibles
 (Amounts in thousands)
 1. Intragovernmental
    Receivables              $                       465,673                                N/A    $                        465,673
 2. Nonfederal
    Receivables (From
    the Public)              $                       700,231    $                    (277,915)     $                        422,316

 3. Total Accounts
    Receivable               $                     1,165,904    $                    (277,915)     $                        887,989


Relevant Information for Comprehension

The accounts receivable represent the Air Force’s claim for payment from other entities. The Air Force only recognizes an allowance
for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with the Intragovernmental
Business Rules.




                                                                46
                                                                               U.S. Air Force 2013 Agency Financial Report




 Note 6.          Other Assets


 As of September 30                                                           2013                             2012
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                    $                  203,947      $                    175,315
    B. Other Assets                                                                         0                                 0
    C. Total Intragovernmental Other Assets                        $                  203,947      $                    175,315

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                     $               16,172,797      $                11,999,840
    B. Advances and Prepayments                                                        24,970                           28,448
    C. Other Assets (With the Public)                                                 174,050                          179,050
    D. Total Nonfederal Other Assets                               $               16,371,817      $                12,207,338


 3. Total Other Assets                                             $               16,575,764      $                12,382,653


Relevant Information for Comprehension

Nonfederal Other Assets (With the Public) is comprised exclusively of advance payment pool agreements with nonprofit
educational institutions. These agreements are funded under cost-type contract procedures and are mainly for
experimental research and development requirements.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Federal
Government that protect the contract work from state or local taxation, liens or attachment by the contractor's creditors,
transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that
ownership of the contractor’s work has transferred to the Federal Government. The Federal Government does not have
the right to take the work, except as provided in contract clauses related to termination or acceptance, and Air Force is not
obligated to make payment to the contractor until delivery and acceptance.

The balance of Outstanding Contract Financing Payments includes both $14.4 billion in contract financing payments and
$1.7 billion in estimated future payments to contractors. These future payments are made to contractors upon delivery
and government acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.




                                                             47
                                                                              U.S. Air Force 2013 Agency Financial Report




 Note 7.         Cash and Other Monetary Assets


 As of September 30                                                   2013                                  2012
 (Amounts in thousands)

 1. Cash                                                $                         65,853     $                              65,202
 2. Foreign Currency                                                              17,427                                    15,636
 3. Other Monetary Assets                                                              0                                         0

 4. Total Cash, Foreign Currency, & Other
    Monetary Assets                                     $                         83,280     $                          80,838


Relevant Information for Comprehension

The amount reported as cash and foreign currency consists primarily of cash held by Disbursing Officers. The foreign
currency amount reported is valued at U.S. Treasury’s prevailing exchange rate, which is the most favorable rate available
to the Government for foreign exchange transactions. Foreign currency is primarily used to make vendor disbursements
and to exchange U.S. dollars for military personnel.

Cash and foreign currency are nonentity assets and, as such, considered restricted assets that are held by the Air Force
but are not available for use in its operations. These assets are held by Air Force Disbursing Officers as agents of U.S.
Treasury. The total balance of $83 million is restricted.



 Note 8.         Direct Loans and Loan Guarantees

Not applicable




                                                            48
                                                                                 U.S. Air Force 2013 Agency Financial Report




 Note 9.          Inventory and Related Property


 As of September 30                                                  2013                                     2012
 (Amounts in thousands)

 1. Inventory, Net                                    $                                0     $                                 0
 2. Operating Materials & Supplies, Net                                       57,594,470                              50,711,684
 3. Stockpile Materiel, Net                                                            0                                       0

 4. Total                                             $                       57,594,470     $                        50,711,684


Relevant Information for Comprehension

General Composition of OM&S

The Operating Materials and Supplies (OM&S) include weapon systems spares, ammunition, tactical missiles, aerial
target drones, uninstalled aircraft and cruise missile engines, and uninstalled intercontinental ballistic missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the amount of
OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding any items for future
use.

Restrictions on the Use of OM&S

The Air Force does not maintain any OM&S restricted assets.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

The category Held for Use includes all materiel available for issuance. OM&S classified as such is marked within each
supply or inventory system.

The category Held for Repair generally includes all economically reparable materiel as defined by the Military Standard
Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M). The category Held for Repair represents
suspended, unserviceable (but reparable) items recorded at Moving Average Cost (MAC) or standard price.

The category Held as Excess, Obsolete, and Unserviceable includes all materiel that managers determine to be more
costly to repair than to replace. Items retained for management purposes which are beyond economic repair are coded
“condemned.” These items are held until proper disposal can be made. Excess, Obsolete, and Unserviceable are valued
at zero. This allowance results in a zero value to the Air Force.

Operating Materiel and Supplies (OM&S) Value

The OM&S data reported on the financial statements are derived from logistics systems designed for materiel
management purposes. Some of these systems do not maintain the historical cost data necessary to comply with the
valuation requirements of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
Inventory and Related Property.”

In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is defined in SFFAS No. 3
as materiel that has not yet been issued to the end user. Once issued, the materiel is expensed. According to federal
accounting standards, the consumption method of accounting should be used to account for OM&S unless: (1) the




                                                               49
                                                                               U.S. Air Force 2013 Agency Financial Report




amount of OM&S is not significant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is cost
beneficial to expense OM&S when purchased (purchase method).

Other Air Force Disclosures

In the past, the Air Force provided only minimal OM&S accounting data that can be used to prepare the financial
statements but has made considerable strides in improving the systems to provide actual transactions for completing the
financial statements. However, in some cases, the data provided still consists of only beginning and ending balances for
each of the asset accounts Held for Use; Excess, Obsolete, and Unserviceable; and Held for Repair. Without the required
additional data (acquisitions, transfers in, amounts consumed, transfers out, trading partner data, etc.), DFAS can only
report the net change between prior period ending balances and the values reported as current period ending balances.




                                                             50
                                                                                    U.S. Air Force 2013 Agency Financial Report




 Inventory, Net
Not applicable

 Operating Materials and Supplies, Net

 As of September 30                                                  2013
                                       OM&S
                                                                                                                        Valuation
                                     Gross Value         Revaluation Allowance              OM&S, Net
                                                                                                                         Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use               $         43,232,246    $                     0      $            43,232,246       SP, LAC, MAC
   B. Held for Repair                      14,362,224                          0                   14,362,224       SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                      666,842                    (666,842)                              0          NRV

   D. Total                      $         58,261,312    $              (666,842)     $            57,594,470


 As of September 30                                                  2012
                                       OM&S
                                                                                                                        Valuation
                                     Gross Value        Revaluation Allowance               OM&S, Net
                                                                                                                         Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use               $        39,196,024    $                      0    $              39,196,024       SP, LAC, MAC
   B. Held for Repair                     11,515,660                           0                   11,515,660       SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                      402,171                   (402,171)                               0          NRV

   D. Total                      $        51,113,855    $              (402,171)    $              50,711,684

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                 NRV = Net Realizable Value                         MAC = Moving Average Cost
 SP = Standard Price                           LCM = Lower of Cost or Market
 AC = Actual Cost                              O = Other



 Stockpile Materiel, Net
Not applicable.




                                                                51
                                                                                              U.S. Air Force 2013 Agency Financial Report




Note 10.             General Property, Plant & Equipment, Net


As of September 30                                                                  2013
                                   Depreciation/                                                          (Accumulated
                                                          Service               Acquisition                                             Net Book
                                   Amortization                                                            Depreciation/
                                                           Life                     Value                                                  Value
                                     Method                                                                Amortization)
(Amounts in thousands)


1. Major Asset Classes
   A. Land                              N/A                 N/A       $           429,420                           N/A    $                429,420
   B. Buildings, Structures, and
      Facilities                        S/L               20 Or 40              75,305,165     $           (39,045,802)               36,259,363

  C.Leasehold Improvements              S/L              Lease Term                 66,046                      (13,013)                     53,033

  D.Software                            S/L               2-5 Or 10               627,530                     (416,173)                     211,357

  E. General Equipment                  S/L               5 Or 10               47,244,759                 (31,966,392)               15,278,367

  F. Military Equipment                 S/L               Various              296,728,025                (212,002,402)               84,725,623
  G.Shipbuilding
     (Construction-in-Progress)         N/A                 N/A                          0                            0                          0
  H.Assets Under Capital
     Lease                              S/L              Lease Term                 93,898                      (84,504)                      9,394
  I. Construction-in- Progress
     (Excludes Military
     Equipment)                         N/A                 N/A                  5,626,861                          N/A                5,626,861

  J. Other                                                                               0                            0                          0

  K. Total General PP&E                                               $        426,121,704     $          (283,528,286)    $         142,593,418



1 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable




                                                                          52
                                                                                        U.S. Air Force 2013 Agency Financial Report




As of September 30
                                                                              2012
                                  Depreciation/                                                     (Accumulated
                                                     Service              Acquisition                                             Net Book
                                  Amortization                                                       Depreciation/
                                                      Life                    Value                                                  Value
                                    Method                                                           Amortization)
(Amounts in thousands)



1. Major Asset Classes
   A. Land                             N/A               N/A    $           424,618                           N/A    $                424,618
  B. Buildings, Structures, and
     Facilities                        S/L          20 Or 40              72,435,882     $           (37,200,608)               35,235,274


  C.Leasehold Improvements             S/L         Lease Term                 63,510                       (9,808)                     53,702


  D.Software                           S/L          2-5 Or 10               626,824                     (402,653)                     224,171


  E. General Equipment                 S/L           5 or 10              47,270,027                 (35,597,256)               11,672,771


  F. Military Equipment                S/L           Various             293,447,899                (209,292,723)               84,155,176
  G.Shipbuilding
    (Construction-in-Progress)         N/A               N/A                       0                            0                          0
  H.Assets Under Capital
     Lease                             S/L         Lease Term               106,923                       (91,443)                     15,480
  I. Construction-in- Progress
     (Excludes Military
     Equipment)                        N/A               N/A               5,301,049                          N/A                5,301,049


  J. Other                                                                         0                            0                          0


  K. Total General PP&E                                         $        419,676,732     $          (282,594,491)    $         137,082,241



1 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable




                                                                    53
                                                                                 U.S. Air Force 2013 Agency Financial Report




Heritage Assets and Stewardship Land

 Categories                               Measure              Beginning           Additions           Deletions           Ending
                                          Quantity              Balance                                                   Balance
 Buildings and Structures                 Each                     7,154                     0               230            6,924
 Archeological Sites                      Each                     2,649                   132                 0            2,781
 Museum Collection Items (Objects,        Each                  134,189                    790               314          134,665
      Not Including Fine Art)
 Museum Collection Items (Objects,        Each                     12,580              1,460                      0            14,040
      Fine Art)


                                                 (Acres in Thousands)
 Facility                                                Beginning                                                         Ending
                         Facility Title                                       Additions             Deletions
 Code                                                      Balance                                                        Balance
 9110           Government Owned Land                        1,566                    0                      0              1,566
 9111           State Owned Land                                 0                    0                      0                  0
 9120           Withdrawn Public land                        6,279                    0                     10              6,279
                Licensed and Permitted                         709                   22                      0                731
 9130                 Land
 9140           Public Land                                      0                     0                      0                     0
 9210           Land Easement                                  160                     0                      0                   160
 9220           In-leased Land                                 103                     0                      0                   103
 9230           Foreign Land                                   296                     0                      0                   296
 Grand Total                                                                                                                    9,125
 TOTAL - All Other Lands                                                                                                        2,856
 TOTAL – Stewardship Lands                                                                                                      6,269


Relevant Information for Comprehension

General Property, Plant and Equipment (PP&E)

There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located outside the
continental United States.

Due to lack of historical data, in the past the Air Force estimated historical values for capitalized military equipment using
current departmental internal records. Currently, the Air Force uses actual acquisition cost for capitalizing military
equipment. The Air Force estimates historical values for capitalized military equipment using departmental internal
records.

Other Air Force Disclosures

The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values
reported for the major asset classes of Land and Buildings, Structures, and Facilities. The value of General PP&E
personal property major asset class of Software and Equipment does not include all of the General PP&E above the DoD
capitalization threshold in the possession of contractors. The Air Force does not report the value of equipment purchased
directly by the contractor. The Inspector General, DoD, and the Air Force are developing new policies and a contractor
reporting process to capture General PP&E information for future reporting purposes in compliance with generally
accepted accounting principles.




                                                              54
                                                                                 U.S. Air Force 2013 Agency Financial Report




Heritage Assets and Stewardship Land

The Air Force’s overall mission is to deliver sovereign options for the defense of the United States of America and its
global interests to fly, fight, and win in air, space, and cyberspace. As this mission has been executed, Air Force has
become a large-scale owner of historic buildings, structures, archeological sites and artifacts, aircraft, other cultural
resources, and stewardship land. The protection of the nation’s heritage assets and stewardship land is an important
aspect of the Air Force’s mission.

Heritage Assets are PP&E of historical, natural, cultural, educational or artistic significance (e.g. aesthetic); or with
significant architectural characteristics. Heritage Assets and Stewardship Land are resources that protect, restore,
enhance, modernize, preserve and sustain mission capability within the Air Force through effective planning and
management of natural and cultural resources to guarantee access to air, land, and water. These assets are resources
that are managed to provide multiple-use activities for the public benefit. This includes actions to comply with
requirements such as federal laws, Executive Orders, policies, final governing standards, and other binding agreements.
Air Force policy is to promote and preserve indefinitely the identifiable human, environmental or civic value of these
assets.

Stewardship Land comprises land and land rights other than that acquired for or in connection with General PP&E, land
acquired via the public domain, or land acquired at no cost. Air Force policy is to promote and preserve indefinitely the
identifiable human, environmental or civic value of such land.

Heritage Assets within the Air Force consist of buildings and structures, archeological sites, museum collection items
(objects, not including fine art), and museum collection items (fine art). The Air Force’s accounting systems generally do
not capture information relative to heritage assets separately and distinctly from normal operations. Although the
underlying accounting and recordkeeping systems track the quantities of these assets, and, in some cases, their historical
cost, information regarding their fair market value is not readily available.

Buildings and Structures: Heritage assets are buildings and structures that are listed on, or eligible for listing on, the
National Register of Historic Places (NRHP), including multi-use facilities. These buildings and structures are maintained
in accordance with the National Historic Preservation Act (NHPA) and The Secretary of Interior’s Standards for The
Treatment of Historic Properties by each base. The Air Force reported 6,924 buildings and structures on Air Force
installations and sites to be Heritage Assets as of September 2013. Installation and Installation Support Team (IST)
Cultural Resource Managers (CRMs) were unable to report on FY13 additions because of Sequestration cuts and the
October 2013 Furlough. The total of Heritage Asset buildings decreased by 230 in FY13; most of these were demolitions
covered under the 2008 Capehart-Wherry Era Housing, the 2010 Cold War Era Ammunition Storage Facilities, and Cold
War Era Unaccompanied Housing nation-wide programmatic agreements that completed NHPA Section 106 review for
these abundant facilities.

Heritage Asset buildings and structures are maintained by each base civil engineering group and are considered to be in
good condition. These buildings and structures are subject to NHPA, Section 106 review and consultation requirements
whenever Air Force undertakings might affect their historic characteristics. Section 106 reviews ensure State Historic
Preservation Officers, tribal leaders, and other party concerns are taken into account when Air Force decides to adversely
affect Heritage Asset buildings and structures.

Archeological Sites: Prehistoric and historic archaeological sites that have been identified, evaluated, and determined
to be eligible for or are listed on the National Register of Historic Places in accordance with NHPA Section 110. The Air
Force reports 2,781 archeological sites on or eligible for listing on the National Register as of Sep 2013, an increase of
132 from the 2,649 reported for FY2012. This cohort of archaeological Heritage Assets is a subset of over 19,000
archaeological sites recorded on Air Force controlled and owned lands in the United States and its Territories.

Museum Collection Items, Objects Not Including Fine Art: This represents the number of objects which meet the
criteria for historical property as defined in Air Force Instruction 84-103 and that have been evaluated, accessioned, and
catalogued in the Air Force national historical collection. The National Museum of the United States Air Force (NMUSAF)
performs inherently governmental functions by fulfilling statutory requirements delegated by the Secretary of the Air Force
for management of the Air Force’s national historic collection. The NMUSAF is fully accredited by the American
Association of Museums.



                                                              55
                                                                               U.S. Air Force 2013 Agency Financial Report




During the period 1 October 2011 – 30 September 2013 there have been 790 objects added to the collection. These
additions are a result of private donations, transfers from Air Force or other federal entities, curatorial administrative
actions, and the continued documentation of newly reported artifacts at Air Force activities worldwide. 318 objects were
deaccessioned from the collection as having been determined not to meet historic property criteria, were in poor condition,
or were transferred to other federal historical activities. As part of the NMUSAF’s active collection management process,
the accession and deaccession of objects is continuous.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a result of both
the professional care from trained conservators and ever improving exhibit/storage conditions. During FY2013 along with
continued preventive maintenance on the aircraft collection, detailed restoration work continued on the iconic B-17F
“Memphis Belle” as well as the Stearman PT-13D “Kaydet” which will be featured in a much expanded Tuskegee Airmen
exhibit opening in 2014.

Museum Collection Items, Fine Art

The art collection contains original oils, drawing, sketches and sculptures. These paintings were in direct result of the
artists visiting bases and operations throughout the Air Force. This represents 91 additions from the Air Force Art Program
and 1,369 pieces of fine art from the National Museum of the United States Air Force for this fiscal year. Included in the
number above are fine art paintings inclusive of the National Museum of the United States Air Force holding. The
collection is maintained and kept in good condition. Each year during the annual inventory, Air Force Art requests the
condition of the paintings as well. Maintenance continues to be a constant.




                                                             56
                                                                     U.S. Air Force 2013 Agency Financial Report




Assets Under Capital Lease

As of September 30
                                                              2013                                  2012
(Amounts in thousands)



1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                              $                    93,898 $                           106,923

   B. Equipment                                                                   0                                    0

   C. Accumulated Amortization                                           (84,504)                             (91,443)


   D. Total Capital Leases                            $                      9,394 $                               15,480




Note 11.        Liabilities Not Covered by Budgetary Resources


As of September 30                                             2013                                  2012
(Amounts in thousands)

1. Intragovernmental Liabilities
   A. Accounts Payable                                    $                      0      $                           0
   B. Debt                                                                       0                                  0
   C. Other                                                                298,812                            436,544
   D. Total Intragovernmental Liabilities                 $                298,812      $                     436,544

2. Nonfederal Liabilities
   A. Accounts Payable                                    $              (112,960)      $                   (209,471)
   B. Military Retirement and
      Other Federal Employment Benefits                                 1,191,254                           1,148,192
   C. Environmental Liabilities                                         7,556,279                           8,022,731
   D. Other Liabilities                                                 3,208,834                           3,080,303
   E. Total Nonfederal Liabilities                        $            11,843,407       $                  12,041,755

3. Total Liabilities Not Covered by Budgetary
   Resources                                              $            12,142,219       $                  12,478,299


4. Total Liabilities Covered by Budgetary Resources       $            12,659,928       $                  13,485,258

5. Total Liabilities                                      $            24,802,147       $                  25,963,557




                                                      57
                                                                                 U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided.

The material amounts and sensitive areas included in Total Liabilities Not Covered by Budgetary Resources are
categorized as not covered because there is no current or immediate appropriation available for liquidation. These
liabilities will require resources funded from future year appropriations. The Air Force fully expects to receive the
necessary resources to cover these liabilities in future years.

Other Intragovernmental Liabilities are primarily comprised of Federal Employees’ Compensation Act (FECA) liabilities to
the Department of Labor and other unfunded employment related liabilities.

Other Nonfederal Liabilities are primarily comprised of the amounts recorded for unpaid leave earned to which an
employee is entitled upon separation and for contingent liabilities which are probable and measurable and will require
resources funded from future years’ appropriations.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due and
payable during the current fiscal year. These liabilities primarily consist of the amount recorded by employer agencies for
the actuarial present value of future FECA benefits provided to federal employees or their beneficiaries as a result of work
related deaths, disability, or occupational disease. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits, for additional details and disclosures.

The abnormal balance in Nonfederal Liabilities Accounts Payable of $133 million can be attributed mainly to abnormal
balances reported for accounts payable in cancelled appropriations for Operation and Maintenance, Aircraft Procurement,
and Research, Development Test & Evaluation.

 Note 12.         Accounts Payable


 As of September 30                                                                2013

                                                                        Interest, Penalties, and
                                               Accounts Payable                                                   Total
                                                                          Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables             $           2,195,768    $                          N/A    $                 2,195,768

 2. Nonfederal Payables (to the Public)                3,210,995                              (16)                      3,210,979

 3. Total                                  $           5,406,763    $                         (16)    $                 5,406,747




                                                             58
                                                                               U.S. Air Force 2013 Agency Financial Report




 As of September 30                                                              2012

                                                                      Interest, Penalties, and
                                              Accounts Payable                                                  Total
                                                                        Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables            $           2,493,311   $                          N/A    $                 2,493,311

 2. Nonfederal Payables (to the Public)               4,435,295                             (15)                      4,435,280

 3. Total                                 $           6,928,606   $                         (15)    $                 6,928,591


Relevant Information for Comprehension

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by Air Force.
The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intra-agency seller-side accounts receivable. Accounts Payable were
adjusted by accruing additional accounts payable and expenses.

The $16.3 thousand abnormal balance in non-federal payables is interest, penalties, and administrative fees stems from
transactions in Air Force Active Operations & Maintenance appropriations for base support and tactical
intelligences/special activities.

Several Air Force appropriations are contributing to the $116 million abnormal balance in accounts payable in cancelled
appropriations. Prior year adjustments are being reviewed and research is being coordinated with the field office to
validate the outstanding balances. Research will continue in FY 2014 to clear the abnormal balance.




 Note 13.        Debt

Not applicable




                                                            59
                                                                          U.S. Air Force 2013 Agency Financial Report




Note 14.       Environmental Liabilities and Disposal Liabilities

As of September 30
                                                                                 2013                        2012
(Amounts in thousands)


1. Environmental Liabilities--Nonfederal

A. Accrued Environmental Restoration Liabilities
 1. Active Installations—Installation Restoration Program (IRP) and
    Building Demolition and Debris Removal (BD/DR)                    $              5,085,673     $            5,427,336
 2. Active Installations—Military Munitions Response Program (MMRP)                    491,835                    554,667
 3. Formerly Used Defense Sites—IRP and BD/DR                                                0                          0
 4. Formerly Used Defense Sites--MMRP                                                        0                          0

B. Other Accrued Environmental Liabilities—Non-BRAC
 1. Environmental Corrective Action                                                     14,722                     14,722
 2. Environmental Closure Requirements                                               1,253,417                  1,253,417
 3. Environmental Response at Operational Ranges                                             0                          0
 4. Asbestos                                                                           467,582                    467,582
 5. Non-Military Equipment                                                              34,175                     34,175
 6. Other                                                                                    0                          0

C. Base Realignment and Closure Installations
 1. Installation Restoration Program                                                 1,274,659                  1,282,013
 2. Military Munitions Response Program                                                  3,142                     14,018
 3. Environmental Corrective Action / Closure Requirements                                   0                         82
 4. Asbestos                                                                                 0                          0
 5. Non-Military Equipment                                                                   0                          0
 6. Other                                                                                    0                          0

D. Environmental Disposal for Military Equipment / Weapons Programs
 1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                                  0                           0
 2. Non-Nuclear Powered Military Equipment                                              36,402                      36,402
 3. Other Weapons Systems                                                                    0                           0

E. Chemical Weapons Disposal Program
 1. Chemical Demilitarization - Chemical Materials Agency (CMA)                                0                        0
 2. Chemical Demilitarization - Assembled Chemical Weapons
    Alternatives (ACWA)                                                                        0                        0
 3. Other                                                                                      0                        0

2. Total Environmental Liabilities                                    $              8,661,607     $            9,084,414




                                                        60
                                                                                  U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

Other Information Related to Environmental Liabilities

An environmental liability is a probable and measurable future outflow or expenditure of resources that exists as of the
financial reporting date for environmental cleanup costs resulting from past transactions or events. The Air Force
acknowledges that liabilities can change for environmental cleanup costs to include (1) costs associated with
environmental restoration of sites funded under the Air Force portion of the Defense Environmental Restorations Program
(DERP); (2) corrective actions funded with other than DERP, Base Realignment and Closure (BRAC); and (3)
environmental costs associated with future closure or disposal of facilities, equipment, asbestos, and weapon systems.
These costs include researching and determining the existence of hazardous waste; removing, containing, and/or
disposing of hazardous waste from property; or material and property that consist of hazardous waste at the time of
shutdown or disposal of the asset. Cleanup costs may include, but are not limited to, decontamination, decommissioning,
site restoration, site monitoring, closure, and post closure costs related to Air Force operations that result in hazardous
waste.

Applicable Laws and Regulations of Cleanup, Closure, and Disposal Requirements.

The Air Force is required to clean up contamination resulting from past waste disposal practices, leaks, spills and other
past activity, which has created a public human health or environmental risk. Air Force does this in coordination with
regulatory agencies and, if applicable, with other responsible parties. The Air Force is also required to recognize closure,
post closure and disposal costs for its Property, Plant and Equipment (PP&E) and environmental corrective action costs
for current operations. The Air Force is responsible for tracking and reporting all required environmental information
related to environmental restoration and corrective action, closure and disposal costs of PP&E, and environmental costs
related to BRAC actions that have taken place in prior years. Applicable laws and regulations for cleanup requirements
are:

Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
Superfund Amendments and Reauthorization Act (SARA)
Clean Water Act
Safe Drinking Water Act
Clean Air Act
Resource Conservation and Recovery Act (RCRA)
Toxic Substances Control Act (TSCA)
Medical Waste Tracking Act
Atomic Energy Act
Nuclear Waste Policy Act
Low Level Radioactive Waste Policy Amendments Act

Types of Environmental Liabilities Identified

The Air Force has environmental liabilities for clean-up requirements for active installations: Installation Restoration
Program, Building Demolition and Debris Removal, Military Munitions Response Program, and Environmental Corrective
Action. The Air Force also has environmental liabilities for cleanup requirements at installations closed under BRAC.
Finally, the Air Force has identified environmental liabilities for closure and disposal of PP&E to include facilities, general
equipment, asbestos, and weapon systems. All clean-up is done in coordination with regulatory agencies, other
responsible parties, and current property owners.

The Air Force reports a $0 balance for line items where another DoD Entity is designated as DoD Executive Agent.
Executive agents are responsible for identifying funding requirements and disclosing financial information regarding the
progress of this program. The United States Army Corps of Engineers is the Executive agent for Formerly Used Defense
Sites. The Department of the Navy is the Executive Agent for environmental liabilities due to Nuclear Powered Military
Equipment and Spent Nuclear Fuel, and the Department of the Army is the Executive Agent for environmental liabilities
related to the chemical weapons program.




                                                               61
                                                                                  U.S. Air Force 2013 Agency Financial Report




Method for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup costs.
The models are either developed within the Remedial Action Cost Engineering Requirements application, or a historic
comparable project, a specific bid, or an independent government cost estimate is referenced for the current project. The
Air Force validates the models in accordance with DoD Instruction 5000.61 and uses the models to estimate
environmental cleanup costs based on data received during a preliminary assessment and initial site investigation. The Air
Force primarily uses engineering estimates after obtaining data during the remedial investigation/feasibility phase of the
environmental project. The Air Force has already expensed the costs for cleanup associated with General PP&E placed
into service prior to October 1, 1997, unless the costs are intended to be recovered through user charges. If the costs are
recovered through user charges, the Air Force expenses cleanup costs associated with that portion of the asset life that
has passed since the General PP&E was placed into service. The Air Force systematically recognizes the remaining cost
over the life of the assets. The unrecognized portion of the estimated total cleanup costs associated with general
property, plant, and equipment is $373 million.

Once the environmental cleanup cost estimates are complete, Air Force will comply with accounting standards to assign
costs to current operating periods. The Air Force Accrued Environmental Restoration Liability is accounted for as a totally
self contained program. All direct and indirect costs of the program are captured and reported. The Air Force
systematically recognizes the remaining cost over the life of the assets.

The accounting standards also require environmental liabilities recognized for closure and disposal requirements. Air
Force has closure requirements or disposal liabilities at active installations. Closure and disposal liabilities for facilities
(including landfills), asbestos, general equipment and weapon systems are estimated for the applicable inventory of real
property, general equipment and weapon systems. Air Force uses a set of historical disposal factors to estimate the
environmental disposal liability for each asset and the estimated closure and monitoring cost for landfills. The current
liability for these classes of assets is determined from the related disposal programs including the resources expected to
be expended in the next year from prior and future budgets.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Air Force is not aware of any pending changes to reported values of Environmental Liabilities but recognizes that
changes may occur in the future due to changes in laws and regulations, changes in agreements with regulatory
agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Air Force are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The actual
results may materially vary from the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further affected if investigation of the
environmental sites reveals contamination levels that differ from the estimate parameters.

The Air Force has the potential to incur costs for restoration initiatives in conjunction with returning overseas Defense
facilities to host nations. The Air Force is unable to provide a reasonable estimate at this time because the extent of
required restoration necessary for returning an installation to a host nation is unknown.

Other Disclosures

The total Air Force Active Installations environmental liabilities decreased from FY12 to FY13 due to the continuation of
efforts which have reduced manpower and centralized restoration personnel’s roles and responsibilities. Additionally, The
Air Force achieve further reductions in environmental liabilities resulting from accelerated site completions, realizing more
site closures than projected for FY13. The total Air Force BRAC environmental liabilities decreased from FY12 to FY13
resulting from accelerated site cleanup/closure and execution of Performance Based Remediation (PBR) contracts at
multiple BRAC installations. Even though there was an overall decrease, there were fluctuations in the Cost-to-Complete
(CTC) of plus or minus 10% at 24 Legacy BRAC and 4 BRAC05 installations. Increases in the CTC at 19 installations



                                                               62
                                                                                 U.S. Air Force 2013 Agency Financial Report




primarily resulted from; addressing emerging contaminants where aqueous film forming foam (AFFF) was used; use of
innovative technologies at landfills; increase in field-driven post-PBR costs, which continue to add fidelity to installation-
specific requirements following an existing PBR; and program reallocation from the Environmental Corrective Action /
Closure Requirements and Military Munitions Response Program lines to the Installation Restoration Program line. The
Air Force General Fund is unable to systematically gather and report environmental disposal liabilities for military
equipment and general property, plant, and equipment. The Air Force General Fund will continue to coordinate with the
Office of the Under Secretary of Defense (Comptroller) to address this deficiency. Additionally, as the Air Force
implements internal controls to accurately accumulate and report the liability, changes to some of the recorded estimates
could occur and the Air Force General Fund will adjust subsequent reporting periods’ Note 14 disclosures. For FY13, the
Air Force General Fund has no basis to estimate an adjustment to the previously recorded liability balances.




                                                              63
                                                                             U.S. Air Force 2013 Agency Financial Report




Note 15.        Other Liabilities

As of September 30
                                                                                         2013
                                                                 Current               Noncurrent
                                                                                                                   Total
                                                                 Liability              Liability
   (Amounts in thousands)

1. Intragovernmental
   A. Advances from Others                                   $        926,299      $                 0      $         926,299
   B. Deposit Funds and Suspense Account Liabilities                  330,886                        0                330,886
   C. Disbursing Officer Cash                                         263,290                        0                263,290
   D. Judgment Fund Liabilities                                        19,185                        0                 19,185
   E. FECA Reimbursement to the Department of Labor                   110,965                  131,294                242,259
   F. Custodial Liabilities                                                 0                  193,840                193,840
   G. Employer Contribution and Payroll Taxes Payable                  42,655                        0                 42,655
   H. Other Liabilities                                                38,459                        0                 38,459
   I. Total Intragovernmental Other Liabilities              $      1,731,739      $           325,134      $       2,056,873

2. Nonfederal
   A. Accrued Funded Payroll and Benefits                    $      1,964,495      $                   0    $       1,964,495
   B. Advances from Others                                             53,442                          0               53,442
   C. Deferred Credits                                                      0                          0                    0
   D. Deposit Funds and Suspense Accounts                              94,362                          0               94,362
   E. Temporary Early Retirement Authority                                  0                          0                    0
   F. Nonenvironmental Disposal Liabilities
        (1) Military Equipment (Nonnuclear)                                 0                        0                      0
        (2) Excess/Obsolete Structures                                      0                        0                      0
        (3) Conventional Munitions Disposal                                 0                        0                      0
   G. Accrued Unfunded Annual Leave                                 2,643,477                        0              2,643,477
   H. Capital Lease Liability                                           1,870                   14,312                 16,182
    I. Contract Holdbacks                                             311,634                        0                311,634
   J. Employer Contribution and Payroll Taxes Payable                  93,188                        0                 93,188
   K. Contingent Liabilities                                                0                2,305,794              2,305,794
   L. Other Liabilities                                                   264                        0                    264
   M. Total Nonfederal Other Liabilities                     $      5,162,732      $         2,320,106      $       7,482,838

3. Total Other Liabilities                                   $      6,894,471      $         2,645,240      $       9,539,711




                                                        64
                                                                             U.S. Air Force 2013 Agency Financial Report




As of September 30
                                                                                           2012
                                                                 Current                  Noncurrent
                                                                                                                   Total
                                                                 Liability                 Liability
(Amounts in thousands)

1. Intragovernmental
   A. Advances from Others                                   $         803,354        $              0      $         803,354
   B. Deposit Funds and Suspense Account Liabilities                   364,795                       0                364,795
   C. Disbursing Officer Cash                                          262,061                       0                262,061
   D. Judgment Fund Liabilities                                        133,841                       0                133,841
   E. FECA Reimbursement to the Department of Labor                    112,447                 141,686                254,133
   F. Custodial Liabilities                                                  0                 291,434                291,434
   G. Employer Contribution and Payroll Taxes Payable                   35,263                       0                 35,263
       H. Other Liabilities                                             48,777                       0                 48,777
    I. Total Intragovernmental Other Liabilities             $       1,760,538        $        433,120      $       2,193,658

2. Nonfederal
   A. Accrued Funded Payroll and Benefits                    $       1,792,119        $                0    $       1,792,119
   B. Advances from Others                                              65,755                         0               65,755
   C. Deferred Credits                                                       0                         0                    0
   D. Deposit Funds and Suspense Accounts                              122,892                         0              122,892
   E. Temporary Early Retirement Authority                                   0                         0                    0
   F. Nonenvironmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                                   0                       0                      0
       (2) Excess/Obsolete Structures                                        0                       0                      0
       (3) Conventional Munitions Disposal                                   0                       0                      0
   G. Accrued Unfunded Annual Leave                                  2,645,133                       0              2,645,133
   H. Capital Lease Liability                                            2,020                  22,208                 24,228
   I. Contract Holdbacks                                                92,993                       0                 92,993
   J. Employer Contribution and Payroll Taxes Payable                   62,990                       0                 62,990
      K. Contingent Liabilities                                              0               1,792,951              1,792,951
   L. Other Liabilities                                                  7,480                       0                  7,480
   M. Total Nonfederal Other Liabilities                     $       4,791,382        $      1,815,159      $       6,606,541

3. Total Other Liabilities                                   $       6,551,920        $      2,248,279      $       8,800,199




                                                        65
                                                                            U.S. Air Force 2013 Agency Financial Report




 Capital Lease Liability

 As of September 30
                                                                               2013
                                                                           Asset Category
                                                   Land and
                                                                      Equipment           Other                 Total
                                                   Buildings
  (Amounts in thousands)
 1. Future Payments Due
   A. 2014                                     $          8,688   $               0   $             0   $                  8,688
   B. 2015                                                8,688                   0                 0                      8,688
   C. 2016                                                    0                   0                 0                          0
   D. 2017                                                    0                   0                 0                          0
   E. 2018                                                    0                   0                 0                          0
   F. After 5 Years                                           0                   0                 0                          0

   G. Total Future Lease Payments Due          $        17,376    $               0   $             0   $                 17,376
   H. Less: Imputed Interest Executory Costs             1,194                    0                 0                      1,194

   I. Net Capital Lease Liability              $        16,182    $               0   $             0   $                 16,182

 2. Capital Lease Liabilities Covered by Budgetary Resources                                            $                 16,182

 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                        $                     0


As of September 30
                                                                               2012
                                                                           Asset Category
                                                   Land and
                                                                      Equipment           Other                 Total
                                                   Buildings
 (Amounts in thousands)
1. Future Payments Due
  A. 2013                                      $          9,462   $               0   $             0   $                  9,462
  B. 2014                                                 8,688                   0                 0                      8,688
  C. 2015                                                 8,688                   0                 0                      8,688
  D. 2016                                                     0                   0                 0                          0
  E. 2017                                                     0                   0                 0                          0
  F. After 5 Years                                            0                   0                 0                          0

 G. Total Future Lease Payments Due            $        26,838    $               0   $             0   $                 26,838
 H. Less: Imputed Interest Executory Costs               2,610                    0                 0                      2,610

 I. Net Capital Lease Liability                $        24,228    $               0   $             0   $                 24,228

2. Capital Lease Liabilities Covered by Budgetary Resources                                             $                 24,228

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                         $                     0




                                                         66
                                                                              U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

Intragovernmental Other Liabilities represent government contributions for employee benefits and unemployment
compensation.

Nonfederal Other Liabilities reflect accrued moving allowance and miscellaneous expenses to contractors.

Contingent Liabilities include contracts authorizing progress payments based on cost as defined in the Federal Acquisition
Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests with the Federal
Government when a specific type of contract financing payment is made. This action protects taxpayer funds in the event
of contract nonperformance. In accordance with contract terms, specific rights to the contractors’ work vests with the
Federal Government when a specific type of contract financing payment is made. This action protects taxpayer funds in
the event of contract nonperformance. It is DoD policy that these rights should not be misconstrued as rights of
ownership. The Air Force is under no obligation to pay contractors for amounts greater than the amounts of progress
payments authorized in contracts until delivery and government acceptance. Due to the probability the contractors will
complete their efforts and deliver satisfactory products, and because the amount of contractor costs incurred but yet
unpaid are estimable, the Air Force has recognized a contingent liability for the estimated unpaid costs that are
considered conditional for payment pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress
payments based on cost is deducted from the estimated total contractor-incurred costs to determine the contingency




                                                            67
                                                                                U.S. Air Force 2013 Agency Financial Report




 Note 16.         Commitments and Contingencies

The Air Force is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests.

The Air Force has accrued contingent liabilities for legal actions where the Secretary of the Air Force General Counsel
(SAF/GC) considers an adverse decision probable and the amount of loss measurable. In the event of an adverse
judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Air
Force records contingent liabilities in Note 15, Other Liabilities.

Claims and litigation from Civil Law having a reasonably possible liability are estimated at $340 million. Neither past
payments nor the current contingent liability estimate provides a basis for accurately projecting the results of any
individual lawsuit or claim. Since monetary judgments paid to civil litigants come from a judgment fund administrated by
U.S. Treasury, it is uncertain that claims will become a liability to the Air Force.

The amounts disclosed for litigation claims and assessments are fully supportable and must agree with Force’s legal
representation letters and management summary schedule.

The amount of obligations related to cancelled appropriations for which the reporting entity has a contractual commitment
for payment is $972.8 million.

The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently, the Air Force has
limited automated system processes by which it captures or assesses these potential liabilities; therefore, the amounts
reported may not fairly present Air Force commitments and contingencies.

The estimated probable liability amount of $2.3 billion was recognized in Note 15 as contingent liabilities.

In addition, Air Force recognized the total estimated probable liability for claims and litigation against the Air Force,
handled by the Civil Law and Litigation Directorate, as of September 30, 2013, valued at $565 million, included in
Nonfederal Contingent Liabilities. As of June 30, 2013, the Air Force was party to 3,317 claims and litigation actions. This
liability dollar amount recorded in the financial statements is an estimate based on the weighted average payout rate for
the previous three years. There are only two types of cases where U.S. Treasury will seek reimbursements from the
affected agency, the Contract Dispute Act cases and select Federal Government personnel disciplinary matters.

The SAF/GC developed the estimating methodology for the contingent liabilities recognized in Note 15.

In cases where SAF/GC disclosed that a judgment has been awarded against the Air Force, these amounts were reported
on the Balance Sheet and within Note 15.




                                                              68
                                                                                     U.S. Air Force 2013 Agency Financial Report




Note 17.        Military Retirement and Other Federal Employment Benefits


As of September 30                                                                                2013
                                                                                             (Less: Assets
                                                                                                                       Unfunded
                                                                       Liabilities          Available to Pay
                                                                                                                       Liabilities
                                                                                               Benefits)
(Amounts in thousands)

1. Pension and Health Benefits
  A. Military Retirement Pensions                                  $                   0   $                  0   $                  0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                            0                      0                      0
  C. Military Medicare-Eligible Retiree Health Benefits                                0                      0                      0
  D. Total Pension and Health Benefits                             $                   0   $                  0   $                  0
2. Other Benefits
  A. FECA                                                          $       1,191,253       $                 0    $         1,191,253
  B. Voluntary Separation Incentive Programs                                       0                         0                      0
  C. DoD Education Benefits Fund                                                   0                         0                      0
  D. Other                                                                     2,829                   (2,829)                      0
  E. Total Other Benefits                                          $       1,194,082       $           (2,829)    $         1,191,253

3. Total Military Retirement and Other Federal
   Employment Benefits:                                            $       1,194,082       $           (2,829)    $         1,191,253




As of September 30                                                                                2012
                                                                                             (Less: Assets
                                                                                                                       Unfunded
                                                                       Liabilities          Available to Pay
                                                                                                                       Liabilities
                                                                                               Benefits)
(Amounts in thousands)
1. Pension and Health Benefits
  A. Military Retirement Pensions                                  $                   0   $                  0   $                  0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                            0                      0                      0
  C. Military Medicare-Eligible Retiree Health Benefits                                0                      0                      0
  D. Total Pension and Health Benefits                             $                   0   $                  0   $                  0
2. Other Benefits
  A. FECA                                                          $       1,148,191       $                 0    $         1,148,191
  B. Voluntary Separation Incentive Programs                                       0                         0                      0
  C. DoD Education Benefits Fund                                                   0                         0                      0
  D. Other                                                                     2,162                   (2,162)                      0
  E. Total Other Benefits                                          $       1,150,353       $           (2,162)    $         1,148,191

3. Total Military Retirement and Other Federal
   Employment Benefits:                                            $       1,150,353       $           (2,162)    $         1,148,191




                                                              69
                                                                               U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

Programs for which actuarial benefits are computed include the Federal Employees’ Compensation Act (FECA); the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases; and a
component for incurred but not reported claims.

FECA liability is determined using a method that utilizes historical benefit payment patterns to predict the ultimate
payments. The projected annual benefit payments are then discounted to present value using the Office of Management
and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds.

Interest rate assumptions utilized for discounting were as follows:

                          Discount Rates

                          2.727% in Year 1
                          3.127% in Year 2
                          and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors [Cost of Living Adjustment (COLA)] and medical inflation factors [Consumer Price Index Medical (CPIM)]
were applied to the calculation of projected future benefits. The actual rates for these factors for the charge-back year
(CBY) 2013 were also used to adjust the methodology’s historical payments to current-year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                         CBY              COLA            CPIM

                         2013             N/A             N/A
                         2014             1.67%           3.46%
                         2015             1.80%           3.82%
                         2016             2.20%           3.83%
                         2017             2.20%           3.82%
                         2018             2.20%           3.82%
                         and thereafter

The model’s resulting projections were analyzed to ensure that the estimates were reliable. Analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the
liability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2012 to the average pattern observed during the
most current three charge-back years, and (4) a comparison of the estimated liability per case in FY 2012 projection to the
average pattern for the projections of the most recent three years.

The Air Force’s actuarial liability for workers’ compensation benefits is developed and provided by Department of Labor at
the end of each fiscal year. There is no change on a quarterly basis.

Other Federal Employment Benefits is comprised of additional post employment benefits due and payable to military
personnel.




                                                             70
                                                               U.S. Air Force 2013 Agency Financial Report




Note 18.         General Disclosures Related to the Statement of Net Cost

Intragovernmental Costs and Exchange Revenue

As of September 30                                      2013                                 2012
(Amounts in thousands)
Military Retirement Benefits
1. Gross Cost
     A. Intragovernmental Cost                 $                         0    $                              0
     B. Nonfederal Cost                                                  0                                   0
     C. Total Cost                             $                         0    $                              0
2. Earned Revenue
     A. Intragovernmental Revenue              $                         0    $                              0
     B. Nonfederal Revenue                                               0                                   0
    C. Total Revenue                           $                         0    $                              0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                         0    $                              0
Total Net Cost                                 $                         0    $                              0

Civil Works
1. Gross Cost
     A. Intragovernmental Cost                 $                         0    $                              0
     B. Nonfederal Cost                                                  0                                   0
     C. Total Cost                             $                         0    $                              0
2. Earned Revenue
     A. Intragovernmental Revenue              $                         0    $                              0
     B. Nonfederal Revenue                                               0                                   0
    C. Total Revenue                           $                         0    $                              0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                         0    $                              0
Total Net Cost                                 $                         0    $                              0

Military Personnel
1. Gross Cost
     A. Intragovernmental Cost                 $                8,243,590     $                     12,439,091
     B. Nonfederal Cost                                        27,721,190                           22,926,002
     C. Total Cost                             $               35,964,780     $                     35,365,093
2. Earned Revenue
     A. Intragovernmental Revenue              $                (470,069)     $                       (431,674)
     B. Nonfederal Revenue                                          8,654                             (332,535)
    C. Total Revenue                           $                (461,415)     $                       (764,209)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                         0    $                              0
Total Net Cost                                 $               35,503,365     $                     34,600,884




                                                   71
                                                        U.S. Air Force 2013 Agency Financial Report




Operations, Readiness & Support
1. Gross Cost
    A. Intragovernmental Cost                 $        (1,763,402)     $                     (3,443,037)
    B. Nonfederal Cost                                 54,535,089                            60,418,591
    C. Total Cost                             $        52,771,687      $                     56,975,554
2. Earned Revenue
     A. Intragovernmental Revenue             $         (604,350)      $                       (540,912)
     B. Nonfederal Revenue                              (284,326)                                 93,503
    C. Total Revenue                          $         (888,676)      $                       (447,409)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                   0    $                              0
Total Net Cost                                $        51,883,011      $                     56,528,145

Procurement
1. Gross Cost
    A. Intragovernmental Cost                 $        18,464,152      $                     19,796,871
    B. Nonfederal Cost                                 13,242,828                            24,613,154
    C. Total Cost                             $        31,706,980      $                     44,410,025
2. Earned Revenue
     A. Intragovernmental Revenue             $         (283,343)      $                       (463,086)
     B. Nonfederal Revenue                              (646,104)                              (172,771)
    C. Total Revenue                          $         (929,447)      $                       (635,857)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                   0    $                              0
Total Net Cost                                $        30,777,533      $                     43,774,168

Research, Development, Test & Evaluation
1. Gross Cost
    A. Intragovernmental Cost                 $        10,506,768      $                     11,745,005
    B. Nonfederal Cost                                 14,942,643                            16,789,869
    C. Total Cost                             $        25,449,411      $                     28,534,874
2. Earned Revenue
     A. Intragovernmental Revenue             $        (2,610,040)     $                     (2,908,316)
     B. Nonfederal Revenue                                (62,677)                           (1,459,292)
    C. Total Revenue                          $        (2,672,717)     $                     (4,367,608)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                   0    $                              0
Total Net Cost                                $        22,776,694      $                     24,167,266




                                                  72
                                                                             U.S. Air Force 2013 Agency Financial Report




 Family Housing & Military Construction
 1. Gross Cost
     A. Intragovernmental Cost                            $                     135,514     $                         179,138
     B. Nonfederal Cost                                                       1,122,429                             3,518,699
     C. Total Cost                                        $                   1,257,943     $                       3,697,837
 2. Earned Revenue
      A. Intragovernmental Revenue                        $                        (193)    $                        (11,529)
      B. Nonfederal Revenue                                                            0                          (4,098,566)
     C. Total Revenue                                     $                        (193)    $                     (4,110,095)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                 $                            0    $                              0
 Total Net Cost                                           $                   1,257,750     $                       (412,258)

 Consolidated
 1. Gross Cost
     A. Intragovernmental Cost                            $                 35,586,622      $                     40,717,068
     B. Nonfederal Cost                                                    111,564,179                           128,266,315
     C. Total Cost                                        $                147,150,801      $                    168,983,383
 2. Earned Revenue
      A. Intragovernmental Revenue                        $                 (3,967,995)     $                    (4,355,517)
      B. Nonfederal Revenue                                                   (984,453)                          (5,969,661)
      C. Total Revenue                                    $                 (4,952,448)     $                   (10,325,178)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                 $                            0    $                              0
 4. Costs Not Assigned to Programs                        $                            0    $                              0
 5. (Less: Earned Revenues) Not Attributed to
 Programs                                                 $                          0      $                              0
 Total Net Cost                                           $                142,198,353      $                    158,658,205


Relevant Information for Comprehension

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information related
to the amount of output or outcome for a given program or organization administered by a responsible reporting entity.
The DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon
the performance measures as required by the Government Performance and Results Act. The DoD is in the process of
reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
Government,” as amended by SFFAS No. 30, “Inter-entity Cost Implementation.”

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
expenses are adjusted to agree with internal seller-side revenue. Expenses are generally adjusted by reclassifying
amounts between federal and nonfederal expenses.




                                                              73
                                                                              U.S. Air Force 2013 Agency Financial Report




The Air Force does not meet accounting standards. Information presented is based on budgetary obligations,
disbursements, and collection transactions, as well as nonfinancial feeder systems adjusted to record known accruals for
major items such as payroll expenses, accounts payable and environmental liabilities.

The Air Force’s accounting systems generally do not capture information relative to heritage assets separately and
distinctly from normal operations.

The $8.7 million abnormal balance in Military Personnel Nonfederal Revenue is due to the return of their overearnings to
the U.S. Treasury.

In 2013 Operations, Readiness & Support reported an abnormal balance for Intragovernmental cost in the amount of $1.8
billion. This is in relation to transfers to and from other government entities. Because of business practices, sometimes
transfers from other Intergovernmental entities are recorded against program cost instead of revenue.



 Note 19.        Disclosures Related to the Statement of Changes in Net Position

Other Financing Sources, Other is comprised of unsupported adjustments to reconcile reported intragovernmental
transfers, the majority of which are recorded at the Air Force Component level, as the respective federal partners could
not be identified nor the transfers reconciled.

Effective with FY 2013 reporting, the Department has elected an alternative presentation for the Statement of Changes in
Net Position (SCNP)as provided for in Statement of Federal Financial Accounting Standards (SFFAS) No. 43: “Funds
from Dedicated Collections: Amending Statement of Federal Financial Accounting Standards 27, Identifying and
Reporting Earmarked Funds.” Prior to the implementation of SFFAS 43, the SCNP contained separate columns for
reporting of funds from dedicated collections. Beginning in FY 2013, the SCNP will provide a reference to the “Funds
from Dedicated Collections” footnote and will no longer include separate columns on the face of the statement.

The Appropriations Received on the Statement of Changes in Net Position (SCNP) do not agree with Appropriations on
the Statement of Budgetary Resources (SBR) in the amount of $10.3 billion. The difference is due to additional resources
included in the Appropriations line item on the SBR. Refer to Note 20, Disclosures Related to the Statement of Budgetary
Resources, for further information.




                                                            74
                                                                               U.S. Air Force 2013 Agency Financial Report




 Note 20.         Disclosures Related to the Statement of Budgetary Resources


 As of September 30                                                          2013                              2012
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                   $                 83,828,998     $                83,077,686

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                                0                              0

Relevant Information for Comprehension

Apportionment Categories

Funds are apportioned by three categories: (1) Category A is apportioned quarterly, (2) Category B is apportioned by
activity or project, and (3) Exempt is funds not subject to apportionment. The amounts of direct and reimbursable
obligations incurred are stated in the table.

                               Category A                 Category B                 Exempt
    Direct                     $90.4 billion              $62.7 billion              $14.2 million
    Reimbursable                $6.0 billion               $3.1 billion              $ 0 million

Intraentity Transactions

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.

Permanent Indefinite Appropriations

Permanent indefinite appropriations are as follows (reference Note 23 for additional information):

Department of the Air Force General Gift Fund [10 USC 2601(b)]

Wildlife Conservation Fund [16 USC 670(a)]

Air Force Cadet Fund [37 USC 725(s)]

Medicare-Eligible Retiree Health Fund Contribution, Air Force (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Air Force (10 USC 1116)

Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Air Force (10 USC 1116)

Legal limitations and time restrictions on the use of unobligated appropriation balances such as upward adjustments are
provided under Public Law.



                                                             75
                                                                           U.S. Air Force 2013 Agency Financial Report




Appropriations Received

Appropriations on the SBR differ from those reported on the Statement of Changes in Net Position (SCNP) because (1)
Appropriations on the SBR include transfers and permanent reductions to authority and (2) Appropriations Received on
the SCNP do not include dedicated appropriations and earmarked receipts. Dedicated appropriations and earmarked
receipts are accounted for as either nonexchange revenue or donations and forfeitures of cash and cash equivalents.
This resulted in a $10.3 billon difference.




                                                          76
                                                                       U.S. Air Force 2013 Agency Financial Report




Note 21.       Reconciliation of Net Cost of Operations to Budget



As of September 30
                                                                      2013                            2012
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                           $    162,141,210       $              182,251,093
2. Less: Spending authority from offsetting                            (13,123,636)                     (15,865,739)
   collections and recoveries (-)
3. Obligations net of offsetting collections                      $    149,017,574       $              166,385,354
    and recoveries
4. Less: Offsetting receipts (-)                                           (93,909)                       (177,075)
5. Net obligations                                                $    148,923,665       $              166,208,279
Other Resources:
6. Donations and forfeitures of property                                         0                                 0
7. Transfers in/out without reimbursement (+/-)                            238,398                       (1,200,678)
8. Imputed financing from costs absorbed by others                         747,791                           763,656
9. Other (+/-)                                                           5,734,950                         3,222,510
10. Net other resources used to finance activities                $      6,721,139       $                 2,785,488
11. Total resources used to finance activities                    $    155,644,804       $              168,993,767
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                   $          (751,311)   $                (4,038,873)
    12b. Unfilled Customer Orders                                            (187,645)                        212,936
13. Resources that fund expenses recognized in prior                         (664,173)                    (2,115,191)
     Periods (-)
14. Budgetary offsetting collections and receipts that                         93,909                         177,075
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)                 (9,484,846)                    (11,185,716)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                       0                               0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                   (6,051,029)                      (2,022,201)
17. Total resources used to finance items not part                $    (17,045,095)      $              (18,971,970)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost                  $    138,599,709       $              150,021,797
     of Operations




                                                             77
                                                                   U.S. Air Force 2013 Agency Financial Report




As of September 30
                                                                  2013                         2012
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:


Components Requiring or Generating Resources in Future
    Period:
19. Increase in annual leave liability                        $                0   $                   17,377
20. Increase in environmental and disposal liability                           0                            0
21. Upward/Downward reestimates of credit subsidy                              0                            0
    expense (+/-)
22. Increase in exchange revenue receivable from                               0                      (44,742)
    the public (-)
23. Other (+/-)                                                          371,739                      188,189
24. Total components of Net Cost of Operations that           $          371,739   $                  160,824
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                             $    11,951,400      $              11,802,237
26. Revaluation of assets or liabilities (+/-)                      1,673,505                      2,676,242
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                         0                             0
    27b. Cost of Goods Sold                                                  0                             0
    27c. Operating Material and Supplies Used                        6,564,693                    23,708,304
    27d. Other                                                    (16,962,693)                  (29,711,199)
28. Total Components of Net Cost of Operations that           $      3,226,905     $               8,475,584
    will not Require or Generate Resources


29. Total components of Net Cost of Operations                $     3,598,644      $                8,636,408
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                    $     3,598,644      $                8,636,408




                                                         78
                                                                               U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

Due to Air Force financial system limitations, budgetary data do not agree with proprietary expenses and capitalized
assets. The difference between budgetary and proprietary data is a previously identified deficiency. The amount of the
adjustment to the note schedule to bring it into balance with the Statement of Net Cost is ($14.2) million in the Other
Components Not Requiring or Generating Resources category.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated
due to intraagency budgetary transactions not being eliminated:

    •   Obligations Incurred
    •   Less: Spending Authority from Offsetting Collections and Recoveries
    •   Obligations Net of Offsetting Collections and Recoveries
    •   Less: Offsetting Receipts
    •   Net Obligations
    •   Undelivered Orders
    •   Unfilled Customer Orders

Other Resources Used to Finance Activities consist of other gains to adjust intragovernmental transfers in.

Other Resources Used to Finance Items Not Part of the Net Cost of Operations include adjustments to net obligated
resources that do not affect the Net Cost of Operation such as net transfers in and out without reimbursement, and other
gains and losses to adjust intragovernmental transfers in.

Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period
consist of expenses due to Air Force active military personnel.

Other Components not Requiring or Generating Resources include expenses for Operations and Maintenance,
Procurement, Military Construction and Family Housing.




 Note 22.         Disclosures Related to Incidental Custodial Collections

The Air Force collected $43.1 million of incidental custodial revenues generated primarily from collection of accounts
receivable related to cancelled accounts. These funds are not available for use by Air Force. At the end of each fiscal
year, the accounts are closed and the balances rendered to the U.S. Treasury.




                                                             79
                                                                              U.S. Air Force 2013 Agency Financial Report




 Note 23.           Earmarked Funds

                                                                                  2013
BALANCE SHEET
                                                             Medicare
As of September 30                        Military                             Other
                                                          Eligible Retiree
(Amounts in thousands)                   Retirement                          Earmarked        Eliminations           Total
                                                           Health Care
                                           Fund                                Funds
                                                                Fund
ASSETS
Fund balance with Treasury               $            0          $       0    $     26,530     $             0       $ 26,530

Investments                                           0                  0           1,077                   0               1,077

Accounts and Interest Receivable                      0                  0           (154)                   0               (154)

Other Assets                                          0                  0           4,869                   0          4,869
Total Assets                             $            0          $       0    $     32,322     $             0       $ 32,322


LIABILITIES and NET POSITION



Accounts Payable and Other Liabilities                0                  0               62                23                  85
Total Liabilities                        $            0          $       0    $          62    $           23        $         85



Unexpended Appropriations                             0                  0                0                  0                  0

Cumulative Results of Operations                      0                  0          32,260             1,104                33,364



Total Liabilities and Net Position       $            0          $       0    $     32,322     $       1,127         $ 33,449


STATEMENT OF NET COST
For the period ended September 30
(Amounts in thousands)
Program Costs                            $            0          $       0    $      4,334     $      (1,079)        $       3,255

Less Earned Revenue                                   0                  0               0                  0                    0
Net Program Costs                        $            0          $       0    $      4,334     $      (1,079)        $       3,255
Less Earned Revenues Not Attributable to
Programs                                              0                  0                0                  0                  0

Net Cost of Operations                   $            0          $       0    $      4,334     $      (1,079)        $       3,255




                                                            80
                                                                         U.S. Air Force 2013 Agency Financial Report




                                                                           2013
STATEMENT OF CHANGES IN NET                          Medicare
POSITION                                Military                       Other
                                                  Eligible Retiree
For the period ended September 30      Retirement                    Earmarked           Eliminations            Total
                                                   Health Care
(Amounts in thousands)                   Fund                          Funds
                                                        Fund

Net Position Beginning of the Period   $         0    $          0   $       19,470 $                   0    $         19,470

Net Cost of Operations                           0               0            4,334             (1,079)                 3,255

Budgetary Financing Sources                      0               0           17,149                     0              17,149
Other Financing Sources                          0               0                (25)               25                    0

Change in Net Position                 $         0    $          0   $       12,790 $             1,104      $         13,894


Net Position End of Period             $         0    $          0   $       32,260 $             1,104      $         33,364




                                                      81
                                                                           U.S. Air Force 2013 Agency Financial Report




                                                                            2012

BALANCE SHEET
                                                       Medicare
As of September 30                        Military                       Other
                                                    Eligible Retiree
(Amounts in thousands)                   Retirement                    Earmarked          Eliminations           Total
                                                     Health Care
                                           Fund                          Funds
                                                          Fund


ASSETS

Fund balance with Treasury               $         0   $           0   $       13,558      $             0   $      13,558

Investments                                        0               0            1,072                    0               1,072

Accounts and Interest Receivable                   0               0                  0                  0                  0

Other Assets                                       0               0            5,042                    0           5,042
Total Assets                             $         0   $           0   $       19,672      $             0   $      19,672


LIABILITIES and NET POSITION



Accounts Payable and Other Liabilities             0               0               202                   0                202
Total Liabilities                        $         0   $           0   $           202     $             0   $            202



Unexpended Appropriations                          0               0                  0                  0                  0

Cumulative Results of Operations                   0               0           19,470                    9          19,479



Total Liabilities and Net Position       $         0   $           0   $       19,672      $             9   $      19,681


STATEMENT OF NET COST
For the period ended September 30
(Amounts in thousands)
Program Costs                            $         0   $           0   $           443     $             0   $            443

Less Earned Revenue                                0               0          (4,837)                    0         ( 4,837)
Net Program Costs                        $         0   $           0   $      (4,394)      $             0   $      (4,394)
Less Earned Revenues Not Attributable to
Programs                                           0               0                  0                  0                  0

Net Cost of Operations                   $         0   $           0   $      (4,394)      $             0   $      (4,394)




                                                           82
                                                                                 U.S. Air Force 2013 Agency Financial Report




                                                                                  2012
STATEMENT OF CHANGES IN NET                                Medicare
POSITION                                      Military                          Other
                                                        Eligible Retiree
For the period ended September 30            Retirement                       Earmarked         Eliminations          Total
                                                         Health Care
(Amounts in thousands)                         Fund                             Funds
                                                              Fund

Net Position Beginning of the Period          $         0 $               0 $        12,425 $                  0 $        12,425

Net Cost of Operations                                  0                 0         (4,394)                    0          (4,394)

Budgetary Financing Sources                             0                 0           2,660                    0               2,660
Other Financing Sources                                 0                 0               (9)                  9                  0

Change in Net Position                        $         0 $               0 $         7,045 $                  9 $             7,054


Net Position End of Period                    $         0 $               0 $        19,470 $                  9 $        19,479


Relevant Information for Comprehension

Effective with FY 2013 reporting, the Air Force has reclassified Other Earmarked Funds in accordance with clarifying
language provided by the Statement of Federal Financial Accounting Standards 43: “Funds from Dedicated Collections:
Amending Statement of Federal Financial Accounting Standards 27, Identifying and Reporting Earmarked Funds.” For
comparative purposes, FY 2012 balances have been restated to reflect the removal of the reclassified fund/funds from FY
12 balances.

The reclassified fund/funds was/were evaluated against SFFAS 43 and determined to no longer meet the criteria for
reporting as “dedicated collections” because 1) of the explicit exclusion for funds that were established to account for
pensions, other retirement benefits, other postemployment or other benefits provided for federal employees; and/or 2) the
funds primary source of financing came from the federal government rather than from the public.

Department of the Air Force General Gift Fund [10 USC 2601 (b)]

The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of real or
personal property, made on the condition that it is used for the benefit (or in connection with the establishment,
maintenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force’s jurisdiction. The fund
is available to such institutions or organizations subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is accumulated in
the fund.

Wildlife Conservation Fund [16 USC 670 (a)]

The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on military
installations, (2) the sustainable multipurpose use of the resources which include hunting, fishing, trapping, and
nonconsumptive uses, and (3) the public access to military installations to facilitate its use, subject to safety requirements
and military security. The fund is available to carry out these programs and other such expenses that may be necessary
for the purpose of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the authority to
collect fees from the sale of hunting and fishing permits.




                                                              83
                                                                              U.S. Air Force 2013 Agency Financial Report




Air Force Cadet Fund [37 USC 725 (s)]

The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are made for the
personal services of cadets such as laundry, arts, and athletics while collections are received from the same cadets at
least equal to any disbursements made.

The Air Force General Gift Fund and Wildlife Conservation Fund are trust funds. The Air Force Cadet Fund is classified as
a special fund. All three funds utilize receipt and expenditure accounts in accounting for and reporting the funds.



 Note 24.         Fiduciary Activities


 Schedule of Fiduciary Activity

 For the period ended September 30                                                                         2012
                                                                    2013
 (Amounts in thousands)

 1. Fiduciary net assets, beginning of year           $                         32,517    $                              37,353
 2. Fiduciary revenues                                                               0                                        0
 3. Contributions                                                               45,612                                   49,746
 4. Investment earnings                                                          2,692                                    3,047
 5. Gain (Loss) on disposition of investments, net                                   0                                        0
 6. Administrative and other expenses                                                0                                        0
 7. Distributions to and on behalf of beneficiaries                           (47,729)                                 (57,629)
 8. Increase/(Decrease) in fiduciary net assets       $                            575    $                             (4,836)

 9. Fiduciary net assets, end of period               $                         33,092    $                                 32,517



 Schedule of Fiduciary Net Assets

 For the period ended September 30
                                                                    2013                                   2012
 (Amounts in thousands)
 FIDUCIARY ASSETS
 1. Cash and cash equivalents                         $                         33,091    $                                 32,517
 2. Investments                                                                      0                                           0
 3. Other Assets                                                                     0                                           0

 FIDUCIARY LIABILITIES
 4. Less: LIABILITIES                                 $                               0   $                                     0

 5. TOTAL FIDUCIARY NET ASSETS                        $                         33,091    $                                 32,517




                                                            84
                                                                                U.S. Air Force 2013 Agency Financial Report




Relevant Information for Comprehension

A fiduciary relationship may exist anytime a Federal Government entity collects or receives, and holds or makes
disposition of assets in which a non-federal individual or entity has an ownership interest that the Federal Government
must uphold. The relationship is based on statute or other legal authority and the fiduciary activity must be in furtherance
of that relationship. The Air Force’s fiduciary activities primarily consist of the Savings Deposit Program (SDP). SDP was
established to provide members of the uniformed services serving in a designated combat zone the opportunity to build
their financial savings.



 Note 25.         Other Disclosures

                                                                         2013
 As of September 30
                                                                     Asset Category
                                Land and Buildings        Equipment                 Other                        Total
 (Amounts in thousands)

 1. ENTITY AS
    LESSEE-Operating
    Leases
  Future Payments Due
    Fiscal Year
        2014                                 31,373                      0                  15,903                            47,276
        2015                                 30,251                      0                  16,062                            46,313
        2016                                 26,599                      0                  16,222                            42,821
        2017                                 25,771                      0                  16,384                            42,155
        2018                                 23,193                      0                  16,525                            39,718
        After 5 Years                        11,481                      0                  16,739                            28,220

 Total Future Lease
   Payments Due             $              148,668 $                     0 $                97,835 $                     246,503


Relevant Information for Comprehension

Leases in the land and buildings category include costs for operating leased facilities for the active Air Force in the United
States and overseas. Land and Buildings consist mostly of housing facilities as well as other mission critical assets.

Leases in the other category are made up of commercial leases. Commercial leases are leases made by the Air Force
with the general public. These would include leases with dealerships, car rental companies, or any other such entity that
provides car leasing services.

 Note 26.         Restatements

Not applicable for 2013.




                                                              85
                          U.S. Air Force 2013 Agency Financial Report




General Fund
Fiscal Year 2013
Required Supplementary
Stewardship Information




                     86
                                                                               U.S. Air Force 2013 Agency Financial Report




STEWARDSHIP INVESTMENTS

Stewardship investments are substantial investments made by DoD for the benefit of the nation, but are not physical
assets owned by DoD. Stewardship investments include expenses incurred for federally financed, but not federally
owned, physical property (Nonfederal Physical Property) and federally financed research and development (Research and
Development).

NONFEDERAL PHYSICAL PROPERTY

Nonfederal Physical Property investments are expenses included in calculating net cost incurred by the reporting entity for
the purchase, construction or major renovation of physical property owned by state and local governments. The expenses
include the costs identified for major additions, alterations and replacements, purchases of major equipment, and
purchases or improvements of other nonfederal assets. In addition, Nonfederal Physical Property Investments include
federally owned physical property transferred to state and local governments.


                                     NONFEDERAL PHYSICAL PROPERTY
                                Yearly Investment in State and Local Governments
                                  For the Current and Four Preceding Fiscal Years
                                                       ($ in millions)
    Categories                                          FY 2013 FY 2012         FY                FY 2010        FY 2009
    1. Transferred Assets:
        National Defense Mission Related                           0           0             0             0                 0
    2. Funded Assets:
        National Defense Mission Related                    $ 12.3        $ 7.6     $ 12.0        $    11.5       $   19.6
    Totals                                                  $ 12.3        $ 7.6     $ 12.0        $    11.5       $   19.6


The Air National Guard investments in Nonfederal Physical Property are strictly through the Military Construction
Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and allow joint participation with
States, Counties, and Airport Authorities for construction or repair of airfield pavements and facilities required to support
the flying mission assigned at these civilian airfields.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current DoD systems are unable to capture and summarize costs in accordance with the Federal GAAP
requirements.




                                                             87
                                                                                 U.S. Air Force 2013 Agency Financial Report




RESEARCH AND DEVELOPMENT

Research and Development investments are incurred in the search for new or refined knowledge and ideas, for the
application or use of such knowledge and ideas for the development of new or improved products and processes with the
expectation of maintaining or increasing national economic productive capacity or yielding other future benefits.

                              INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                 Yearly Investment in Research and Development
                                   For the Current and Four Preceding Fiscal Years
                                                       ($ in millions)
    Categories                                          FY 2013 FY 2012         FY                  FY 2010        FY 2009
    1. Basic Research                                      $     473      $     494   $     475     $     473       $     444
    2. Applied Research                                        1,024          1,120       1,175         1,120           1,185
    3. Development:
        Advanced Technology Development                             582        598         546            598            709
        Advanced Component Development
          and Prototypes                                       1,105          1,179       1,981         1,179           2,283
        System Development and Demonstration                   4,503          2,783       3,137         2,783           3,925
        Research, Development, Test and
          Management Support                                 1,114    1,270             1,440         1,270           1,480
        Operational Systems Development                     14,664   14,913            18,653        14,913          16,460
    Totals                                                       $ $ 22,357                 $      $ 22,336        $ 26,486

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena
and of observable facts without specific applications, processes, or products in mind. Basic Research involves the
gathering of a fuller knowledge or understanding of the subject under study. Major outputs are scientific studies and
research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and specific need may be met. It is the practical application of such knowledge or understanding for
the purpose of meeting a recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicality of proposed solutions and determining their parameters. Major
outputs are scientific studies, investigations, research papers, hardware components, software codes, and limited
construction of, or part of, a weapon system, to include non-system specific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of the following
five stages:

    1. Advanced Technology Development is the systematic uses of the knowledge or understanding gained from
research directed towards proof of technological visibility and assessment of operational and productivity rather than the
development of hardware for service use. Employs demonstration activities intended to prove or test a technology or
method.

    2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating
environment as possible to assess the performance or cost reduction potential of advanced technology. Programs in this
phase are generally system specific. Major outputs of Advanced Component Development and Prototypes are hardware
and software components, or complete weapon systems, ready for operational and developmental testing and field use.

     3. System Development and Demonstration concludes the program or project and prepares it for production. It
consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapon systems
finalized for complete operational and developmental testing.

   4. Research, Development, Test and Evaluation Management Support is support for installations and operations for
general research and development use. This category includes costs associated with test ranges, military construction



                                                               88
                                                                               U.S. Air Force 2013 Agency Financial Report




maintenance support for laboratories, operations and maintenance of test aircraft and ships, and studies and analyses in
support of the R&D program.


      5. Operational System Development is concerned with development projects in support of programs or upgrades
still in engineering and manufacturing development, which have received approval for production, for which production
funds have been budgeted in subsequent fiscal years.

The following are representative program examples for each of the above major categories:

Basic Research

Air Force-funded researchers combined breakthroughs in multiple disciplines including fluid dynamics and measurement
of visual perception to mitigate the risk of brownout clouds to pilots, ground crews and flight hardware. Fundamental
basic science studies of the fluid dynamic environment including the interaction of high-speed air flows with the ground
cover and the resulting physics of flying sediment led to high-fidelity computational models of brownout clouds, which
were subsequently validated with experimental testing. This was combined with research into novel optical metrics that
emphasize the visual features important for pilots, and provided the means to assess brownout cloud quality and the
degradation in the visual environment. When these research efforts were combined, the result was advanced rotorcraft
flight simulators which allow pilots to train without risk to personnel or hardware, investigate novel brownout mitigation
strategies, and increase readiness at reduced cost in support of the Air Force’s Personnel Recovery mission.
Air Force-funded research in ultracold atom science can be exploited for accelerometers and gyroscopes supporting
Precision, Navigation and Timing (PNT) in Global Positioning System (GPS)-denied environments. The physical stability
of cold atoms provides fundamental constants of nature which allows the measuring of time to better than one second in
3.7 billion years. Current gyroscopes are based on 1970’s precision machined technology with over 19,000 moving parts.
Cold atom gyroscopes, in contrast, have no moving parts and have significantly lower bias error while having enhanced
sensitivity to acceleration than mechanical gyroscopes. In work performed at the Air Force Research Laboratory (AFRL),
researchers designed an “atom chip” which incorporates a magneto-optical trap for cold atoms in a palm-sized package
that uses lasers and magnetic field coils to reach ultracold conditions without the need for cryogenic technology. This
work suggests production system costs similar to existing mechanical technology while preserving enhanced performance
for the Air Force’s PNT mission.

Applied Research

The Joint Space Operations Center (JSpOC) Mission System (JMS) Program is the Program of Record for all Command
and Control (C2) and Space Situational Awareness (SSA) technologies destined for the JSpOC. This multi-year effort
plans to incrementally deliver a net-centric infrastructure, Space User Defined Operating Picture (UDOP), and all required
C2 and SSA functionality to the JSpOC. A prototype JMS system was delivered in FY09. This risk reduction activity was
very successful and the JMS Program Manager chose to take the risk reduction activity to the next level. The initial
prototype was extended and made more robust. Five additional spirals were delivered to the JSpOC which culminated in
operational acceptance of the first increment of JMS by the Commander of Air Force Space Command in March 2013.
Increment 1, which delivered the foundational infrastructure, UDOP, and approximately eighty applications, is being used
operationally on multiple networks. [Additional details provided under System Development and Demonstration}.

AFRL engineers working with Miami University demonstrated a 23 dB receiver performance improvement using
imbalance compensation techniques for wideband electronic intelligence receiver applications. Many electronic
intelligence receivers utilize an In-phase/Quadrature (I/Q) digitization scheme to increase processing bandwidth, yet this
technique can lead to imbalances in the performance, particularly at the band edges. Building upon previous in-house
research in this area, engineers implemented a wideband I/Q imbalance compensation algorithm in real time. The
hardware implementation demonstrated a major “break-through” with an average of 23 dB improvement in performance
thus increasing dynamic range and sensitivity for next generation electronic intelligence receivers.




                                                             89
                                                                                U.S. Air Force 2013 Agency Financial Report




Advanced Technology Development

On 1 May 2013, the U.S. military launched an experimental hypersonic aircraft (the X-51A Waverider), accelerating the
craft to more than five times the speed of sound in the longest-ever mission for a vehicle of its kind. The Air Force's X-
51A Waverider reached a top speed of Mach 5.1 during the test flight, traveling more than 230 nautical miles in just over
six minutes.

In addition, Air Force science and technology developed a multi-shot and multi-target aerial demonstration system
capable of disabling, degrading, or damaging an adversary’s electronic system. The system called CHAMP (Counter
Electronics High Powered Microwave Advanced Missile Project) was successfully flight tested on 16 October 2012.
During the flight test, the CHAMP cruise missile navigated a pre-programmed flight plan and emitted bursts of high-
powered microwaves at targets containing a wide range of representative electronic equipment, effectively delivering a
functional disable of the systems. CHAMP is an innovation that meets the size, weight, and safety requirements to
integrate into an existing aerial platform. CHAMP has no harmful effect on people or structures in and around the target
area. CHAMP technology will provide Combatant Commanders with a non-kinetic counter electronics capability as a
complement to lethal measures, increasing mission options for the warfighter.

Advanced Component Development and Prototypes (ACD&P):

Continuing International Cooperative Research and Development (ICR&D) activities include the Fuel System Failure
Effects (FSFE) project with Germany. FSFE has the twin goals of identifying non-destructive investigation (NDI)
techniques that detect fire damage on aircraft systems, and examining fuel system-related heat, mechanical, and
hydrodynamic damage to aircraft materials used in the fabrication of military aircraft.

Continuing International Space Cooperative Research and Development (ISCR&D) activities include the Ionospheric
Effects project with the United Kingdom. Ionospheric Effects is investigating techniques to mitigate/exploit space
environmental effects on wideband radio frequency (RF) systems. Their goal is to develop global characterization of
ionospheric phenomena and assess impacts to generic space-based radio frequency (RF) systems such as GPS and
Satellite Communications (SATCOM). In addition the project observes and characterizes ionospheric scintillation events
using improved sensors.

New ICR&D activities include the Unmanned Aircraft Systems (UAS) Heavy Fuel Operations and the Wind Tunnel Flow
Visualization projects. The UAS Heavy Fuel Operations project with the United Kingdom will develop and demonstrate
use of low octane heavy fuel (i.e. JP-8) in small Unmanned Aircraft Systems (UAS) engines as an alternative to the high
octane AVGAS
they currently require, but which is not logistically supported in the field. The Wind Tunnel Flow Visualization project with
Australia will characterize and improve Background Oriented Schlieren (BOS) flow visualization technique for use in
transonic wind tunnels with limited
optical access.

New ISCR&D activities include NAPA II with Sweden. NAPA II or Nanosatellites and Plug and Play Architectures II will
develop joint nano-satellites based on plug-and-play architectures with synthetic aperture radar (SAR) payload to include
development of "push-button" tool flows integrating ground, user, and launch segments for "designer"
nanosatellites.


System Development and Demonstration:

The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force, Navy, Marine
Corps and our allies, with maximum commonality among the variants to minimize life cycle costs. The F-35A
Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-ground aircraft to replace the F-16
and A-10, and will complement the F-22. While the F-22 will establish air dominance, the F-35 with its combination of
stealth, large internal payloads and multi-spectral avionics will provide persistent stealth and precision engagement to
                                           th
future battle space. The F-35 is in the 12 year of a 17-year System Development and Demonstration effort. The
President’s Budget for FY13 decreased procurement by 179 aircraft in order to reduce the impacts of concurrent
development and production. Significant program accomplishments in FY13 include:



                                                              90
                                                                                 U.S. Air Force 2013 Agency Financial Report




    •   The 20th flight test aircraft was delivered and the test fleet flew over 1,164 sorties / 2,018 flight hours.
    •   Eight production CTOLs were delivered (four aircraft to Nellis AFB and four aircraft to Edwards AFB) to form the
        basis for the operational test fleet.
    •   16 production CTOLs, 14 production Short Takeoff and Vertical Landing (STOVL) and two production Carrier
        Variant aircraft were delivered to Eglin AFB as part of the training fleet.
    •   The decision was made to add three squadrons to the Pilot Training Center at Luke AFB to support international
        training requirements.
    •   F-35 production aircraft flew over 1,983 sorties / 2,677 flight hours.
    •   Low Rate Initial Production (LRIP) Lots 5, 6 and airframe contracts were awarded to Lockheed Martin. LRIP Lots
        5, 6 and engine contracts were awarded to Pratt & Whitney.
    •   The CTOL completed weapon bay door open and closed supersonic clean wing flutter testing, clearing the F-35A
        to 1.6 Mach / 700 knots. The first in-flight missile launch of an AIM-120 from a CTOL aircraft occurred on 5 June
        2013.

The KC-46 is the next generation Aerial Refueling Tanker and will replace approximately one third of the aging KC-135
Stratotanker fleet. The aircraft is a militarized commercial derivative of the Boeing 767-200. The KC-46 will provide aerial
refueling support to the Air Force, Navy, and Marine Corps as well as allied nation coalition force aircraft, plus increased
capabilities for cargo and aeromedical evacuation. Significant FY2013 accomplishments include:

    •   Critical Design Review (CDR): The program conducted its in July 2013. This was a very successful review
        resulting in 20 action items of which only six were deemed critical. After all action items were resolved, the CDR
        was officially closed on 21 August 2013, one month earlier than contractually required. The program is now
        proceeding deliberately toward its next critical execution goals – flight test readiness review and first flight in 2014
        and Milestone C in 2015.
    •   Engineering & Manufacturing Design (EMD) Aircraft Assembly: The first EMD aircraft began assembly on 26 Jun
        2013. EMD aircraft #2 began assembly on 19 Aug 2013. First flight of EMD #1 (767-2C configuration) is planned
        for June 2014, with first flight of EMD aircraft #2 (KC-46 tanker configuration) planned for Jane 2015.
    •   KC-46 Aircrew Training System (ATS) Contract Award: The KC-46 ATS contract was awarded to FlightSafety on
        1 May 2013. The program is on track for early FY14 Preliminary Design Reviews (PDRs) for the training devices
        and courseware.

The Joint Space Operations Center (JSpOC) is the command and control (C2) center that enables the Joint Functional
Component Command for Space (JFCC-Space) to integrate space forces for global military operations. JSpOC Mission
Systems (JMS) replaces legacy JSpOC capabilities with sustainable hardware, open and evolvable software architecture,
and best-of-breed Space Situational Awareness tools. JMS lays the groundwork for a predictive battle management and
command & control system with continuously evolving space operator roles and responsibilities, sensor integration and
data delivery, threat warning, and rapid response capabilities. JMS is broken into multiple increments. Increment 1 has
been in continuous operations since Nov 2012. It delivered User Defined Operating Picture (UDOP) and Service
Oriented Architecture as a basis for Increment 2, which is currently in progress and will provide the capabilities necessary
to migrate off the legacy system. Increment 3 will focus on emerging threats and operational priorities that drive the need
for a space battle management and C2 capability. The following is a list of technologies completed or furthered as a
result of JMS:

    •   Modular Infrastructure & User Defined Operating Picture (UDOP)
    •   Space Order of Battle / Force Status / Sensor Management
    •   Initial Space Catalog Administration
    •   Initial Orbital Conjunction & Maneuver Reporting
    •   High Accuracy Catalog
    •   Conjunctions / Maneuver / Breakup / Re Entry
    •   Launch Processing
    •   Message Processing / Tasking

The Space Security and Defense Program (SSDP) is a Joint Department of Defense (DoD) and Office of the Director of
National Intelligence (ODNI) organization established to function as the center of excellence for options and strategies



                                                              91
                                                                                U.S. Air Force 2013 Agency Financial Report




(materiel, nonmateriel, cross-community, cross-domain) leading to a more resilient and enduring National Security Space
(NSS) Enterprise. In FY13 SSDP completed efforts resulting in the delivery and implementation of actionable solutions for
key mission areas (Operations, Satellite Communication (SATCOM), Position-Navigation and Timing (PNT), Missile
Warning, Cyber/Non- Kinetic Operations, Space Situational Awareness (SSA), Indications and Warning (I&W), and
Intelligence - Surveillance - Reconnaissance (ISR)). Specific efforts include:

    •   Supported wargames and exercises to help refine Tactics, Techniques and Procedures (TTPs) and Concept of
        Operations (CONOPS) while integrating intelligence with operations in a contested environment.
    •   Designed, developed, and delivered validated response options to Combatant Commands for varied threats and
        integrated new/revised space concepts into US Strategic Command operations/plans.
    •   Delivered Space Based Space Surveillance (SBSS) analysis that enabled architecture decisions to optimize
        sensor performance and protection metrics at a lower cost.
    •   Tested and matured key alternatives and metrics from the Geosynchronous Earth Orbit (GEO) SSA study;
        resulted in implementation of a common GEO threat baseline by the Intelligence Community and the use of an
        alternative evaluation methodology for the SSA architecture.
    •   Made significant progress and provided initial solutions to JSpOC for a functional Electomagnetic Interference
        (EMI) mitigation architecture.
    •   Completed Office of the Secretary of Defense (OSD)-directed study and began implementation of Cyber support
        to defensive space alternatives to mitigate threats against specific systems.

The Advanced Extremely High Frequency (AEHF) System is a joint service satellite communications system that will
provide survivable, global, secure, protected, and jam-resistant communications for high-priority military ground, sea and
air assets. AEHF will allow the National Security Council and Unified Combatant Commanders to control their tactical and
strategic forces at all levels of conflict through general nuclear war and supports the attainment of information superiority.
The AEHF System is the follow-on to the Milstar system, augmenting and improving on the capabilities of Milstar, and
expanding the MILSATCOM architecture.
                                                                        th
AEHF 2 completed on-orbit testing on September 24, 2012 and the 14 Air Force accepted Satellite Control Authority on
November 7, 2012. AEHF 3 was successfully launched from Cape Canaveral Air Force Station on September 18, 2013
and is expected to complete on orbit testing in FY14. AEHF 4 production is progressing smoothly with the bus and
payload over 50% complete. AEHF 4 launch availability is expected in 2017. The AEHF program is on track to obtain the
Initial Operational Capability (IOC) milestone in FY15. IOC includes mission supported, active networks and two separate
satellites operating in the AEHF mode. The operational control segment consists of one fixed and one transportable
control element and an interim fully operational communications management system.

Research, Development, Test and Evaluation Management Support:

The Air Force’s Research, Development, Test and Evaluation (RDT&E) Management Support efforts include projects
directed toward support of installations and operations required for testing at the Air Force Major Range and Test Facility
Base (MRTFB) Activities.
In FY2013 multiple Arnold Engineering Development Center (AEDC) facility test capability improvement efforts were
completed. AEDC successfully completed ambient and cryogenic testing of new Infrared Arrays in the 7V and 10V space
simulation chambers in support of upgrades to the Multi-Spectral Scene Projector (MSSP) test capability. The Von
Karman Facility Hypersonic Wind Tunnels A/B/C returned to service after a 24+ month outage for Data Acquisition
System upgrades and nozzle actuator and control improvements. The Space Threat Assessment Testbed (STAT)
achieved Initial Operational Capability (IOC) upon completion of the stand-up testing for facility characterizations,
procedure refinement, and crew training.

Other significant improvement and modernization efforts in FY2013 were focused on range instrumentation and data
collection capabilities. The Combined High Speed High Resolution EO/IR Imaging (CHSHR) project modernized the fleet
of optical instrumentation (High Speed, Ultra-high Speed, Infrared cameras) on both the Eglin Test and Training Complex
and the Holloman High Speed Test Track. Telemetry System Integration Support (TSIS) completed C-band telemetry
upgrades to all Telemetry Mobile Ground Station assets used at Edwards AFB and the R-2508 Complex. Infrastructure
capabilities of the Gulf Test and Training Control Center were enhanced thru upgrades to the Chapter 10 recorders and
implementation of new telemetry processing/displays. Lastly, the Joint Gulf Range Area Network Development




                                                              92
                                                                               U.S. Air Force 2013 Agency Financial Report




(JGRAND) project advanced the upgrade effort for improved data collection and transport capability on the Eglin Range
Information Grid with the completion of Phase II of the Down Range Fiber Optic cable installation.

Operational System Development:

F-22 Raptor Program

The Air Force’s operational system efforts include projects in support of development acquisition programs or upgrades.
The F-22 Raptor program is now post-production. Operations and sustainment tempo are stabilizing as the fleet achieved
150,000 flying hours. As outstanding a capability the Raptor currently provides, the program will continue to maintain its
role as enabler of joint air dominance for years to come through a series of Operational Systems Development activities.
Increment 2 is resident in delivered aircraft and represents the first upgrade over Initial Operational Capability (IOC). The
modernization program will enhance the air vehicle, engine, and training systems to improve F-22A weapons,
communications, and Intelligence Surveillance Reconnaissance (ISR) capabilities to further enhance Global Strike
capabilities. The F-22 Raptor program is developing and fielding critical operational capability upgrades in three
interdependent increments. Increment 3.1 adds synthetic aperture radar, Small Diameter Bomb, electronic attack and
geo-location enhancements. Increment 3.2A adds electronic protection and Link-16 enhancements. Increment 3.2B
builds on these increments and adds AIM-9X, AIM-120D and improved geo-location capabilities. Operational flight
program (OFP) update 5 is in development now. Scheduled for fielding in FY15, this update will add Auto Ground
Collision Avoidance, AIM-9X Basic (lock-on before launch) and Intra-flight Data Link gateway capabilities. FY13 activities
included the continued fielding of the Increment 3.1 suite, development of Inc. 3.2a and the Defense Acquisition Board
approval of Inc. 3.2B as a separate ACAT ID program entering at Milestone B.

Small Diameter Bomb II

Shrinking force structure, increased tasking, evolving threats, and collateral damage avoidance will drive a demand for a
precision strike capability with a mission planned datalink equipped weapon. Small Diameter Bomb (SDB) II will provide
strike aircraft with a capability to attack stationary and mobile targets through the weather with standoff capability while
retaining miniature munition type weapon attributes (effective day/night, adverse weather, increased load-out, focused
logistics, etc.) plus the capability to attack a range of stationary targets across the combat arena. The program is now 37
months into the 83-month EMD phase with developmental test and evaluation ground and flight testing underway.
Testing during EMD is structured in a phased Test and Evaluation (T&E) approach with Phase I supporting verification of
Normal Attack, Coordinate Attack, and Laser Illuminated Attack modes on the F-15E. Phase II supports integration of the
full SDB II capability on the F-35B and F-35C. Production for SDB II is scheduled to start FY14 and continue through
FY24.

Airborne Warning and Control System (AWACS)

The Airborne Warning and Control System (AWACS) aircraft continues to modernize its mission capabilities to remain an
effective airborne battle management and surveillance system for command and control of combat forces. The Block
40/45 Upgrade improves the quality and timeliness of sensor data for shooters, improves combat identification, supports a
common tactical picture through multi-sensor integration, improves the AWACS contribution to Time Critical Targeting via
Data Link Infrastructure, improves electronic support measures processing, and enables more effective, faster upgrades
via an open system, Ethernet-based architecture. FY13 activities for Block 40/45 continued the development of
maintenance and crew training systems, as well as development of a Secure Iridium Communication capability. The Next
Generation Identification Friend or Foe (NGIFF) effort provides AWACS with a secure Mode 5 (and Mode S for 40/45
aircraft) capability. The AWACS program continued EMD for the Diminishing Manufacturing Sources (DMS) Replacement
of Avionics for Global Operations and Navigation (DRAGON) modification. DRAGON’s EMD effort is a cooperative
development effort with the NATO AWACS program which will provide aircraft that satisfy international airspace and air
traffic control mandates while replacing obsolete avionics. After completion of the critical design review and modification
readiness review, testing and modification of the first aircraft (from NATO) began. The AWACS program is also
continuing risk reduction efforts on multiple fronts including operations in contested environments and high bandwidth /
Beyond Line of Sight (BLOS) communication requirements needed to be relevant on tomorrow’s battlefield.




                                                             93
                                                                               U.S. Air Force 2013 Agency Financial Report




B-2 EHF SATCOM and Computer, Increment 1

The B-2 EHF Increment 1 program replaces the aircraft flight management computers, upgrades and expands digital
storage and installs fiber optic buses. The EHF Increment 1 effort is the foundation for all subsequent B-2 avionics
upgrades to include updated storage management software for additional mission flexibility and an upgrade to the
Defensive Management System to address emerging / proliferating electronic threats to ensure the B-2’s continued ability
to penetrate adversary defenses in anti-access / area denial (A2/AD) environments. The program office earned approval
for LRIP in November 2011, completed a successful initial operational test and evaluation (IOT&E) in June 2012, and
signed a production contract for five systems in September 2012. The Director, Operational Test and Evaluation
(DOT&E) submitted the Beyond LRIP report on 5 December 2012. The program was approved for Full Rate Production
(FRP) in December 2012, with contract award for the final eleven systems later that month. Installation of the first LRIP kit
is expected in October 2013. B-2 EHF Increment 1 development is complete – the program is in production and
deployment with all production hardware on contract.

B-2 Defensive Management System Modernization (DMS-M)

In FY13 the Air Force continued technology development for the DMS-M program which modernizes the original
Defensive Management System to address emerging / proliferating electronic threats, ensuring the B-2 Spirit’s continued
ability to penetrate adversary defenses in A2/AD environments. DMS-M replaces the electronic support measures (ESM),
the avionics graphics processor (AGP) and develops new antennas to expand the frequency coverage and capabilities of
the B-2 defensive system. The program completed its pre-EMD review and released a Request for Proposal for EMD in
June 2013. A successful technology development phase will culminate with Milestone B and entry into EMD in 2014.




                                                             94
                            U.S. Air Force 2013 Agency Financial Report




General Fund
Fiscal Year 2013
Required Supplementary Information




                     95
                                                                                             U.S. Air Force 2013 Agency Financial Report




                                                        Department of Defense
                                                      Department of the Air Force
                                      STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                          For the periods ended September 30, 2013 and 2012
                                                           ($ in Thousands)

                                                                  Research, Development,           Procurement       Military Personnel
                                                                     Test & Evaluation
BUDGETARY RESOURCES:
Budgetary Resources:
Unobligated balance brought forward, Oct. 1                       $              5,036,908          22,926,562                 634,512
    Unobligated balance brought forward, Oct. 1,                                 5,036,908          22,926,562                 634,512
    as adjusted
Recoveries of prior year unpaid obligations                                       524,267              622,158                 347,275
Other changes in unobligated balance (+ or -)                                    (296,578)          (1,021,162)               (213,336)
Unobligated balance from prior year budget authority, net                       5,264,597           22,527,558                 768,451
Appropriations (discretionary and mandatory)                                   22,769,454           32,951,389              35,603,505
Spending Authority from offsetting collections                                  2,726,671              550,612                 503,776
(discretionary and mandatory)
Total Budgetary Resources                                         $             30,760,722           56,029,559             36,875,732


Status of Budgetary Resources:
Obligations Incurred                                                            26,392,808           39,503,853             36,189,529
Unobligated balance, end of year
   Apportioned                                                                   3,989,688           14,760,279                184,497
   Exempt from Apportionment                                                             0                    0                      0
   Unapportioned                                                                   378,226            1,765,427                492,706
Total unobligated balance, end of year                                           4,367,914           16,525,706                677,203
Total Budgetary Resources                                         $             30,760,722           56,029,559             36,875,732

Change in Obligated Balance:
Unpaid obligations:
Unpaid obligations, brought forward, October 1 (gross)                          13,952,619           35,818,150             2,760,757
Obligated incurred                                                               26,392,808          39,503,853            36,198,529
Outlays (gross) (-)                                                            (27,560,609)         (38,361,476)          (35,763,519)
Recoveries of prior year unpaid obligations (-)                                   (524,267)            (622,158)             (347,275)
Unpaid Obligations, end of year                                                  12,260,551           36,338,369            2,848,492

Uncollected payments:
Uncollected pymts, Fed sources, brought forward, Oct 1 (-)                       (689,696)              (43,759)                (62,044)
Change in uncollected pymts, Fed sources (+ or -)                                  (44,342)                  154               (24,315)
Uncollected pymts, Fed sources, end of year (-)                                  (734,038)               (43,605)              (86,360)
Obligated balance, start of year (+ or -)                                       13,262,923            35,774,391              2,698,713
3200 Obligated balance, end of year (+ or -)                      $             11,526,513            36,294,764              2,762,132


Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                           25,496,125             33,502,001            36,107,281
Actual offering collections (discretionary and mandatory) (-)                   (2,682,329)             (550,766)             (479,461)
Change in uncollected customer payments from Federal
Sources (discretionary and mandatory) (+ or -)                                     (44,342)                   154             (24,315)
Budget Authority, net (discretionary and mandatory)                   $         22,769,454             32,951,389           35,603,505
Outlays, gross (discretionary and mandatory)                                    27,560,609             38,361,476           35,763,519
Actual offsetting collections (discretionary and mandatory) (-)                 (2,682,329)              (550,766)           (479,461)
Outlays, net (discretionary and mandatory)                                      24,878,280             37,810,710           35,284,058
Distributed offsetting receipts (-)                                                       0                     0                    0
Agency Outlays, net (discretionary and mandatory)                  $            24,878,280              37,810,710          35,284,058




                                                                          96
                                                                           U.S. Air Force 2013 Agency Financial Report




Family Housing & Military     Operations, Readiness &          2013 Combined            2012 Combined
    Construction                      Support

                1,828,591                  2,651,965              33,078,536                   38,007,021
                1,828,591                  2,651,965              33,078,536                   38,007,021

                   44,511                  2,766,696                4,304,908                    5,451,702
                  (81,165)               (1,167,381)              (2,779,621)                  (1,436,459)
                1,791,937                  4,251,280              34,603,823                    42,022,264
                  392,643                52,552,173              144,269,164                  162,892,954
                      204                  5,115,148               8,896,412                    10,414,411

         $      2,184,784                 61,918,601              187,769,399                 215,329,629



                  741,029                 59,304,991              162,141,210                 182,251,093

                1,039,647                    266,224               20,240,334                  28,142,256
                        0                     13,293                   13,293                      11,493
                  404,109                  2,334,093                5,374,562                   4,924,787
                1,443,756                  2,613,610               25,628,189                  33,078,536
         $      2,184,785                 61,918,601              187,769,399                 215,329,629



                2,802,270                  25,677,400               81,011,196                 74,701,468
                  741,029                  59,304,991             162,141,210                 182,251,093
               (1,738,018)               (58,542,858)            (161,966,481)               (170,489,664)
                  (44,511)                (2,766,696)              (4,304,907)                 (5,451,702)
                 1,760,769                 23,672,837               76,881,018                  81,011,195


                        0                 (1,378,234)               (2,173,733)                  (3,032,491)
                         0                   279,263                    210,759                     858,758
                         0                (1,098,971)               (1,962,974)                  (2,173,733)
                 2,802,270                 24,299,166               78,837,463                   71,668,977
        $        1,760,769                22,573,866                74,918,044                    78,837,462


                   392,847                 57,667,321              153,165,576                  173,307,365
                      (204)                (5,394,411)              (9,107,170)                 (11,273,169)

                          0                    279,263                  210,759                      858,758
        $           392,643                52,552,173               144,269,165                  162,892,954
                  1,738,018                58,542,858               161,966,481                  170,489,664
                      (204)                (5,394,411)               (9,107,170)                 (11,273,169)
                  1,737,814                53,148,447               152,859,311                  159,216,495
                          0                    (93,909)                 (93,909)                    (177,075)
        $         1,737,814                53,054,538               152,765,402                  159,039,420




                                                          97
                                                                                    U.S. Air Force 2013 Agency Financial Report




DISAGGREGATED STATEMETN OF BUDGETARY RESOURCES

The Air Force has performance measures based on missions and outputs. The Air Force is unable to accumulate costs
for major programs based on those performance measures because its financial processes and systems were not
designed to collect and report this type of cost information. Until the processes and systems are upgraded, the Air Force
will break out programs by major appropriation groupings.

STEWARDSHIP PLANT, PROPERTY, AND EQUIPMENT (PP&E)

                                              HERITAGE ASSETS
                                   For Fiscal Year Ended September 30, 2013
                                            Measurement          As of                                           As of
      Heritage Asset Categories                                              Additions Deletions
                                              Quantity          9/30/12                                         9/30/13
    Buildings and Structures                      Each               7,154            0              230             6,924
    Archaeological Sites                          Sites              2,649          132                0             2,781
    Museum Collection Items
    (Objects, Not Including Fine
    Art)                                          Each          134,189             790              318          134,661
    Museum Collection Items (Fine
    Art)                                          Each               1,355            22                4            1,373

Heritage Assets are items of historical, natural, cultural, educational, or artistic significance (e.g., aesthetic), or items with
significant architectural characteristics.

1. Buildings and Structures

Heritage assets are buildings and structures that are listed on, or eligible for listing on, the National Register of Historic
Places (NRHP), including multi-use facilities. These buildings and structures are maintained in accordance with the
National Historic Preservation Act (NHPA) and The Secretary of Interior’s Standards for The Treatment of Historic
Properties by each base. The Air Force reported 6,924 buildings and structures on Air Force installations and sites to be
Heritage Assets as of September 2013. Installation and Installation Support Team (IST) Cultural Resource Managers
(CRMs) were unable to report on FY13 additions because of Sequestration cuts and the October 2013 Furlough. The
total of Heritage Asset buildings decreased by 230 in FY13; most of these were demolitions covered under the 2008
Capehart-Wherry Era Housing, the 2010 Cold War Era Ammunition Storage Facilities, and Cold War Era Unaccompanied
Housing nation-wide programmatic agreements that completed NHPA Section 106 review for these abundant facilities.

Heritage Asset buildings and structures are maintained by each base and are considered to be in good condition. These
buildings and structures are subject to NHPA, Section 106 review and consultation requirements whenever Air Force
undertakings might affect their historic characteristics. Section 106 reviews ensure State Historic Preservation Officers,
tribal leaders, and other party concerns are taken into account when Air Force decides to adversely affect Heritage Asset
buildings and structures.

2. Archaeological Sites

Archaeological sites are prehistoric and historic archaeological sites that have been identified, evaluated, and determined
to be eligible for or are listed on the NRHP in accordance with NHPA Section 110. The Air Force reports 2,781
archeological sites on, or eligible for listing on, the National Register as of September 2013, an increase of 132 from the
2,649 reported for FY12. This cohort of archaeological Heritage Assets is a subset of over 19,000 archaeological sites
recorded on Air Force controlled and owned lands in the United States and its Territories.




                                                                98
                                                                               U.S. Air Force 2013 Agency Financial Report




3. Museum Collection Items, Objects

This represents the number of objects which meet the criteria for historical property as defined in Air Force Instruction 84-
103 and that have been evaluated, accessioned, and catalogued in the Air Force national historical collection. The
National Museum of the United States Air Force (NMUSAF) performs inherently governmental functions by fulfilling
statutory requirements delegated by the Secretary of the Air Force for management of the Air Force’s national historic
collection. The NMUSAF is fully accredited by the American Association of Museums.

During the period 1 October 2012 – 30 September 2013there have been 790 objects added to the collection. These
additions are a result of private donations, transfers from Air Force or other federal entities, curatorial administrative
actions, and the continued documentation of newly reported artifacts at Air Force activities worldwide. 318 objects were
deaccessioned from the collection as having been determined not to meet historic property criteria, were in poor condition,
or were transferred to other federal historical activities. As part of the NMUSAF’s active collection management process,
the accession and deaccession of objects is continuous.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a result of both
the professional care from trained conservators and ever improving exhibit/storage conditions. During FY2013 along with
continued preventive maintenance on the aircraft collection, detailed restoration work continued on the iconic B-17F
“Memphis Belle” as well as the Stearman PT-13D “Kaydet” which will be featured in much expanded Tuskegee Airmen
exhibit opening in 2014.

Museum Collection Items, Fine Art

In addition to its artifact collection, the NMUSAF holds a fine art collection separate from the Air Force Art Collection
(SAF/AFAPO) numbering 1,373 items. Containing original oils, drawings, sketches and sculptures these fine art holdings
are in direct support of NMUSAF exhibit requirements.

Stewardship Land

                                        STEWARDSHIP LAND
                              For Fiscal Year Ended September 30, 2013
                                         (Acres in Thousands)
    Facility                                        As of                                              As of
                       Facility Title                         Additions Deletions
     Code                                          9/30/12                                            9/30/13
    9110        Government Owned Land                 1,566              0             0                 1,566
    9111        State Owned Land                           0             0             0                      0
    9120        Withdrawn Public land                 6,279              0            10                 6,269
    9130        Licensed and Permitted Land             709           217              0                   926
    9140        Public Land                                0             0             0                      0
    9210        Land Easement                           160              0             0                   160
    9220        In-leased Land                          103              0             0                   103
    9230        Foreign Land                            296              0             0                   296
                                                                           Grand Total                   9,320
                                                                       Total - All Lands
                                                            Total - Stewardship Lands

Stewardship Land represents land rights owned by the Federal Government, but not acquired for, or in connection with,
items of General Property, Plant, and Equipment (PP&E). “Acquired for or in connection with” is defined as including land
acquired with the intent to construct general PP&E and land acquired in combination with general PP&E. Without
exception, all land provided to the Air Force from the public domain, or at no cost, shall be classified as Stewardship Land,
regardless of its use.




                                                             99
                                                                                U.S. Air Force 2013 Agency Financial Report




The Air Force has 9,126,187 acres of mission-essential Stewardship Land under its administration. Land purchased by
the Air Force with the intent to construct buildings or facilities is considered PP&E and is reported on the balance sheet.
All stewardship land, as reported, is in acceptable condition, based on designated use.


REAL PROPERTY DEFERRED MAINTENANCE

                                         Real Property Deferred Maintenance
                                      For Fiscal Year Ended September 30, 2013
                                                    ($ in Millions)
                                                                 Required Work
                                       Plant Replacement            (Deferred
           Property Type                      Value               Maintenance)                           Percentage
     Category 1: Buildings,
     Structures, and Utilities
     (Enduring Facilities)                          $214,479                        $18,869                  8.8%
     Category 2: Buildings,
     Structures, and Utilities
     (Excess Facilities or
     Planned for Replacement)
                                                      $12,340                            $99                 0.8%
     Category 3: Buildings,
     Structures, and Utilities
     (Heritage Assets)                                 $8,974                           $927                 10.3%


Condition Assessment Survey Method - The deferred maintenance figures in column 2 consist of the current known
maintenance and repair requirements needed to correct facility deficiencies in the AF inventory. AF Q-Ratings are not
currently based off direct condition assessments, but represent identified requirements by engineers at the installation
level. The AF is implementing a sustainment management system condition assessment method, including contract
inspections at the installations and training the in-house personnel. Upon full implementation, the deferred maintenance
will be pulled from this system.

The figures in Column 1 were calculated based off of an estimate of the current aggregate PRV of all facilities (buildings,
structures, and utilities) in the Air Force Real Property inventory of which the DoD has ownership interest (assets that
USAF holds title to, as opposed to those assets owned by foreign governments, leased facilities, out-grants, or other
federal and non-federal entities), categorized by enduring, excess, and heritage.

The AF has used this process over the past several years. The figures are slightly different from the last report due to use
of updated Real Property data and a refresh of the PRV and Q- Ratings. The decrease in deferred maintenance values is
attributable to a decrease in identified repair and maintenance projects as well as an increase in the number of facilities
forecasted for demolition or declared excess.




                                                             100
                                                                           U.S. Air Force 2013 Agency Financial Report




                                   Military Equipment Deferred Maintenance
                                   For Fiscal Year Ended September 30, 2013
                                           ($ in Thousands)
                                                                  PB-45
     Major Categories                                            Amounts    Adjustments                       Total
     1. Aircraft                                                $ 2,658,223 $ (2,344,978)                    $313,245
     2. Automotive Equipment                                         20,586      (20,586)                           0
     3. Combat
     Vehicles                                                                   0                   0                 0
     4. Construction Equipment                                                  0                   0                 0
     5. Electronic and Communications Systems                             399,059           (389,831)             9,228
     6. Missiles                                                           90,203            (90,113)                90
     7.
     Ships                                                                      0                  0                0
     8. Ordnance Weapons and Munitions                                     17,889           (17,889)                0
     9. General Purpose Equipment                                          48,821           (48,821)                0
     10. All Other Items Not Identified to Above Categories                12,101           (12,101)                0
     Total                                                            $ 3,246,882      $ (2,924,319)        $ 322,563


Amounts presented include Deferred Funding for the estimated portion of depot maintenance within Contract Logistics
Support (CLS), along with Deferred Funding for Depot Purchased Equipment Maintenance (DPEM). The figures
presented are projected deferred maintenance amounts for FY2013 based on the original position as reported in the
FY2014 President's Budget. To mitigate the impact of the unfunded requirements, the Air Force reprioritized FY2013
funds, to reduce overall aircraft/engine risk. All depot maintenance requirements for aircraft pending retirement or
planned to retire in the near-term were eliminated. In addition, the Congress increased Air National Guard depot
maintenance funding by $282M and added $45M in Military Augmentation funds for C-17 requirements based on updated
flying hour projections. This resulted in an overall reduction of Air Logistics Center workloads of 10 percent. FY2013
Overseas Contingency Operations (OCO) supplemental funding along with other adjustments for sequestration are
included in the Adjustments column. In addition, some requirements that did not generate or were otherwise reduced due
to efficiencies realized, or fact of life changes




                                                         101
                         U.S. Air Force 2013 Agency Financial Report




General Fund
Fiscal Year 2013
Audit Opinion




                   102
      U.S. Air Force 2013 Agency Financial Report




103
      U.S. Air Force 2013 Agency Financial Report




104
      U.S. Air Force 2013 Agency Financial Report




105
      U.S. Air Force 2013 Agency Financial Report




106
      U.S. Air Force 2013 Agency Financial Report




107
      U.S. Air Force 2013 Agency Financial Report




108
      U.S. Air Force 2013 Agency Financial Report




109
      U.S. Air Force 2013 Agency Financial Report




110
      U.S. Air Force 2013 Agency Financial Report




111
      U.S. Air Force 2013 Agency Financial Report




112
                                                                       U.S. Air Force 2013 Agency Financial Report




Working Capital Fund
Principal Statements
Fiscal Year 2013
The FY 2012 Department of the Air Force Working Capital Fund Principal Statements and related notes are
presented in the format prescribed by the Department of Defense Financial Management Regulation 7000.14-R,
Volume 6B. The statements and related notes summarize financial information for individual activity groups
and activities within the Working Capital Fund for the fiscal year ending September 30, 2012, and are presented
on a comparative basis with information previously reported for the fiscal year ending September 30, 2011.
The following statements comprise the Department of the Air Force Working Capital Fund Principal
Statements:
Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2012 and 2011 those resources owned or
managed by the Air Force which are available to provide future economic benefits (assets); amounts owed by
the Air Force that will require payments from those resources or future resources (liabilities); and residual
amounts retained by the Air Force, comprising the difference (net position)

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations for the years ended
September 30, 2012 and 2011. The Air Force’s net cost of operations includes the gross costs incurred by the
Air Force less any exchange revenue earned from Air Force activities.
Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s net position
resulting from the net cost of Air Force’s operations, budgetary financing sources other than exchange revenues,
and other financing sources for the years ended September 30, 2012 and 2011.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available to the Air Force
during FY 2012 and 2011, the status of these resources at September 30, 2012 and 2011, and the outlay of
budgetary resources for the years ended September 30, 2012 and 2011.
The Principal Statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, the Government Management Reform Act of 1994,
and the Office of Management and Budget’s Circular A-136, “Financial Reporting Requirements.”




                                                      113
      U.S. Air Force 2013 Agency Financial Report




114
      U.S. Air Force 2013 Agency Financial Report




115
      U.S. Air Force 2013 Agency Financial Report




116
      U.S. Air Force 2013 Agency Financial Report




117
      U.S. Air Force 2013 Agency Financial Report




118
      U.S. Air Force 2013 Agency Financial Report




119
      U.S. Air Force 2013 Agency Financial Report




120
      U.S. Air Force 2013 Agency Financial Report




121
      U.S. Air Force 2013 Agency Financial Report




122
                                                                U.S. Air Force 2013 Agency Financial Report




Working Capital Fund
Fiscal Year 2013
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                               123
                                                                              U.S. Air Force 2013 Agency Financial Report




Note 1.       Significant Accounting Policies

     1.A. Basis of Presentation

          These financial statements have been prepared to report the financial position and results of
          operations of the Air Force Working Capital Fund (AFWCF), as required by the Chief Financial
          Officers Act of 1990, expanded by the Government Management Reform Act of 1994, and other
          appropriate legislation. The financial statements have been prepared from the books and records
          of the AFWCF in accordance with, and to the extent possible, U.S. generally accepted accounting
          principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the
          Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements;
          and the Department of Defense (DoD), Financial Management Regulation (FMR). The
          accompanying financial statements account for all resources for which the AFWCF is responsible
          unless otherwise noted.

          The AFWCF is unable to fully implement all elements of USGAAP and the OMB Circular No.
          A-136, due to limitations of financial and nonfinancial management processes and systems that
          support the financial statements. The AFWCF derives reported values and information for major
          asset and liability categories largely from nonfinancial systems, such as inventory and logistic
          systems. These systems were designed to support reporting requirements for maintaining
          accountability over assets and reporting the status of federal appropriations rather than preparing
          financial statements in accordance with USGAAP. The AFWCF continues to implement process
          and system improvements addressing these limitations.

          The AFWCF currently has eight auditor identified financial statement material weaknesses: (1)
          financial and nonfinancial feeder systems do not contain an adequate audit trail for the proprietary
          and budgetary accounts, (2) AFWCF may have material amounts of account adjustments that are
          not adequately supported, (3) AFWCF cannot accurately identify all intragovernmental
          transactions by customer, which is required for eliminations when preparing consolidated financial
          statements, (4) the value of the AFWCF government property in possession of contractors may
          not be accurately reported, (5) AFWCF General Property, Plant, and Equipment (PP&E) may not
          be accurately valued, (6) Operating Materiel and Supplies (OM&S) are not reflected at historical
          cost, (7) cost of goods sold and work in progress are not recorded in accordance with the
          Statement of Federal Financial Accounting Standards (SFFAS) No. 3, "Accounting for Inventory
          and Related Property", and (8) supply management systems do not provide sufficient audit trails
          to confirm and value the in transit inventory reported as part of inventory held for sale on the
          Consolidated Balance Sheet

          1.B. Mission of the Reporting Entity

          The United States Air Force was created on September 18, 1947, by the National Security Act of
          1947. The National Security Act Amendments of 1949 established the DoD and made the Air
          Force a department within DoD. The overall mission of the United States Air Force is to fly, fight
          and win...in air, space and cyberspace. Our priorities are: (1) continue to strengthen the nuclear
          enterprise, (2) partner with Joint and Coalition team to win today’s fight, (3) develop and care for
          Airmen and their families, (4) modernize our air and space inventories, organizations, and
          training, and (5) recapture acquisition excellence.

          The stock and industrial revolving fund accounts were created by the National Security Act of
          1947, as amended in 1949 and codified in United States Code 10 Section 2208. The revolving
          funds were established as a means to more effectively control the cost of work performed by
          DoD. The DoD began operating under the revolving fund concept on July 1, 1951.




                                                           124
                                                                    U.S. Air Force 2013 Agency Financial Report




AFWCF operations consist of two major activity groups: Consolidated Sustainment Activity
Group (CSAG) and the Supply Management Activity Group - Retail (SMAG-R). All AFWCF
CSAG and SMAG-R activities establish rates based on full cost recovery. If an operating loss or
gain is incurred, the activity will make the appropriate adjustment in following years’ prices to
recoup the loss or return the gain to their customers.

The mission of CSAG is supply management of reparable and consumable items, and
maintenance activities. Supply Division activities of CSAG are authorized to procure and manage
reparable and consumable items for which the Air Force is the Inventory Control Point. The
Supply Division manages more than 106 thousand items that are generally related to weapon
systems and ground support, and include both depot level reparables and non-depot level
reparables.

Maintenance Division activities of CSAG are authorized to perform: (a) overhaul, conversion,
reclamation, progressive maintenance, modernization, software development, storage,
modification, and repair of aircraft, missiles, engines, accessories, components, and equipment;
(b) the manufacture of parts and assemblies required to support the foregoing; and (c) the
furnishing of other authorized services or products for the Air Force and other agencies of the
DoD. As directed by the Air Force Materiel Command or higher authority, the Maintenance
Division may furnish the above mentioned products or services to agencies of other departments
or instrumentalities of the U.S. Government, and to private parties and other agencies, as
authorized by law.

The SMAG-R consists of three business divisions: General Support Division (GSD), Medical-
Dental Division, and Air Force Academy Division. GSD procures and manages nearly 1.1 million
consumable supply items related to maintenance, flying hour program, and installation functions.
The majority are used in support of field and depot maintenance of aircraft, ground and airborne
communication systems, and other support systems and equipment. The Medical-Dental Division
procures and manages nearly 9 thousand different medical supply items and equipment
necessary to maintain an effective Air Force Health Care system for the active military, retirees
and their dependents. The Air Force Academy Division procures and manages a retail inventory
of uniforms, academic supplies and other recurring issue requirements for the Cadet Wing of the
United States Air Force Academy. Inventory procurement is only for mandatory items as
determined by the Cadet Uniform Board.

1.C. Appropriations and Funds

The AFWCF receives appropriations and funds as general and working capital (revolving) funds.
The AFWCF uses these appropriations and funds to execute its missions and subsequently
report on resource usage.

Working Capital Funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the goods
and services sold to customers on a reimbursable basis and maintains the corpus. Reimbursable
receipts fund future operations and generally are available in their entirety for use without further
congressional action. At various times, Congress provides additional appropriations to
supplement WCF as an infusion of cash when revenues are inadequate to cover costs within the
corpus.

1.D. Basis of Accounting

The AFWCF financial management systems are unable to meet all full accrual accounting
requirements. Many of the AFWCF financial and nonfinancial feeder systems and processes
were designed and implemented prior to the issuance of USGAAP. These systems were not




                                                 125
                                                                   U.S. Air Force 2013 Agency Financial Report




designed to collect and record financial information on the full accrual accounting basis as
required by USGAAP. Most of AFWCF’s financial and nonfinancial legacy systems were
designed to record information on a budgetary basis.

The AFWCF financial statements and supporting trial balances are compiled from the underlying
financial data and trial balances of AFWCF sub-entities. The underlying data is largely derived
from budgetary transactions (obligations, disbursements, and collections), from nonfinancial
feeder systems, and accruals made for major items such as payroll expenses, accounts payable,
and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated
AFWCF level these abnormal balances may not be evident. Disclosures of abnormal balances
are made in the applicable footnotes, but only to the extent that the abnormal balances are
evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems
and processes into compliance with USGAAP. One such action is the current revision of
accounting systems to record transactions based on the U.S. Standard General Ledger (USSGL).
Until all AFWCF’s financial and nonfinancial feeder systems and processes are updated to collect
and report financial information as required by USGAAP, AFWCF’s financial data will be derived
from budgetary transactions, data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources

The CSAG Maintenance Division recognizes revenue according to the percentage of completion
method. The CSAG Supply Division and SMAG-R recognize revenue based on flying hours
executed and the sale of inventory items.

1.F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. Current financial and nonfinancial feeder systems were not designed to collect
and record financial information on the full accrual accounting basis. Estimates are made for
major items such as payroll expenses, accounts payable and unbilled revenue. In the case of
OM&S, the consumption method is used. Under the consumption method, OM&S would be
expensed when consumed. Due to system limitations, in some instances expenditures for capital
and other long-term assets may be recognized as operating expenses. The AFWCF continues to
implement process and system improvements to address these limitations.

1.G. Accounting for Intragovernmental Activities

Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the AFWCF cannot accurately identify intragovernmental transactions by customer
because AFWCF’s systems do not track buyer and seller data at the transaction level. Generally,
seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal accounting offices. In most cases,
the buyer-side records are adjusted to agree with DoD seller-side balances and are then
eliminated. The DoD is implementing replacement systems and a standard financial information
structure that will incorporate the necessary elements that will enable DoD to correctly report,
reconcile, and eliminate intragovernmental balances.

The Treasury Financial Manual Part 2 – Chapter 4700, "Agency Reporting Requirements for the
Financial Report of the United States Government," provides guidance for reporting and
reconciling intragovernmental balances. While AFWCF is unable to fully reconcile
intragovernmental transactions with all federal agencies, AFWCF is able to reconcile balances




                                                126
                                                                   U.S. Air Force 2013 Agency Financial Report




pertaining to Federal Employees’ Compensation Act transactions with the Department of Labor,
and benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is
not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest or source of
public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To
the extent this financing ultimately may have been obtained through the issuance of public debt,
interest costs have not been capitalized since the U.S. Treasury does not allocate such costs to
DoD.

1.H. Transactions with Foreign Governments and International Organizations

Each year, AFWCF sells defense articles and services to foreign governments and international
organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions
of the Act, DoD has authority to sell defense articles and services to foreign countries and
international organizations generally at no profit or loss to the Federal Government. Payment in
U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury

The AFWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing
offices of Defense Finance and Accounting Service (DFAS), the Military Departments, the U.S.
Army Corps of Engineers (USACE), and the Department of State’s financial service centers
process the majority of the AFWCF’s cash collections, disbursements, and adjustments
worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks
issued, electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The U.S.
Treasury records these transactions to the applicable Fund Balance with Treasury (FBWT)
account. On a monthly basis, AFWCF’s FBWT is adjusted to agree with the U.S. Treasury
accounts.

1.J. Cash and Other Monetary Assets

Not applicable.

1.K. Accounts Receivable

Accounts receivable from other federal entities or the public include: accounts receivable, claims
receivable, and refunds receivable. Allowances for uncollectible accounts due from the public are
based upon analysis of collection experience by fund type. The DoD does not recognize an
allowance for estimated uncollectible amounts from other federal agencies. Claims against other
federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial
Manual.

1.L. Direct Loans and Loan Guarantees

Not applicable.




                                                127
                                                                   U.S. Air Force 2013 Agency Financial Report




1.M. Inventories and Related Property

The AFWCF values approximately 99% of its resale inventory using the moving average cost
method and reports the remaining 1% of resale inventories at an approximation of historical cost
using latest acquisition cost adjusted for holding gains and losses. The latest acquisition cost
method is used because legacy inventory systems were designed for materiel management
rather than accounting. Although these systems provide visibility and accountability over
inventory items, they do not maintain historical cost data necessary to comply with SFFAS No. 3,
"Accounting for Inventory and Related Property." Additionally, these systems cannot produce
financial transactions using the USSGL, as required by the Federal Financial Management
Improvement Act of 1996 (PL 104-208). The AFWCF is continuing to transition the balance of the
inventories to the moving average cost method through the use of new inventory systems. Most
transitioned balances, however, were not baselined to auditable historical cost and remain
noncompliant with SFFAS No. 3.

The AFWCF manages only military or government-specific materiel under normal conditions.
Materiel is a unique term that relates to military force management, and includes items such as
ships, tanks, self-propelled weapons, aircraft, etc., and related spares, repair parts, and support
equipment. Items commonly used in and available from the commercial sector are not managed
in AFWCF’s materiel management activities. Operational cycles are irregular and the military
risks associated with stock-out positions have no commercial parallel. The AFWCF holds
materiel based on military need and support for contingencies. The DoD is currently developing a
methodology to be used to account for “inventory held for sale” and “inventory held in reserve for
future sale.”

Related property includes OM&S which is valued at standard purchase price. The AFWCF uses
the consumption method of accounting for OM&S.

The AFWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a net
realizable value of $0 pending development of an effective means of valuing such materiel.

Inventory available and purchased for resale includes consumable spare and repair parts and
repairable items owned and managed by AFWCF. This inventory is retained to support military or
national contingencies. Inventory held for repair is damaged inventory that requires repair to
make it suitable for sale. Often, it is more economical to repair these items rather than to procure
them. The AFWCF often relies on weapon systems and machinery no longer in production. As a
result, AFWCF supports a process that encourages the repair and rebuilding of certain items.
This repair cycle is essential to maintaining a ready, mobile, and armed military force. Work in
process balances include (1) costs related to the production or servicing of items, including direct
material, labor, and applied overhead; (2) the value of finished products or completed services
that are yet to be placed in service; and (3) munitions in production and depot maintenance work
with its associated costs incurred in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities

Not applicable.

1.O. General Property, Plant and Equipment

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The AFWCF has not fully
implemented the threshold for real property; therefore, DoD is primarily using the capitalization
threshold of $100 thousand for General PP&E, and most real property.




                                                128
                                                                 U.S. Air Force 2013 Agency Financial Report




The WCF capitalizes all PP&E used in the performance of its mission. These assets are
capitalized as General PP&E, whether or not they meet the definition of any other PP&E
category.

When it is in the best interest of the government, the AFWCF provides government property to
contractors to complete contract work. The AFWCF either owns or leases such property, or it is
purchased directly by the contractor for the government based on contract terms. When the
value of contractor-procured General PP&E meets or exceeds the DoD capitalization threshold,
federal accounting standards require that it be reported on AFWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished
equipment that provides appropriate General PP&E information for financial statement reporting.
The DoD requires AFWCF to maintain, in their property systems, information on all property
furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The AFWCF has not fully
implemented this policy primarily due to system limitations.

1.P. Advances and Prepayments

When advances are permitted by law, legislative action, or presidential authorization, DoD’s
policy is to record advances or prepayments in accordance with USGAAP. As such, payments
made in advance of the receipt of goods and services should be reported as an asset on the
Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related
goods and services are received. The AFWCF has implemented this policy.

1.Q. Leases

Not applicable.

1.R. Other Assets

Other assets includes those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere on
AFWCF’s Balance Sheet.

The AFWCF conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on the
contractor that long-term contracts can cause, AFWCF may provide financing payments.
Contract financing payments are defined in the Federal Acquisition Regulations, Part 32, as
authorized disbursements to a contractor prior to acceptance of supplies or services by the
Government. Contract financing payments clauses are incorporated in the contract terms and
conditions and may include advance payments, performance-based payments, commercial
advances and interim payments, progress payments based on cost, and interim payments under
certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The AFWCF has not fully implemented this policy primarily due to
system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries,
lease and rental payments, or progress payments based on a percentage or stage of completion.
The Defense Federal Acquisition Regulation Supplement authorizes progress payments based
on a percentage or stage of completion only for construction of real property, shipbuilding, and
ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress.




                                               129
                                                                    U.S. Air Force 2013 Agency Financial Report




1.S. Contingencies and Other Liabilities

The SFFAS No. 5, "Accounting for Liabilities of the Federal Government," as amended by SFFAS
No. 12, "Recognition of Contingent Liabilities Arising from Litigation," defines a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible
gain or loss. The uncertainty will be resolved when one or more future events occur or fail to
occur. The AFWCF recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses. The
AFWCF’s risk of loss and resultant contingent liabilities arise from pending or threatened litigation
or claims and assessments due to events such as aircraft, ship and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.

1.T. Accrued Leave

The AFWCF reports liabilities for military leave and accrued compensatory and annual leave for
civilians. Sick leave for civilians is expensed as taken. The liabilities are based on current pay
rates.

1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended appropriations represent the amounts of budget authority that are unobligated and
have not been rescinded or withdrawn. Unexpended appropriations also represent amounts
obligated for which legal liabilities for payments have not been incurred.

Cumulative results of operations represent the net difference between expenses and losses, and
financing sources (including appropriations, revenue, and gains), since inception. The cumulative
results of operations also include donations and transfers in and out of assets that were not
reimbursed.

1.V. Treaties for Use of Foreign Bases

Not applicable.

1.W. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and
collections matched at the transaction level to specific obligations, payables, or receivables in the
source systems and those reported by the U.S. Treasury. Supported disbursements and
collections may be evidenced by the availability of corroborating documentation that would
generally support the summary level adjustments made to accounts payable and receivable.
Unsupported disbursements and collections do not have supporting documentation for the
transactions and most likely would not meet audit scrutiny. However, both supported and
unsupported adjustments may have been made to the [Component/Department] Accounts
Payable and Receivable trial balances prior to validating underlying transactions required to
establish the Accounts Payable/Receivable were previously made. As a result, misstatements of
reported Accounts Payable and Receivables are likely present in the [Component/Department]
financial statements.




                                                 130
                                                                U.S. Air Force 2013 Agency Financial Report




Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is
generally unable to determine whether undistributed disbursements and collections should be
applied to federal or nonfederal accounts payables/receivable at the time accounting reports are
prepared. Accordingly, the DoD policy is to allocate supported undistributed disbursements and
collections between federal and nonfederal categories based on the percentage of distributed
federal and nonfederal accounts payable and accounts receivable. Both supported and
unsupported undistributed disbursements and collections are then applied to reduce accounts
payable and receivable accordingly.

1.X. Fiduciary Activities

Not applicable.

1.Y. Military Retirement and Other Federal Employment Benefits

Not applicable.

1.Z. Significant Events

Not applicable.




                                              131
                                                                                U.S. Air Force 2013 Agency Financial Report




Note 2.        Nonentity Assets


As of September 30                                                   2013                                         2012
(Amounts in thousands)

1. Intragovernmental Assets
   A. Fund Balance with Treasury                    $                                      0   $                                      0
   B. Accounts Receivable                                                                  0                                          0
   C. Other Assets                                                                         0                                          0
   D. Total Intragovernmental Assets                $                                      0   $                                      0



2. Nonfederal Assets
   A. Cash and Other Monetary Assets                $                                      0   $                                      0

   B. Accounts Receivable                                                                 79                                        155

   C. Other Assets                                                                         0                                          0
   D. Total Nonfederal Assets                       $                                     79   $                                    155



3. Total Nonentity Assets                           $                                     79   $                                    155



4. Total Entity Assets                              $                           28,412,084     $                              29,356,494



5. Total Assets                                     $                            28,412,163    $                              29,356,649


Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are available for use in
the operations of the entity.

Nonentity assets are assets for which the AFWCF maintains stewardship accountability and reporting responsibility, but are
not available for the AFWCF’s normal operations.

These nonentity assets are interest, penalties and administrative fees that will be forwarded to the General Fund of the U.S.
Treasury upon collection.




                                                             132
                                                                               U.S. Air Force 2013 Agency Financial Report




Note 3.       Fund Balance with Treasury


As of September 30                                                     2013                                       2012
(Amounts in thousands)


1. Fund Balances
   A. Appropriated Funds                             $                                     0    $                                       0
   B. Revolving Funds                                                                730,327                                      556,537
   C. Trust Funds                                                                          0                                            0
   D. Special Funds                                                                        0                                            0
   E. Other Fund Types                                                                     0                                            0
   F. Total Fund Balances                            $                               730,327    $                                 556,537



2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                      $                             1,457,607    $                                 811,253
   B. Fund Balance per AFWCF                                                         730,327                                      556,537

3. Reconciling Amount                                $                               727,280    $                                 254,716



               The reconciling amount represents $727.3 million for the United States Transportation Command (USTC),
               which is reported by the U.S. Treasury as part of the AFWCF. However, for the purposes of Audited Financial
               Statements (AFS), USTC is included with the Other Defense Organizations reporting which is separate from
               the AFWCF. Therefore, USTC funds are not included in the AFWCF AFS.




Status of Fund Balance with Treasury

As of September 30                                              2013                                          2012
(Amounts in thousands)
1. Unobligated Balance
   A. Available                               $                                  545,223    $                                 106,559
   B. Unavailable                                                                      0                                            0



2. Obligated Balance not yet Disbursed        $                                6,512,461    $                                7,060,232



3. Nonbudgetary FBWT                          $                                         0   $                                       0



4. NonFBWT Budgetary Accounts                 $                               (6,327,357)   $                            (6,610,254)



5. Total                                      $                                  730,327    $                                 556,537




                                                          133
                                                                                U.S. Air Force 2013 Agency Financial Report




 The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a reconciliation
 between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances. The balances
 reflect the budgetary authority remaining for disbursement against current or future obligations.

 Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
 that has not been set aside to cover outstanding obligations. The unavailable balance consists of funds temporarily
 precluded from obligation by law. Certain unobligated balances may be restricted to future use and are not apportioned for
 current use. The AFWCF has no restrictions on unobligated balances.

 Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
 those received but not paid.

 Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
 accounts, clearing accounts, and nonentity FBWT. The AFWCF currently does not have a Nonbudgetary FBWT.

 NonFBWT Budgetary Accounts reduces the Status of FBWT. The amount reported as NonFBWT Budgetary Accounts is
 comprised of contract authority, unfilled orders without advance from customers, and accounts receivable.




 Note 4.        Investments and Related Interest

The AFWCF has no Investments and Related Interest.



 Note 5.      Accounts Receivable


 As of September 30                                                    2013
                                                              Allowance For Estimated
                               Gross Amount Due                                               Accounts Receivable, Net
                                                                     Uncollectibles
ts in thousands)
  1. Intragovernmental
     Receivables          $                     541,912                             N/A   $                         541,912
  2. Nonfederal
     Receivables (From
     the Public)          $                       9,197   $                     (7,146)   $                            2,051

 3. Total Accounts
    Receivable            $                     551,109   $                     (7,146)   $                         543,963




                                                               134
                                                                                  U.S. Air Force 2013 Agency Financial Report


As of September 30                                                       2012
                                                                Allowance For Estimated
                               Gross Amount Due                                                   Accounts Receivable, Net
                                                                       Uncollectibles
(Amounts in
thousands)
1. Intragovernmental
   Receivables            $                      778,172                               N/A    $                       778,172
2. Nonfederal
   Receivables (From
   the Public)            $                       12,452    $                     (7,660)     $                          4,792

3. Total Accounts
   Receivable             $                      790,624    $                     (7,660)     $                       782,964



The accounts receivable represent the AFWCF’s claim for payment from other entities. The AFWCF only
recognizes an allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved
in accordance with the Intragovernmental Business Rules.



Note 6.         Other Assets



As of September 30                                                              2013                                   2012
(Amounts in thousands)


1. Intragovernmental Other Assets
   A. Advances and Prepayments                                         $                          31     $                            28
   B. Other Assets                                                                           145,656                             167,711
   C. Total Intragovernmental Other Assets                             $                     145,687     $                       167,739

2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                          $                     177,513     $                       121,079
   B. Advances and Prepayments                                                                 6,745                             118,754
   C. Other Assets (With the Public)                                                             620                                 158
   D. Total Nonfederal Other Assets                                    $                     184,878     $                       239,991


3. Total Other Assets                                                  $                     330,565     $                       407,730

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Government that
protect the contract work from state or local taxation, liens or attachment by the contractor's creditors, transfer of property, or
disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the contractor’s work
has transferred to the Federal Government. The Federal Government does not have the right to take the work, except as
provided in contract clauses related to termination or acceptance, and AFWCF is not obligated to make payment to the
contractor until delivery and acceptance.

The balance in Outstanding Contract Financing Payments includes $152.9 million in contract financing payments and an
additional $24.6 million in estimated future payments to contractors upon delivery and government acceptance of a satisfactory
product. See additional discussion in Note 15, Other Liabilities.




                                                                 135
                                                                            U.S. Air Force 2013 Agency Financial Report




The $145.7 million in Intragovernmental Other Assets - Other Assets and the $620.1 thousand balance in Nonfederal Other
Assets – Other Assets (With the Public) are comprised of Supply Management Activity Group’s assets returned to vendors for
which credit is pending. There will be no dollar payments received for this credit but vendor billings will be offset.



Note 7.        Cash and Other Monetary Assets


The AFWCF has no Cash and Other Monetary Assets.



Note 8.        Direct Loan and Loan Guarantees



The AFWCF has no Direct Loan and/or Loan Guarantee Programs.



Note 9.        Inventory and Related Property


As of September 30                                               2013                                         2012
(Amounts in thousands)

1. Inventory, Net                                $                          25,132,201     $                              25,957,956
2. Operating Materiel & Supplies, Net                                          141,223                                       141,642
3. Stockpile Materiel, Net                                                           0                                             0

4. Total                                         $                          25,273,424     $                              26,099,598




                                                          136
                                                                                        U.S. Air Force 2013 Agency Financial Report

 Inventory, Net


 As of September 30                                                    2013
                                      Inventory,                                                                             Valuation
                                     Gross Value            Revaluation Allowance                Inventory, Net
                                                                                                                              Method
 (Amounts in thousands)

 1. Inventory Categories
    A. Available and
       Purchased for
       Resale                    $           14,728,624     $                     (41,346)                14,687,278       MAC,FIFO,LAC
    B. Held for Repair                       14,330,065                        (3,902,267)                10,427,798         LAC,MAC
    C. Excess, Obsolete,
       and Unserviceable                           40,292                         (40,292)                          0          NRV
    D. Raw Materiel                                     0                                0                          0       MAC,SP,LAC
    E. Work in Process                             17,125                                0                     17,125           AC


    F. Total                     $           29,116,106     $                  (3,983,905)                25,132,201



 As of September 30                                                    2012
                                      Inventory,                                                                             Valuation
                                     Gross Value            Revaluation Allowance                Inventory, Net
                                                                                                                              Method
 (Amounts in thousands)

 1. Inventory Categories
    A. Available and
       Purchased for
       Resale                    $           15,907,341     $                     (23,689)                15,883,652          LAC,MAC
    B. Held for Repair                       13,994,240                        (3,964,574)                10,029,666          LAC,MAC
    C. Excess, Obsolete,
       and Unserviceable                           53,822                         (53,822)                          0          NRV
    D. Raw Materiel                                     0                                0                          0       MAC,SP,LAC
    E. Work in Process                             44,638                                0                     44,638           AC


    F. Total                     $           30,000,041     $                  (4,042,085)                25,957,956

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                 NRV = Net Realizable Value                         MAC = Moving Average Cost
 SP = Standard Price                           LCM = Lower of Cost or Market
 AC = Actual Cost                              O = Other



Restrictions

There are no restrictions on the use, sale, or disposition of inventory except for War Reserve Materiel and nuclear related
spare parts.



General Composition of Inventory

Inventory includes weapon system consumable and reparable parts, base supply items, and medical-dental supplies.
Inventory is tangible personal property that is held for sale or held for repair for eventual sale, in the process of production
for sale, or to be consumed in the production of goods for sale or in the provision of services for a fee.




                                                                 137
                                                                               U.S. Air Force 2013 Agency Financial Report
Definitions

Inventory Available and Purchased for Resale includes consumable and reparable parts owned and managed by
AFWCF.

Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because AFWCF often relies on weapon systems and
machinery no longer in production, AFWCF supports a process that encourages the repair and rebuilding of certain items.
This repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of obsolete, excess to requirements, or items that cannot be
economically repaired and are awaiting disposal.

Work in Process balances include costs related to the production or servicing of items, including direct material, direct
labor, applied overhead, and other direct costs. Work in Process also includes the value of finished products or
completed services pending the submission of bills to the customer.




 Operating Materiel and Supplies, Net


 As of September 30                                           2013
                                    OM&S
                                  Gross Value         Revaluation Allowance          OM&S, Net               Valuation Method

 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use            $             141,223   $                    0   $                 141,223        SP, LAC, MAC
   B. Held for Repair                             0                        0                           0        SP, LAC, MAC
   C. Excess, Obsolete, and
      Unserviceable                               0                        0                             0           NRV


   D. Total                   $             141,223   $                    0   $                 141,223




                                                            138
                                                                                 U.S. Air Force 2013 Agency Financial Report


 As of September 30                                            2012
                                   OM&S
                                 Gross Value           Revaluation Allowance           OM&S, Net               Valuation Method

 (Amounts in
    thousands)


 1. OM&S Categories
   A. Held for Use         $                141,642    $                     0   $                 141,642        SP, LAC, MAC
   B. Held for Repair                              0                         0                             0      SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                            0                         0                             0           NRV


   D. Total                $                141,642    $                     0   $                 141,642

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost               NRV = Net Realizable Value                    MAC = Moving Average Cost
 SP = Standard Price                         LCM = Lower of Cost or Market
 AC = Actual Cost                            O = Other



General Composition of Operating Materiel and Supplies

Operating Materiel and Supplies (OM&S) includes consumable parts and supplies used to remanufacture spare parts and
repair weapons systems.

Restrictions

There are no restrictions on the use, sale, or disposition of OM&S.

Definition

Held for Use includes consumable parts and supplies.




                                                               139
                                                                                   U.S. Air Force 2013 Agency Financial Report

 Stockpile Materiel, Net


 As of September 30                                                  2013
                                     Stockpile
                                                             Allowance for Gains              Stockpile                 Valuation
                                     Materiel
                                                                  (Losses)                   Materiel, Net               Method
                                     Amount
 (Amounts in thousands)

 1. Stockpile Materiel
     Categories
    A. Held for Sale             $                   0   $                         0   $                         0        AC, LCM
    B. Held in Reserve for
       Future Sale                                   0                             0                             0        AC, LCM


    C. Total                     $                   0   $                         0   $                         0




 As of September 30                                                  2012
                                     Stockpile
                                                             Allowance for Gains              Stockpile                 Valuation
                                     Materiel
                                                                  (Losses)                   Materiel, Net               Method
                                     Amount
 (Amounts in thousands)

 1. Stockpile Materiel
     Categories
    A. Held for Sale             $                   0   $                         0   $                         0        AC, LCM
    B. Held in Reserve for
       Future Sale                                   0                             0                             0        AC, LCM


    C. Total                     $                   0   $                         0   $                         0



 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost               NRV = Net Realizable Value                      MAC = Moving Average Cost
 SP = Standard Price                         LCM = Lower of Cost or Market
 AC = Actual Cost                            O = Other



The AFWCF has no Stockpile Materials.




                                                               140
                                                                                        U.S. Air Force 2013 Agency Financial Report




Note 10.           General PP&E, Net


As of September 30
                                                                             2013
                           Depreciation/
                                            Service         Acquisition           (Accumulated Depreciation/            Net Book
                           Amortization
                                             Life             Value                     Amortization)                    Value
                             Method
(Amounts in thousands)



1. Major Asset Classes
   A. Land                     N/A            N/A       $                    0                           N/A   $                           0
   B. Buildings,
      Structures, and
      Facilities               S/L         20 Or 40                   1,542,038   $              (1,025,448)                          516,590

  C.Leasehold
    Improvements               S/L         lease term                        0                             0                               0


  D.Software                   S/L         2-5 Or 10                  1,166,183                  (1,082,579)                           83,604


  E. General Equipment         S/L          5 or 10                   3,103,028                  (2,177,793)                          925,235


  F. Military Equipment        S/L          Various                          0                             0                               0
  G. Shipbuilding
     (Construction-in-
     Progress)                 N/A            N/A                            0                             0                               0

  H.Assets Under
     Capital Lease             S/L         lease term                        0                             0                               0
  I. Construction-in-
     Progress (Excludes
     Military Equipment)
                               N/A            N/A                         8,455                          N/A                            8,455


  J. Other                                                                   0                             0                               0


  K. Total General PP&E                                 $             5,819,704   $              (4,285,820)   $                   1,533,884




As of September 30
                                                                              2012
                           Depreciation/
                                            Service         Acquisition           (Accumulated Depreciation/            Net Book
                           Amortization
                                             Life             Value                     Amortization)                    Value
                             Method
(Amounts in thousands)



1. Major Asset Classes
   A. Land                     N/A            N/A       $                    0                           N/A   $                           0
   B. Buildings,
      Structures, and
      Facilities               S/L          20 Or 40                  1,241,503   $                (726,062)                          515,441

  C.Leasehold
    Improvements               S/L         lease term                        0                             0                               0




                                                                   141
                                                                                                         U.S. Air Force 2013 Agency Financial Report




   D.Software                      S/L          2-5 Or 10                           1,160,024                     (1,055,863)                          104,161


   E. General Equipment            S/L           5 or 10                            2,946,622                     (2,067,332)                          879,290


   F. Military Equipment           S/L           Various                                    0                               0                               0
   G. Shipbuilding
      (Construction-in-
      Progress)                    N/A             N/A                                      0                               0                               0

   H.Assets Under
      Capital Lease                S/L          lease term                                  0                               0                               0
   I. Construction-in-
      Progress
          (Excludes
      Military Equipment)          N/A             N/A                                  10,928                           N/A                            10,928


   J. Other                                                                                 0                               0                               0


   K. Total General PP&E                                       $                    5,359,077     $               (3,849,257)   $                 1,509,820

  Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line       N/A = Not Applicable

Air Force Working Capital Fund




 Categories                                    Measure         Beginning Balance                 Additions             Deletions            Ending Balance
                                               Quantity
 Buildings and Structures                      Each                                 0                        0                      0                            0
 Archeological Sites                           Each                                 0                        0                      0                            0
 Museum Collection Items (Objects, Not         Each                                 0                        0                      0                            0
      Including Fine Art)
 Museum Collection Items (Objects, Fine        Each                                 0                        0                      0                            0
      Art)




                                                             (Acres in Thousands)

 Facility Code                Facility Title                   Beginning Balance                 Additions             Deletions            Ending Balance

 9110            Government Owned Land                                              0                        0                      0                            0
 9111            State Owned Land                                                   0                        0                      0                            0
 9120            Withdrawn Public land                                              0                        0                      0                            0
 9130            Licensed and Permitted Land                                        0                        0                      0                            0
 9140            Public Land                                                        0                        0                      0                            0
 9210            Land Easement                                                      0                        0                      0                            0
 9220            In-leased Land                                                     0                        0                      0                            0
 9230            Foreign Land                                                       0                        0                      0                            0
 Grand Total                                                                                                                                                     0

 TOTAL - All Other Lands                                                                                                                                         0

 TOTAL – Stewardship Lands                                                                                                                                       0




                                                                              142
                                                                             U.S. Air Force 2013 Agency Financial Report
               AFWCF does not have any restrictions on the use or convertibility of General PP&E.



Assets Under Capital Lease

As of September 30
                                                                      2013                                       2012
(Amounts in thousands)




1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                                $                                   0 $                                    0

   B. Equipment                                                                             0                                      0

   C. Accumulated Amortization                                                              0                                      0



   D. Total Capital Leases                              $                                   0 $                                    0




Note 11.        Liabilities Not Covered by Budgetary Resources



As of September 30                                                       2013                                     2012
(Amounts in thousands)

1. Intragovernmental Liabilities
   A. Accounts Payable                                      $                                0      $                             0
   B. Debt                                                                                   0                                    0
   C. Other                                                                             44,651                               48,144
   D. Total Intragovernmental Liabilities                   $                           44,651      $                        48,144

2. Nonfederal Liabilities
   A. Accounts Payable                                      $                                   0   $                             0
   B. Military Retirement and
      Other Federal Employment Benefits                                               220,332                               217,518
   C. Environmental Liabilities                                                             0                                     0
   D. Other Liabilities                                                                     0                                     0
   E. Total Nonfederal Liabilities                          $                         220,332       $                       217,518

3. Total Liabilities Not Covered by Budgetary
   Resources                                                $                         264,983       $                       265,662


4. Total Liabilities Covered by Budgetary Resources         $                       1,030,641       $                      1,016,937

5. Total Liabilities                                        $                       1,295,624       $                      1,282,599




                                                            143
                                                                                    U.S. Air Force 2013 Agency Financial Report




Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed
before budgetary resources can be provided.

The $44.7 million in Intragovernmental Liabilities - Other Liabilities is comprised of the portion of the total Air
Force Federal Employee’s Compensation Act (FECA) liability allocated to the AFWCF.

Military Retirement and Other Federal Employment Benefits consists of FECA actuarial liabilities not due and
payable during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits, for additional details and disclosures.




Note 12.         Accounts Payable


As of September 30                                                         2013

                                                                   Interest, Penalties, and
                                   Accounts Payable                                                          Total
                                                                     Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables                $                      165,321    $                         N/A      $                     165,321
2. Nonfederal Payables
     (to the Public)                                588,918                                   0                         588,918

3. Total                     $                      754,239    $                              0   $                     754,239



As of September 30                                                         2012

                                                                   Interest, Penalties, and
                                   Accounts Payable                                                          Total
                                                                     Administrative Fees

(Amounts in thousands)

1. Intragovernmental
     Payables                $                      180,335    $                         N/A      $                     180,355
2. Nonfederal Payables
     (to the Public)                                577,905                                   0                         577,905

3. Total                     $                      758,260    $                              0   $                     758,260

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by
AFWCF. The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction
level. Buyer-side accounts payable are adjusted to agree with interagency seller-side accounts receivable.
Accounts payable was adjusted by reclassifying amounts between federal and nonfederal accounts payable
and applying both supported and unsupported undistributed disbursements at the reporting entity level.




                                                                144
                                                                             U.S. Air Force 2013 Agency Financial Report




Note 13.           Debt

The AFWCF has no Debt.



Note 14.             Environmental Liabilities and Disposal Liabilities

The AFWCF has no Environmental Liabilities and Disposal Liabilities.




Note 15.           Other Liabilities

As of September 30
                                                                           2013
                                            Current                    Noncurrent
                                                                                                           Total
                                            Liability                   Liability

(Amounts in thousands)
1. Intragovernmental
   A. Advances from Others         $                        0     $                      0   $                                0
   B. Deposit Funds and
      Suspense Account
      Liabilities                                           0                            0                                    0

   C. Disbursing Officer Cash                               0                            0                                    0

   D. Judgment Fund Liabilities                             0                            0                                    0
   E. FECA Reimbursement to
      the Department of Labor                           20,367                      24,284                             44,651

   F. Custodial Liabilities                                79                            0                                   79
   G. Employer Contribution and
      Payroll Taxes Payable                              8,353                           0                                 8,353

   H. Other Liabilities                                     0                            0                                    0
   I. Total Intragovernmental
      Other Liabilities
                                   $                    28,799    $                 24,284   $                         53,083




                                                            145
                                                                         U.S. Air Force 2013 Agency Financial Report




2. Nonfederal
   A. Accrued Funded Payroll
      and Benefits                 $              129,665      $                     0   $                        129,665

   B. Advances from Others                         64,588                            0                             64,588

   C. Deferred Credits                                   0                           0                                   0
   D. Deposit Funds and
      Suspense Accounts                                  0                           0                                   0
   E. Temporary Early
      Retirement Authority                               0                           0                                   0
   F. Nonenvironmental Disposal
      Liabilities
       (1) Military Equipment
       (Nonnuclear)                                      0                           0                                   0
       (2) Excess/Obsolete
       Structures                                        0                           0                                   0
       (3) Conventional
       Munitions Disposal                                0                           0                                   0
   G. Accrued Unfunded Annual
      Leave                                              0                           0                                   0

   H. Capital Lease Liability                            0                           0                                   0

    I. Contract Holdbacks                              407                           0                                 407
   J. Employer Contribution and
       Payroll Taxes Payable                             0                           0                                   0

   K. Contingent Liabilities                             0                     24,558                              24,558

   L. Other Liabilities                            48,752                            0                             48,752
   M. Total Nonfederal Other
      Liabilities                  $              243,412      $               24,558    $                        267,970
3. Total Other Liabilities         $              272,211      $               48,842    $                        321,053

As of September 30
                                                                           2012
                                           Current                     Noncurrent
                                                                                                              Total
                                           Liability                    Liability
(Amounts in thousands)


1. Intragovernmental
   A. Advances from Others             $                       0   $                         0   $                           0

   B. Deposit Funds and Suspense
      Account Liabilities                                      0                             0                               0

   C. Disbursing Officer Cash                                  0                             0                               0

   D. Judgment Fund Liabilities                                0                             0                               0



                                                         146
                                                        U.S. Air Force 2013 Agency Financial Report




   E. FECA Reimbursement to the
      Department of Labor                21,301                     26,842                             48,143

   F. Custodial Liabilities                155                            0                              155
   G. Employer Contribution and
      Payroll Taxes Payable               7,006                           0                             7,006

   H. Other Liabilities                         0                         0                                0

   I. Total Intragovernmental
      Other Liabilities             $    28,462     $               26,842    $                        55,304

2. Nonfederal
   A. Accrued Funded Payroll and
      Benefits                      $   137,450     $                     0   $                       137,450

   B. Advances from Others               46,753                           0                            46,753

   C. Deferred Credits                          0                         0                                0
   D. Deposit Funds and Suspense
      Accounts                                  0                         0                                0
   E. Temporary Early Retirement
      Authority                                 0                         0                                0
   F. Nonenvironmental Disposal
      Liabilities
       (1) Military Equipment
       (Nonnuclear)                             0                         0                                0
       (2) Excess/Obsolete
       Structures                               0                         0                                0
       (3) Conventional Munitions
       Disposal                                 0                         0                                0
   G. Accrued Unfunded Annual
      Leave                                     0                         0                                0

   H. Capital Lease Liability                   0                         0                                0

   I. Contract Holdbacks                   827                            0                              827
   J. Employer Contribution and
      Payroll Taxes Payable                     0                         0                                0

      K. Contingent Liabilities                 0                   18,510                             18,510

   L. Other Liabilities                  47,977                           0                            47,977

   M. Total Nonfederal Other
      Liabilities                   $   233,007     $               18,510    $                       251,517

3. Total Other Liabilities          $   261,469     $               45,352    $                       306,821




                                          147
                                                                                U.S. Air Force 2013 Agency Financial Report
The $48.8 million balance in the Nonfederal Other Liabilities – Other Liabilities primarily consist of accrued liabilities
established in the Consolidated Sustainment Activity Group (CSAG) Supply as an offset to the asset established when foreign
governments provide funds to buy their respective share of inventory that is owned and managed by the Air Force under a
Cooperative Logistics Supply Support Agreement (CLSSA).

Contingent liabilities include $24.6 million related to contracts authorizing progress payments based on cost as defined in the
Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests with the
Federal Government when a specific type of contract financing payment is made. This action protects taxpayer funds in the
event of contract nonperformance. It is DoD policy that these rights should not be misconstrued as rights of ownership. The
AFWCF is under no obligation to pay contractors for amounts greater than the amounts of progress payments authorized in
contracts until delivery and government acceptance. Due to the probability the contractors will complete their efforts and
deliver satisfactory products, and because the amount of contractor costs incurred but yet unpaid are estimable, the AFWCF
has recognized a contingent liability for the estimated unpaid costs that are considered conditional for payment pending
delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs incurred
to date by contractors and amounts authorized to be paid under progress payments based on cost provisions within the FAR.
Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress payments based on cost
by the contract-authorized progress payment rate. The balance of unliquidated progress payments based on cost is deducted
from the estimated total contractor-incurred costs to determine the contingency amount.




 Capital Lease Liability

As of September 30
                                                                            2013
                                                                        Asset Category
                                    Land and
                                                            Equipment                    Other                          Total
                                    Buildings
  (Amounts in thousands)
1. Future Payments Due
  A. 2013                     $                    0   $                    0   $                       0    $                     0
  B. 2014                                          0                        0                           0                          0
  C. 2015                                          0                        0                           0                          0
  D. 2016                                          0                        0                           0                          0
  E. 2017                                          0                        0                           0                          0
  F. After 5 Years                                 0                        0                           0                          0

   G. Total Future Lease
      Payments Due            $                    0   $                    0   $                       0    $                     0
   H. Less: Imputed
      Interest Executory
      Costs                                        0                        0                           0                          0

   I. Net Capital Lease
      Liability               $                    0   $                    0   $                       0    $                     0


2. Capital Lease Liabilities Covered by Budgetary Resources                                                  $                     0


3. Capital Lease Liabilities Not Covered by Budgetary Resources                                              $                     0




                                                              148
                                                                              U.S. Air Force 2013 Agency Financial Report

As of September 30
                                                                          2012
                                                                      Asset Category
                                   Land and
                                                          Equipment                    Other                         Total
                                   Buildings
  (Amounts in thousands)
1. Future Payments Due
  A. 2012                    $                   0   $                    0   $                       0   $                  0
  B. 2013                                        0                        0                           0                      0
  C. 2014                                        0                        0                           0                      0
  D. 2015                                        0                        0                           0                      0
  E. 2016                                        0                        0                           0                      0
  F. After 5 Years                               0                        0                           0                      0

   G. Total Future Lease
      Payments Due           $                   0   $                    0   $                       0   $                  0
   H. Less: Imputed
      Interest Executory
      Costs                                      0                        0                           0                      0

   I. Net Capital Lease
      Liability              $                   0   $                    0   $                       0   $                  0


2. Capital Lease Liabilities Covered by Budgetary Resources                                               $                  0


3. Capital Lease Liabilities Not Covered by Budgetary Resources                                           $                  0




Note 16.           Commitments and Contingencies

The AFWCF is a party in various administrative proceedings and legal actions, related to claims for
environmental damage, equal opportunity matters, and contractual bid protests. The AFWCF’s Office of the
General Counsel considers the possibility of the AFWCF sustaining any losses on these legal actions to be
remote.

The AFWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award
fee payments, or dispute resolution, that may result in a future outflow of budgetary resources. Currently,
AFWCF has limited automated system processes by which it captures or assesses these potential liabilities;
therefore, no associated liabilities are recognized or disclosed.




                                                            149
                                                                                           U.S. Air Force 2013 Agency Financial Report




 Note 17.             Military Retirement and Other Federal Employment Benefits


 As of September 30                                                                2013
                                                                       (Less: Assets Available to Pay
                                           Liabilities                                                          Unfunded Liabilities
                                                                                    Benefits)
 (Amounts in thousands)


 1. Pension and Health Benefits
  A. Military Retirement Pensions     $                       0    $                                    0   $                            0
  B. Military Pre Medicare-Eligible
     Retiree Health Benefits                                  0                                         0                                0
  C. Military Medicare-Eligible
     Retiree Health Benefits                                  0                                         0                                0
  D. Total Pension and Health
     Benefits                         $                       0    $                                    0   $                            0


 2. Other Benefits
  A. FECA                             $                  220,332   $                                    0   $                      220,332
  B. Voluntary Separation
     Incentive Programs                                       0                                         0                                0
  C. DoD Education Benefits
     Fund                                                      0                                        0                                0
  D. Other                                                     0                                        0                                0
  E. Total Other Benefits             $                  220,332   $                                    0   $                      220,332

 3. Total Military Retirement and
    Other Federal Employment
    Benefits:                         $                  220,332   $                                    0   $                      220,332




Federal Employees Compensation Act (FECA)

The AFWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and is
updated at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
liability is determined using a method that utilizes historical benefit payment patterns related to a specific incurred
period to predict the ultimate payments related to that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using the Office of Management and Budget’s (OMB’s)
economic assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for discounting were
as follows:

                  2013
                  2.73% in Year 1
                  3.13% in Year 2
                  and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge




                                                                   150
                                                                                           U.S. Air Force 2013 Agency Financial Report
back year (CBY) 2013 were also used to adjust the methodology’s historical payments to current year constant
dollars.

The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

                  CBY                     COLA                   CPIM
                  2013                    N/A                    N/A
                  2014                    1.67%                  3.46%
                  2015                    1.80%                  3.82%
                  2016                    2.20%                  3.83%
                  2017                    2.20%                  3.82%
                  2018+                   2.20%                  3.82%
                  and thereafter

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based
on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage
change in the liability amount by agency to the percentage change in the actual incremental payments, (3) a
comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2013 to the average pattern
observed during the most current three charge back years, and (4) a comparison of the estimated liability per case in
the 2013 projection to the average pattern for the projections of the most recent three years.



 As of September 30                                                               2012
                                                                       (Less: Assets Available to Pay
                                              Liabilities                                                      Unfunded Liabilities
                                                                                    Benefits)
 (Amounts in thousands)(Amounts
     in thousands)


 1. Pension and Health Benefits
  A. Military Retirement Pensions     $                          0     $                            0   $                                0
  B. Military Pre Medicare-Eligible
     Retiree Health Benefits                                     0                                  0                                    0
  C. Military Medicare-Eligible
     Retiree Health Benefits                                     0                                  0                                    0
  D. Total Pension and Health
     Benefits                         $                          0     $                            0   $                                0



 2. Other Benefits
  A. FECA                             $                     217,518    $                            0   $                         217,518
  B. Voluntary Separation
     Incentive Programs                                          0                                  0                                    0
  C. DoD Education Benefits
     Fund                                                        0                                  0                                    0
  D. Other                                                       0                                  0                                    0
  E. Total Other Benefits             $                     217,518    $                            0   $                         217,518

 3. Total Military Retirement and
    Other Federal Employment
    Benefits:                         $                     217,518    $                            0   $                         217,518




                                                                      151
                                                                                             U.S. Air Force 2013 Agency Financial Report




(Amounts in                                                                            2013
   thousands)As of                                         Military Pre Medicare-   Military Medicare-
                                                                                                             Voluntary
   September 30                  Military Retirement                                                         Separation             DoD Education
                                                                Eligible Retiree      Eligible Retiree
                                       Pensions                                                              Incentive               Benefits Fund
                                                                Health Benefits       Health Benefits
                                                                                                             Programs
(Amounts in thousands)

Beginning Actuarial
     Liability               $                         0                       0                         0                   0                       0


Plus Expenses:
   Normal Cost                                         0                       0                         0                   0                       0
   Interest Cost                                       0                       0                         0                   0                       0
   Plan Amendments                                     0                       0                         0                   0                       0
   Experience Losses
   (Gains)                                             0                       0                         0                   0                       0
   Other factors                                       0                       0                         0                   0                       0


Subtotal: Expenses
before Losses (Gains)
from Actuarial
Assumption Changes                                     0                       0                         0                   0                       0



Actuarial losses/ (gains)/
due to:
  Changes in trend
  assumptions                                          0                       0                         0                   0                       0
  Changes in assumptions
  other than trend                                     0                       0                         0                   0                       0

Subtotal: Losses (Gains)
from Actuarial
Assumption Changes                                     0                       0                         0                   0                       0


Total Expenses               $                         0                       0                         0                   0                       0

Less Benefit Outlays                                   0                       0                         0                   0                       0

Total Changes in Actuarial
     Liability               $                         0                       0                         0                   0                       0

Ending Actuarial Liability   $                         0                       0                         0                   0                       0




                                                                        152
                                                                U.S. Air Force 2013 Agency Financial Report




Note 18.             General Disclosures Related to the Statement of Net Cost


Intragovernmental Costs and Exchange Revenue

As of September 30                                       2013                                       2012
(Amounts in thousands)
Military Retirement Benefits
1. Gross Cost
     A. Intragovernmental Cost                 $                               0   $                          0
     B. Nonfederal Cost                                                        0                              0
     C. Total Cost                             $                               0   $                          0
2. Earned Revenue
     A. Intragovernmental Revenue              $                               0   $                          0
     B. Nonfederal Revenue                                                     0                              0
    C. Total Revenue                           $                               0   $                          0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                               0   $                          0
Total Net Cost                                 $                               0   $                          0

Civil Works
1. Gross Cost
     A. Intragovernmental Cost                 $                               0   $                          0
     B. Nonfederal Cost                                                        0                              0
     C. Total Cost                             $                               0   $                          0
2. Earned Revenue
     A. Intragovernmental Revenue              $                               0   $                          0
     B. Nonfederal Revenue                                                     0                              0
    C. Total Revenue                           $                               0   $                          0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                               0   $                          0
Total Net Cost                                 $                               0   $                          0


Military Personnel
1. Gross Cost
     A. Intragovernmental Cost                 $                               0   $                          0
     B. Nonfederal Cost                                                        0                              0
     C. Total Cost                             $                               0   $                          0
2. Earned Revenue
     A. Intragovernmental Revenue              $                               0   $                          0
     B. Nonfederal Revenue                                                     0                              0
    C. Total Revenue                           $                               0   $                          0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                               0   $                          0
Total Net Cost                                 $                               0   $                          0




                                                   153
                                                        U.S. Air Force 2013 Agency Financial Report

Operations, Readiness & Support
1. Gross Cost
    A. Intragovernmental Cost                 $              1,437,966     $                            1,395,194
    B. Nonfederal Cost                                       9,581,339                                 11,061,635
    C. Total Cost                             $            11,019,3055     $                           12,456,829
2. Earned Revenue
     A. Intragovernmental Revenue             $             (9,313,554)    $                          (11,096,564)
     B. Nonfederal Revenue                                    (293,662)                                  (306,788)
    C. Total Revenue                          $             (9,607,216)    $                          (11,403,352)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                        0   $                                    0
Total Net Cost                                $              1,412,089     $                            1,053,477

Procurement
1. Gross Cost
    A. Intragovernmental Cost                 $                        0   $                                    0
    B. Nonfederal Cost                                                 0                                        0
    C. Total Cost                             $                        0   $                                    0
2. Earned Revenue
     A. Intragovernmental Revenue             $                        0   $                                    0
     B. Nonfederal Revenue                                             0                                        0
    C. Total Revenue                          $                        0   $                                    0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                        0   $                                    0
Total Net Cost                                $                        0   $                                    0

Research, Development, Test & Evaluation
1. Gross Cost
    A. Intragovernmental Cost                 $                        0   $                                    0
    B. Nonfederal Cost                                                 0                                        0
    C. Total Cost                             $                        0   $                                    0
2. Earned Revenue
     A. Intragovernmental Revenue             $                        0   $                                    0
     B. Nonfederal Revenue                                             0                                        0
    C. Total Revenue                          $                        0   $                                    0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                        0   $                                    0
Total Net Cost                                $                        0   $                                    0




                                                  154
                                                                             U.S. Air Force 2013 Agency Financial Report

Family Housing & Military Construction
1. Gross Cost
    A. Intragovernmental Cost                           $                                   0   $                                    0
    B. Nonfederal Cost                                                                      0                                        0
    C. Total Cost                                       $                                   0   $                                    0
2. Earned Revenue
     A. Intragovernmental Revenue                       $                                   0   $                                    0
     B. Nonfederal Revenue                                                                  0                                        0
    C. Total Revenue                                    $                                   0   $                                    0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                $                                   0   $                                    0
Total Net Cost                                          $                                   0   $                                    0

Consolidated
1. Gross Cost
    A. Intragovernmental Cost                           $                         1,437,966     $                            1,395,194
    B. Nonfederal Cost                                                            9,581,339                                 11,061,635
    C. Total Cost                                       $                        11,019,305     $                           12,456,829
2. Earned Revenue
     A. Intragovernmental Revenue                       $                        (9,313,554)    $                          (11,096,564)
     B. Nonfederal Revenue                                                         (293,662)                                  (306,788)
     C. Total Revenue                                   $                        (9,607,216)    $                          (11,403,352)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits                $                                   0   $                                    0
4. Costs Not Assigned to Programs                       $                                   0   $                                    0
5. (Less: Earned Revenues) Not Attributed to
Programs                                                $                                   0   $                                    0
Total Net Cost                                          $                         1,412,089     $                            1,053,477

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that are
supported by appropriations or other means. The intent of the SNC is to provide gross and net cost information related to the
amount of output or outcome for a given program or organization administered by a responsible reporting entity. The DoD’s
current processes and systems do not capture and report accumulated costs for major programs based upon the performance
measures as required by the Government Performance and Results Act. The DoD is in the process of reviewing available
data and developing a cost reporting methodology as required by the Statement of Federal Financial Accounting Standards
(SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government, as amended by SFFAS
No. 30, “Inter-entity Cost Implementation.”

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AFWCF's systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side expenses
are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying amounts between
federal and nonfederal expenses. Intradepartment revenues and expenses are then eliminated.

The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual costs and revenues input into
the system in time for reporting. Accrual estimates based upon budget information and historical data are made as required by
generally accepted accounting principles. These estimates reverse as actual costs or revenues are recorded.




                                                            155
                                                                                  U.S. Air Force 2013 Agency Financial Report




 Note 19. Disclosures Related to the Statement of Changes in Net Position


The $145.3 million in Other Financing Sources, Other consists primarily of other gains and losses due to the
reclassification of intragovernmental transfers in or out without reimbursement for which Air Force could not
determine the trading partners.

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
Appropriations on the Statement of Budgetary Resources (SBR). The $45.5 million difference is due to the
inclusion of the liquidation of contract authority for the receipt of the appropriation, being recorded on the same
line as the appropriation received, thus reducing the Appropriations (Discretionary and Mandatory) line on the
SBR to zero. Refer to Note 20, Disclosures Related to the Statement of Budgetary Resources for further
information.



 Note 20.         Disclosures Related to the Statement of Budgetary Resources



 As of September 30                                                              2013                                   2012
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                      $                     5,635,924     $                      6,216,080

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                                      0                                  0

 The AFWCF reported reimbursable obligations of $10.4 billion in category B.

 The SBR includes intraentity transactions because the statements are presented as combined.

 Appropriations on the SBR, does not agree with Appropriations Received on the Statement of Changes in Net Position
 (SCNP). The $45.5 million difference is due to additional resources that were transferred from the Defense Working Capital
 Fund    are    included  in    the  Appropriation     line   item   on    the    Statement    of   Budgetary Resources.




                                                               156
                                                                 U.S. Air Force 2013 Agency Financial Report




Note 21. Reconciliation of Net Cost of Operations to Budget




As of September 30
                                                                 2013                              2012
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                      $          10,421,174    $                  12,336,028
2. Less: Spending authority from offsetting                           (10,825,546)                     (12,469,386)
   collections and recoveries (-)
3. Obligations net of offsetting collections                 $           (404,372)    $                   (133,358)
    and recoveries
4. Less: Offsetting receipts (-)                                                 0                                0
5. Net obligations                                           $           (404,372)    $                   (133,358)
Other Resources:
6. Donations and forfeitures of property                                         0                               0
7. Transfers in/out without reimbursement (+/-)                           (10,337)                          34,967
8. Imputed financing from costs absorbed by others                         165,476                         180,027
9. Other (+/-)                                                             145,282                         465,112
10. Net other resources used to finance activities           $             300,421    $                    680,106
11. Total resources used to finance activities               $           (103,951)    $                    546,748
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                              $            580,156     $                     213,648
    12b. Unfilled Customer Orders                                         106,229                         (308,865)
13. Resources that fund expenses recognized in prior                       (3,498)                           (8,934)
     Periods (-)
14. Budgetary offsetting collections and receipts that                            0                               0
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)               (4,956,399)                      (5,696,852)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                    0                               0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                    (134,945)                        (500,080)
17. Total resources used to finance items not part           $         (4,408,457)    $                 (6,301,083)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost             $         (4,512,408)    $                 (5,754,335)
     of Operations




                                                       157
                                                                          U.S. Air Force 2013 Agency Financial Report




As of September 30
                                                                       2013                               2012
(Amounts in thousands)
Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:
Components Requiring or Generating Resources in
    Future Period:
19. Increase in annual leave liability                       $                         0    $                               0
20. Increase in environmental and disposal liability                                   0                                    0
21. Upward/Downward reestimates of credit subsidy                                      0                                    0
    expense (+/-)
22. Increase in exchange revenue receivable from                                   3,185                                 7,840
    the public (-)
23. Other (+/-)                                                                    2,814                                 3,137
24. Total components of Net Cost of Operations that          $                     5,999    $                           10,977
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                            $                  180,051     $                       168,796
26. Revaluation of assets or liabilities (+/-)                                1,740,478                           2,184,928
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                  0                                    0
    27b. Cost of Goods Sold                                                   8,257,100                            9,190,484
    27c. Operating Material and Supplies Used                                     1,676                                2,708
    27d. Other                                                              (4,260,807)                          (4,750,081)
28. Total Components of Net Cost of Operations that          $                5,918,498     $                      6,796,835
    will not Require or Generate Resources


29. Total components of Net Cost of Operations               $                5,924,497     $                     6,807,812
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                   $                5,924,497     $                     6,807,812



Due to the AFWCF’s financial system limitations, budgetary data does not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.

A $12.1 million adjustment was made to the Resources That Finance the Acquisition of Assets in order to align the
note schedule with the amount reported on the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intraagency budgetary transactions not being eliminated:

 •        Obligations Incurred
 •        Less: Spending Authority from Offsetting Collections and Recoveries
 •        Obligations Net of Offsetting Collections and Recoveries
 •        Less: Offsetting Receipts
 •        Net Obligations




                                                       158
                                                                              U.S. Air Force 2013 Agency Financial Report
      •       Undelivered Orders
      •       Unfilled Customer Orders

    Resources Used to Finance Activities, Other, and Resources Used to Finance Items not Part of the Net Cost of
    Operations, Other, is comprised of other gains and losses totaling $145.3 million due to the reclassification of
    intragovernmental transfers in or out without reimbursement for which Air Force could not determine the trading
    partners.



    Components Requiring or Generating Resources in Future Period, Other, in the prior year column, represents the
    change in the Federal Employees Compensation Act (FECA) unfunded liability.

    Components not Requiring or Generating Resources, Other, is comprised of $4.3 billion for Consolidated
    Sustainment Activity Group - Maintenance Division work-in-process offsets.




Note 22. Disclosures Related to Incidental Custodial Collections


    The AFWCF collected $46,100 of incidental custodial revenues generated primarily from non-entity interest,
    penalties and administrative fees collected for out-of-service debts. These funds are not available for use by
    AFWCF. At the end of each fiscal year, the accounts are closed and the balances rendered to the U.S. Treasury.




Note 23. Earmarked Funds


AFWCF has no Earmarked Funds.



Note 24. Fiduciary Activities



AFWCF has no Fiduciary Activities.



Note 25.         Other Disclosures


AFWCF has no other disclosures.



Note 26. Restatements
The Working Capital Fund has no restatements.



                                                           159
                            U.S. Air Force 2013 Agency Financial Report




Working Capital Fund
Fiscal Year 2013
Required Supplementary Information




                     160
                                                                                        U.S. Air Force 2013 Agency Financial Report




                                                  Department of Defense
                                             Air Force Working Capital Fund
                               STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                   For the periods ended September 30, 2013 and 2012
                                                    ($ in Thousands)


                                              Operations, Readiness & Support               2013 Combined                2012 Combined


Budgetary Resources:
Unobligated balance brought for, October 1                                   106,559                106,559                       555,328
        Unobligated balance brought forward,
        October 1, as adjusted                                                106,559               106,559                       555,328
Recoveries of prior year unpaid obligations                                    13,581                 13,581                       38,915
Other changes in unobligated balance (+ or -)                                  95,124                 95,124                     (553,765)
Unobligated balance from prior year budget authority, net                     215,264                215,264                        40,478
  Appropriations (discretionary and mandatory)                                 45,452                 45,452                             0
Contract Authority (discretionary and mandatory)                            6,478,610              6,478,610                    7,559,690
Spending Authority from offsetting collections
(discretionary and mandatory)                                           4,227,072                  4,227,072                   4,842,419
Total Budgetary Resources                                         $    10,966,397                 10,966,397                  12,442,587

Status of Budgetary Resources:
Obligations Incurred                                                   10,421,174                10,421,174                   12,336,028
Unobligated balance, end of year, Apportioned                             545,223                   545,223                      106,559
Total unobligated balance, end of year                                    545,223                   545,223                      106,559
Total Budgetary Resources                                         $    10,966,397                10,966,397                   12,442,587

Change in Obligated Balance:
Unpaid obligations:
Unpaid obligations, brought forward, October 1 (gross)                7,060,232                   7,060,232                     7,364,314
Obligations incurred                                                 10,421,174                  10,421,174                    12,336,028
Outlays (gross) (-)                                                 (10,955,364)                (10,955,364)                 (12,601,195)
Recoveries of prior year unpaid obligations (-)                         (13,581)                     (13,581)                     (38,915)
Unpaid obligations, end of year                                   $    6,512,461                   6,512,461                    7,060,232

Uncollected Payments:
Uncollected pymts, Fed sources, brought forward, Oct. 1 (-)            (3,113,433)                (3,113,433)                 (3,619,244)
Change in uncollected pymts, Fed sources (+ or -)                          163,031                   163,031                      505,811
Uncollected pymts, Fed sources, end of year (-)                        (2,950,401)                (2,950,401)                 (3,113,433)
Obligated balance, start of year (+ or -)                                3,946,799                  3,946,799                   3,745,070
3200 Obligated balance, end of year (+ or -)                      $      3,562,060                  3,562,060                   3,946,799

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)                  10,751,133                 10,751,133                   12,402,109
Actual offsetting collections (discretionary and mandatory) (-)       (10,974,997)               (10,974,997)                 (12,936,282)
Change in uncollected customer payments from Federal
Sources (discretionary and mandatory) (+ or -)                          163,031                      163,031                      505,811
Budget Authority, net (discretionary and mandatory)               $     (60,833)                     (60,833)                     (28,362)
Outlays, gross (discretionary and mandatory)                         10,955,364                   10,955,364                   12,601,195
Actual offsetting collections (discretionary and mandatory) (-)     (10,974,997)                 (10,974,997)                 (12,936,282)
Outlays, net (discretionary and mandatory)                               (19,633)                     (19,633)                   (335,087)
Agency Outlays, net (discretionary and mandatory)                 $      (19,633)                     (19,663)                   (335,087)




                                                                      161
                         U.S. Air Force 2013 Agency Financial Report




Working Capital Fund
Fiscal Year 2013
Audit Opinion




                   162
      U.S. Air Force 2013 Agency Financial Report




163
      U.S. Air Force 2013 Agency Financial Report




164
      U.S. Air Force 2013 Agency Financial Report




165
      U.S. Air Force 2013 Agency Financial Report




166
      U.S. Air Force 2013 Agency Financial Report




167
      U.S. Air Force 2013 Agency Financial Report




168
      U.S. Air Force 2013 Agency Financial Report




169
      U.S. Air Force 2013 Agency Financial Report




170
 “Aim High …



fly-fight-win ”
For more information or to contact us:
 Assistant Secretary of the Air Force for
 Financial Management and Comptroller
    SAF/FMPA (Financial Reporting)
 1500 West Perimeter Road, Suite 3100
        Andrews AFB, MD 20762
           www.saffm.hq.af.mil
